<html>
<title> - THE NIGERIAN TRANSITION AND THE FUTURE OF U.S. POLICY</title>
<body><pre>[Senate Hearing 106-295]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-295

 
          THE NIGERIAN TRANSITION AND THE FUTURE OF U.S. POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations


                               <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate


                    U.S. GOVERNMENT PRINTING OFFICE
61-867 CC                   WASHINGTON : 2000



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Akwei, Adotei, advocacy director for Africa, Amnesty 
  International USA, Washington, DC..............................    41
    Prepared statement of........................................    46
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................    17
Herskovits, Dr. Jean, professor of history, SUNY Purchase, New 
  York, NY.......................................................    26
    Prepared statement of........................................    31
Pickering, Hon. Thomas, Under Secretary of State for Political 
  Affairs, Department of State...................................     4
    Responses to additional questions for the record submitted by 
      Senator Biden..............................................    22

                                Appendix

Staffdel Rotblatt--Report of Travel to Nigeria and Senegal, 
  December 2-13, 1998 and February 24-March 2, 1999..............    57
Human Rights Watch, prepared statement of Bronwen Manby..........    71
Executive Summary of the U.S. Inter-Agency Assessment Team's 
  Report--Nigeria................................................    77

                                 (iii)




         THE NIGERIAN TRANSITION AND THE FUTURE OF U.S. POLICY

                              ----------                              


                       THURSDAY, NOVEMBER 4, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:35 p.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Bill Frist, 
presiding.
    Present: Senators Frist, Biden, and Feingold.
    Senator Frist. I call to order this meeting of the 
Committee on Foreign Relations. On our agenda today is the 
Nigerian transition and the future of U.S. policy. I want to 
welcome today our witnesses and others who are here to join us, 
and I want to give our thanks to Senator Helms for calling this 
committee hearing at such an important time in U.S.-Nigeria 
relations and in Nigeria's transition to civilian rule. We 
appreciate the chairman's recognition of the importance of 
Nigeria to U.S. interests in Africa.
    I also want to give my thanks to Secretary Pickering for 
his willingness to testify on the administration's behalf on 
this critical issue.
    One of the most biting criticisms of American foreign 
policy is not so much that it is dominated by insular or 
isolationist thinking, but that it fails to recognize 
opportunities that are there before us. In the hearing's of the 
Africa Subcommittee this year and in this full committee 
hearing today, Senator Feingold and I have focused on both the 
crises as well as the opportunities that Africa represents to 
the United States. On a continent where the United States' 
interests are so often crisis-driven on a day-to-day basis, 
something I hope we as policymakers can change over time, the 
current transition in Nigeria stands as a stark contrast of 
being an opportunity-driven policy, for now at least.
    Without a doubt the transition which Nigeria is now 
undergoing is a monumental opportunity for the United States on 
the African continent. To clearly recognize and take full 
advantage of that opportunity is something in the interest of 
both the U.S. Congress and the administration and a shared 
agenda upon which our combined efforts will be required.
    In pure economic terms, Nigeria is already of great 
consequence to the daily lives of Americans in terms of being 
the source for nearly 8 percent of our crude oil imports, 8 
percent, although as I talk with people around the country most 
people do not realize it. Compare that to Americans' 
understanding of the role of Kuwait's oil in our daily lives, 
which is less than Nigeria's, and things start to come into 
perspective.
    Nigeria is also the single largest market on the continent 
of Africa, with an estimated population of 110 million, the 
tenth most populous on the planet. On a continent which is 
increasingly being viewed by many investors and financial 
institutions as the last frontier of direct overseas investment 
and a virtually untapped market of 700 million, Nigeria is 
understandably seen as the potential engine to power the 
region's growth.
    Its peacekeeping roles in Liberia and Sierra Leone indicate 
that Nigeria, even in times of domestic crisis, understands its 
potential regional hegemony and, more importantly, it is 
willing and able to assert itself.
    For these and other reasons, Nigeria is rightfully seen as 
a possible linchpin for the entire continent. But the prospects 
for Nigeria are far from entirely sunny. It has taken a 
prominent place in America's security calculations because of 
its criminal elements and as a source and transshipment point 
for huge amounts of narcotics. Corruption at all levels of the 
private and public sector is so pervasive and so deep-rooted 
that it is hard to imagine that the transparency and rule of 
law necessary to do business and support a responsive and 
deliberative democracy can be achieved without near-
revolutionary changes.
    Nigeria is not merely a nation of vast potential wealth, as 
we so often hear. It is a nation of squandered and stolen 
wealth. A few people have benefited from that wealth, but the 
vast majority have suffered under poverty and often brutal 
military rule. They are understandably restive.
    That brings us to the question of whether President 
Obasanjo can bring the necessary forces to bear to tear down 
the bases of power which have controlled Nigeria for most of 
its independence. The dictatorial tradition and the kleptocracy 
are extremely powerful and richly funded. They are formidable 
opponents.
    Although President Obasanjo has twice proven himself 
willing to take on those corrupt powers, we must remember that 
he is still beholden to and is himself a part of an elite 
governing class which may see true democracy as a risk to their 
own bases of power or wealth. Does he share our vision of what 
democracy means?
    The desires and thirsts of the vast majority of Nigerians 
will not be satisfied easily. Expectations are very high and 
the potential volatility in the country shows itself in 
significant ways even now. We see it in the Niger Delta and in 
the recent Hausa and Yoruba violence. Both the Secretary of 
State's visit to Nigeria and last week's visit of President 
Obasanjo are important starts to what will undoubtedly be a 
difficult but potentially rewarding and unusual joint effort to 
help form Nigeria's future. It is unusual in that Nigerians so 
clearly want a very active American role in that institution.
    I look forward to hearing about all of our witnesses' 
impressions today as well as the administration strategy to 
take advantage of this historic opportunity in the life of 
Nigeria and of all of Africa.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. I want to thank 
you for holding this timely hearing and your recognition of the 
interests and work of this subcommittee over the years with 
regard to Nigeria. I know that scheduling during this busy time 
was difficult and I appreciate your perseverance.
    I also want to thank Secretary Pickering for being here, 
and indeed to thank all the witnesses for twice fitting this 
hearing into your schedules, and in the case of Mr. Akwei for 
joining us on very short notice.
    As you have indicated, Mr. Chairman, this hearing is indeed 
timely. The Nigeria that we know today is dramatically changed 
from the Nigeria we knew only a year ago. When I first became 
involved in the question of Nigeria, the country was a pariah, 
the counterargument to the claims of an African renaissance. 
But last week I had the pleasure, along with the chairman, of 
meeting the democratically elected President of Nigeria right 
here on Capitol Hill. I certainly do not underestimate how very 
far Nigeria has come and I share some genuine excitement about 
that.
    Genuine progress is beginning in the fight against 
corruption and impunity, and gains are being made in Nigeria's 
struggle for stability and justice. I certainly believe that at 
this early stage of Nigeria's transition U.S. support for 
continued democratization, for anti-corruption efforts, for 
human rights, and for better civil-military relations is 
critically important.
    Mr. Chairman, I am also concerned that the ``seize the 
moment'' mentality gripping many in Washington may not leave 
room for an appropriate degree of caution as we move to engage 
with Nigeria. A sense of urgency does not give us license to 
sign off on anything at all, particularly with regard to 
military-to-military relations. I look forward to hearing more 
from all the witnesses about this issue in particular.
    Given the importance of the topic of this hearing to the 
work of the Subcommittee on Africa, and indeed to the 
administration's African policy, I do hope the committee will 
be able to have the transcript of this hearing printed as an 
official committee document. If there is no objection, I would 
like to request that two documents be included in that official 
publication.
    The first is a trip report from one of my staff members, 
Linda Rotblatt, who participated in official observation 
missions to both the local and Presidential elections in 
Nigeria in December 1998 and February 1999. Included in her 
report is an appendix of the reports of the groups that 
conducted U.S.-funded observation missions. I think these 
reports greatly contribute to our understanding of what 
happened throughout the electoral period in Nigeria and it 
would be useful to have them published in one place.
    [The report referred to is in the appendix on page 57.]
    Second, Mr. Chairman, if I could I would like to include 
for the record a statement of Bronwen Manby, a researcher for 
Human Rights Watch. Ms. Manby was originally scheduled to be a 
witness on the private panel, but was unable to participate 
when we had to change the date. I think her testimony offers an 
important insight into our subject today, so I would like to 
have that included in the record as well.
    Senator Frist. Without objection, both of those will be 
made a part of the record.
    [The material referred to is in the appendix on page 71.]
    Senator Feingold. I thank you very much, Mr. Chairman.
    Senator Frist. Thank you.
    Mr. Secretary, if you can come forward. Welcome. I 
officially welcomed you just a few minutes ago and appreciate 
your willingness for testifying on behalf of the administration 
on this critical issue and, again, your willingness to 
accommodate the fluid nature of our Senate schedule here today.
    We do have two panels today. The first is Mr. Thomas 
Pickering, Under Secretary of State for Political Affairs. 
Welcome, Mr. Secretary.

 STATEMENT OF HON. THOMAS PICKERING, UNDER SECRETARY OF STATE 
           FOR POLITICAL AFFAIRS, DEPARTMENT OF STATE

    Ambassador Pickering. Thank you very much, Mr. Chairman and 
Senator Feingold. Please accept my apologies for the 
unfortunate delay in my arrival as a result of Washington 
traffic, both inside and outside the State Department. I deeply 
apologize. I know you were ready to go and I hate to be the 
subject or cause of delay.
    I want to say both good afternoon and deepest thanks, Mr. 
Chairman, to you and to Senator Feingold. I am delighted to 
address the Foreign Relations Committee today on Nigeria, a 
country I have followed for a significant part of my career at 
the State Department.
    Before I begin my testimony I also want to say that, like 
you, I bask in what I hope is the glow, but may be for some the 
gloom, of the passage of the Africa Growth and Opportunities 
Act, and I say that with some care because I know Senator 
Feingold had hoped for more. I think we all hope for more in 
the future, but I thought that the vote, the outstanding vote 
of the Senate on this legislation and the purpose for which it 
is directed, is an extremely important ratification of the 
importance that we attach to Africa. We are happy that this has 
in the best sense of the word bipartisan support and a 
bipartisan aspect to it which is all too rare these days in 
these precincts. So I thank you very much for all of the work 
and all of the effort that went into that.
    I would also say that we have apologized to each other for 
the rescheduling. I am happy to come. I think that, as opposed 
to ``justice delayed is justice denied,'' a hearing delayed in 
this particular case may be a hearing enhanced, in the sense 
that we have more to work with now. We have more actually to 
discuss and we have the visit of the Secretary to Africa and 
the visit of President Obasanjo here to build on, and I hope 
that will make the committee and the hearing more enlightened 
and be more useful to you in the work that we have to do.
    Eighteen years ago, Mr. Chairman, I arrived in Nigeria as 
the U.S. Ambassador during the administration of Alhaji Shehu 
Shagari, Nigeria's first and unfortunately last elected 
civilian President until last year. Nigeria's early experiment 
with democracy ended 2 years later, falling victim to 
institutional flaws, political corruption, and a declining 
economy. What followed was a succession of military rulers who 
became increasingly corrupt and contemptuous of democracy, 
leading to more than a decade of political and economic 
deterioration that resulted in international isolation.
    Last February, 8 months after the sudden death of General 
Abacha in June 1998, Nigerians again voted in elections that 
were not perfect, but both Nigerian and foreign observers 
concluded that those elections reflected the will of the 
Nigerian people that Olusegun Obasanjo should become their 
first elected leader in 15 years.
    When Secretary of State Albright visited the Nigerian 
capital Abuja, 2 weeks ago, she praised President Obasanjo and 
his government for their courage in restoring democratic 
institutions, fighting corruption, and establishing government 
accountability. The Secretary encountered a great sense of hope 
and expectation in what was the first trip by a U.S. Secretary 
of State to Nigeria in 12 years. She pledged our support for 
the Government of Nigeria's new effort to rebuild democratic 
and free market institutions in Nigeria and to accelerate its 
transformation to the prosperous democratic regional leader it 
can and should be.
    Likewise, President Clinton during President Obasanjo's 
official working visit to Washington last week promised U.S. 
assistance to reinforce the fledgling new democracy.
    Why is Nigeria's democracy important to us? A strong 
democratic and prosperous Nigeria can help us meet our two main 
policy objectives in Africa: to integrate Africa into the 
global economy through trade, investment, sustainable 
development strategies, transport, fair legal systems, respect 
for human rights, and good governance; and second, to deal with 
transnational threats that affect both Africans and Americans, 
including drug trafficking, transnational crime, terrorism, 
environmental degradation, and disease.
    Nigeria with its population of over 100 million people, 
diverse natural and human resources, enormous economic 
potential, active and free press, and a growing and vibrant 
society, has the potential to be the economic engine and 
stabilizing influence in West Africa and for much of the rest 
of the continent and an important influence on the globe.
    Already a major force in the sub-region, Nigeria took the 
lead in the creation of the Economic Community of West African 
States, ECOWAS, in 1975, and later in creating its military 
arm, the Economic Community of West African States Monitoring 
Group, ECOMOG. Nigeria bore the greatest share of peacekeeping 
responsibilities in Liberia through both troop and financial 
contributions between 1990 and the middle of last month, when 
the last of its troops withdrew.
    Nigeria, through ECOMOG, was also instrumental in restoring 
Sierra Leone's elected government in March of last year. Over 
the last year and a half, Nigeria's troops, along with those of 
Mali, Ghana, and Guinea, have defended and protected the Sierra 
Leonean population, upheld democratically-elected government, 
and pressed the rebels to go to the negotiating table. The 
signing of the July 7 Lome Peace Accords between rebel leader 
Foday Sankoh and President Kabbah marked what we hope will be 
the beginning of the end of that horrible civil war, many of 
the aspects of which were of course featured in the Secretary's 
visit and in the public reporting here in this country of the 
atrocities and degradations that accompanied that war.
    On the economic front, Nigeria is our second largest 
trading partner on the continent. American companies have 
invested over $7 billion in Nigeria's petroleum sector alone. 
We import about 40 percent of Nigeria's oil production, which 
constitutes nearly 8 percent of our total oil imports. Nigeria 
may have one of the world's largest gas reserves, natural gas 
reserves, and has the potential to revive a once-flourishing 
agricultural sector. With adequate investment, development of 
its infrastructure, and good management, Nigeria can become an 
international economic powerhouse.
    Democracy dividend. President Obasanjo knows that democracy 
and economic progress are mutually reinforcing. He and his 
government also know that building democratic institutions and 
combating pervasive corruption while simultaneously reforming a 
dysfunctional economy is an extraordinarily difficult task. 
They have repeatedly expressed their concern about the 
government's ability to meet the high expectation of Nigeria's 
people.
    When President Obasanjo was in Washington for his official 
working visit last week, he outlined the steps the government 
has already taken to fight corruption and human rights abuses, 
reform Nigeria's economy, and promote social reconciliation.
    Although Nigeria is still hindered by weak institutions, 
the government and people have clearly demonstrated their 
willingness to work with us and with the international 
community on issues from regional peacekeeping to 
counternarcotics and anti-crime efforts, to improving social, 
political, and economic opportunities for Nigeria's people. 
Nigeria needs and deserves our assistance as it undertakes 
these very difficult tasks.
    On the economy, perhaps the greatest challenge facing 
Nigeria's new democracy is economic management. Since Nigeria's 
emergence as a global oil producer in the 1970's, more than 80 
percent of government revenues and 90 percent of export income 
have been derived from petroleum. This explains in part the 
development of a highly centralized state-dominated economy in 
which the allocation of petroleum contracts and agreements has 
been a principal source of patronage, political control, and 
competition.
    Despite Nigeria's great oil wealth, living conditions for 
average citizens are extremely poor. I am unhappy to report 
that over the past 15 years average per capita income dropped 
roughly 75 percent, from $1,200 per year 15 years ago to only 
$300 per year this year. The sharp drop in oil prices last year 
depressed the economy even further, although global growth and 
now higher oil prices have improved near-term economic 
prospects and performance.
    We need to help the Nigerian Government and the people to 
make clear and immediate the benefits of a vibrant reform-
oriented society for people who have lost their faith in their 
government and the faith that their drive and creativity and 
legitimate enterprises will be rewarded and supported.
    In recent years, bureaucratic sluggishness and corruption 
have been obstacles to the establishment of a dynamic private 
sector, to an investment climate that welcomes all investors, 
and to a legal system that supports property rights for 
everyone. Perhaps the greatest tragedy is continued existence 
of widespread staggering poverty, and bankrupt institutions and 
decrepit infrastructure in a nation of such great promise, so 
many resources, and such enterprising people.
    What is the United States' policy? The United States has a 
strong national interest in helping transform Nigeria into a 
genuine democracy and it is a U.S. foreign policy priority. 
Successful democratic transformation of Nigeria will have an 
impact on its neighbors; economic prosperity will raise the 
fortunes of the entire region. As Nigeria rebuilds its 
political, economic, and civic institutions, it can become a 
model for the entire continent.
    The international community, however, must bring more 
resources to help Nigeria consolidate its democracy and breathe 
new life into its economy.
    Nigeria is potentially Africa's largest consumer market and 
magnet for new investment. Over the next 18 months, our 
approach will be to encourage consolidation of civilian rule, 
intensively engage Nigeria on a range of mutual concerns, from 
military reform to environmental issues, and develop a 
cooperation program that will help to assure that democracy 
takes root.
    While acknowledging Nigeria's disproportionate burden of 
regional peacekeeping in recent years, we also want Nigeria to 
remain engaged in regional conflict resolution and peacekeeping 
and perhaps expand these efforts further. We have started to 
rebuild our military-to-military relationship, with a strong 
emphasis on increasing civilian control over the military.
    Today we are inaugurating a Joint Economic Partnership 
Committee, JEPC, with the Nigerians to open a sustained dialog 
on economic reform, trade, and investment issues.
    Mr. Chairman, it is important that we support Nigeria 
during this critical period. As directed by President Clinton, 
an inter-agency assessment team, composed of eight U.S. 
Government agencies visited Nigeria from the 19th of June to 
the 2d of July. The team explored with the Nigerian Government, 
civil society leaders, and the American and Nigerian business 
communities, how the U.S. can best assist Nigeria with its 
political, economic, and social transformation.
    Over a 2-week period, the team met with a wide range of 
national, state, and local officials in Nigeria, with 
nongovernmental organizations and business representatives, and 
also with President Obasanjo and senior members of his 
government. Mr. Chairman, at this point I would like to 
introduce into the record and to make available to the members 
of the committee the executive summary of that team's work.
    Senator Frist. Without objection, it will be made part of 
the record.
    [The material referred to appears in the appendix on page 
77.]
    Ambassador Pickering. Thank you, sir.
    Following the team's visit, specialized technical teams 
from the U.S. Departments of Energy, Defense, and 
Transportation traveled to Nigeria to review cooperation on 
energy policy, infrastructure rehabilitation, and possible 
programs to strengthen civil-military relations and improve the 
transportation infrastructure.
    For the first time in many years, Nigeria has the 
opportunity to build a society based on good governance, the 
rule of law, transparency, accountability, and a clear 
commitment to treat all of its citizens equitably. This 
administration is committed to working with the Congress to 
forge a new U.S.-Nigeria relationship in the context of that 
country's successful transition to civilian democratic rule and 
to ensure that we have adequate resources to achieve our 
objectives and forward our national interests in this very 
important country.
    Our mission, let me be clear, is to build Nigeria's own 
capacity to sustain its democracy and marshall its untapped 
resources for economic revitalization. To do this, we are 
developing programs to promote economic reform and growth, 
build civilian-military relationships, support political 
structures of good governance, and assist in the rehabilitation 
of Nigeria's infrastructure, agricultural sector, and health 
and educational services. This is a large and demanding task.
    Nigeria is one of the best examples of why foreign 
assistance is so important. We have the opportunity to invest 
in democracy, to invest in counternarcotics efforts, to invest 
in sound economic reform, and to invest in building 
institutions capable of returning Nigeria to a strong and 
prosperous partner. The time to make these investments is now, 
and I hope that we can work closely with this committee and 
with other Members of the Congress as we develop a robust and 
targeted program with Nigeria.
    We stand at an important crossroads in Africa. Nowhere can 
a window of opportunity be developed and exploited so usefully 
as in Nigeria. What post-apartheid South Africa has done at the 
end of this century, Nigeria has a chance to do at the 
beginning of the next: better the lives of hundreds of millions 
of Africans at home and beyond its borders. It is imperative 
that we contribute resources commensurate with the challenge 
and with the enormity of the task.
    President Obasanjo and his government have demonstrated the 
sincerity and commitment, if not the wherewithal, to lead that 
effort. We believe a strong Nigeria could lead to greater 
productivity, trade and investment, and over time, less 
assistance.
    We look forward to working with the Congress to support the 
Nigerian Government's vigorous efforts to build democracy and 
reform the economy. We believe our current engagement 
represents the best hope for success.
    Now I would be pleased to take any questions that the 
distinguished members of the committee may have. Thank you very 
much, Mr. Chairman.
    Senator Frist. Thank you very much, Mr. Secretary.
    Oil reserves, which you mentioned, are huge, with the 
consensus being, depending on who you ask, around 20 million 
barrels of proven reserves. It is one of the top producers of 
natural gas in the world, potentially the top producer, 
supplying about 8 percent of our crude imports. The year 1998 
available numbers put the revenues from oil at about $22 
billion, $22 billion annually, numbers that will increase, as 
you pointed out, with the rise in the price per barrel over 
time.
    Yet that wealth has not reached the Nigerian people, nor 
has it seemed to back the legitimate operations of the Nigerian 
Government. I guess I would like to link that as background to 
the Secretary, Secretary Albright's, pledge to increase our 
assistance to Nigeria. I guess in view of the fact in my 
opening statement I made the point that Nigeria does not have 
potential wealth, it seems to have squandered wealth or stolen 
wealth, could you comment on those who would question the 
rationale of providing assistance which would be in the $100 
million, $112 million range?
    Ambassador Pickering. I would be happy to, because I think 
that we have to look, of course, at both the opportunity and 
how Nigeria got to where it is now. With respect to the latter, 
as I noted in my statement, we had a long period of really 
inept and at the end obviously corrupt and dangerous military 
rule, dangerous particularly for Nigeria's economy and the 
future of its own people.
    We were given an opportunity, even more so the Nigerians, 
by the untimely passing of their leader on a sudden basis in 
June 1998. How that opportunity is now used depends first and 
foremost on Nigerians, and they have through a period of 
interim rule by a successor military leader, General Abubakar, 
and now with the election of General Obasanjo, in my view 
answered in a resoundingly positive manner that they are 
prepared to take steps and support leaders who are willing to 
take steps to open the door to the new opportunities.
    What is lacking on the Nigerian side is the ability to 
catalyze this process through the use of information, 
technology, technical assistance, and other things that we in 
particular have a comparative advantage in being able to 
supply; and to do that on a basis that allows them to begin to 
develop all of those possibilities for the enormous wealth that 
they have so far squandered.
    So it is a second chance. As you know, for people who have 
alcohol addiction second chances are never perfect, but there 
is a real opportunity. I have to tell you that President 
Obasanjo has never been an addict. He in fact, as you know, 
spent 4 years in prison because of his belief about the future 
of his own country, and he is now being given a second chance 
in his life in fact to put into practice the beliefs for which 
he suffered so long.
    So I have no doubt about President Obasanjo's commitment. I 
have had the honor to know him for a number of years and he is 
a man who is a statesman on the world scene. I also have a 
strong belief that the Nigerian citizenry, regardless of the 
faults and foibles of the last election, made a clear choice in 
President Obasanjo and in a government and elected parliament 
to work with him.
    So it is this opportunity, it is this moment, it is these 
requirements, that we have looked at. And they are relatively 
small in comparison with what the future could bring for 100 
million or more people on the African Continent.
    And our own interests are very large. I am not making this 
case purely as an eleemosynary case. But after all, our 
dependence on Nigerian oil--the fact is that Nigerians over the 
years have developed one of the largest networks of narcotics 
smuggling and we need President Obasanjo and his new 
commitment, which is beginning to bear fruit, to deal with this 
problem to help us in this particular area.
    We need Nigerian leadership in West Africa, where even in 
the bleak days of the worst years their commitment to 
peacekeeping, however poorly carried out that was in the eyes 
of some, spelled a real difference in the future of two 
countries in the region and over time may for more.
    So this is the opportunity. It would be foolish of us not 
to recognize the risks, but it would be equally foolish of us 
not to recognize the risks we would incur of letting this 
opportunity pass us by. The commitment that we must make, your 
end of the avenue and my end of the avenue, is to be able to 
put good, solid programs in place, programs that will not be 
preyed upon by corrupt officials because they will be carried 
out by Americans and American contractors who are working with 
people who will bring technical assistance and not cash into 
the treasury of the country, in ways that can assure us that 
the past checkered history of this can be overcome.
    Senator Frist. Do we link the $100 million in aid or this 
assistance to progress, either in the inter-agency report or in 
how oil reserves or money flowing is to be used?
    Ambassador Pickering. I believe that, first, there is no 
such concrete proposal. But both the Secretary and the 
President have talked about quadrupling the present level, 
which is in the order of $27 million. So I believe your figure 
is in totally the right ballpark.
    Second, we will come forward with a concrete proposal in 
order to make sure that we have your confidence and can justify 
the funding. I think it is extremely important for us to commit 
ourselves in areas where Nigerian performance can be judged. I 
am strongly persuaded that in assistance relationships first 
and foremost the linkage ought to be to the carrying out of the 
programs and the projects that we have in mind, and the other 
portion of the linkage needs to be in the area of doing nothing 
on the part of the government which undermines or destabilizes 
the basic objectives which we agree upon with the country 
concerned.
    So I would hope it is in that context, that is continued 
performance by President Obasanjo on the road that he has 
taken. We are not in that situation where we have to persuade a 
President to do the hard things. We are in the situation where 
we have to help a President who is already persuaded to do the 
hard things. So it is a little bit different. So in some ways I 
think it is easier for me to justify this program than a lot of 
others I have to come up with, where you and we both agree that 
we should use the program to move the President and the country 
rather than the program to help the President do what he and we 
both want to see done in the country.
    So I would distinguish it that way. My element of 
conditionality would be, as long as we and President Obasanjo 
agree, and I believe that is going to be the case, we should 
work together to do the things that we agree upon; we should 
measure performance, both of us, on how well and how 
effectively that money is used by both of us in the process.
    Senator Frist. Thank you.
    Senator Feingold.
    Senator Feingold. Thank you.
    Secretary Pickering, despite many of the encouraging signs 
that you talked about in Nigeria today, despite the series of 
elections that have occurred in the past year, the very 
foundation of the Nigerian political system, the Nigerian 
constitution, was handed down by the military regime only weeks 
before the new government was inaugurated. How important do you 
think is the question of constitutional legitimacy for 
Nigeria's transition and how can the United States assist 
Nigeria to address this issue?
    Ambassador Pickering. I think, Senator Feingold, it is 
important to have constitutional legitimacy and it is important 
to have a constitution that broadly reflects what one would 
have to say is the decent opinion of mankind about what is 
fair, equitable, just, and legal. I think the Nigerian 
constitution, despite the fact that it was handed down by the 
military, does better with the latter test than it does the 
legitimacy test.
    I think it is up to President Obasanjo both to figure out 
where there are problems in the constitution because it was 
handed to him, he did not have a choice, and then second how 
and in what way, should he choose to do so and should he 
believe in fact that there is a question of legitimacy, he 
takes it to his people.
    In the past in Nigeria, they have talked about having a 
convention and sitting down and redrafting the constitution and 
putting it all in place. Coming in the immediate aftermath of a 
revolutionary change of government, constitution drafting by 
convention has its own problems. It has a divisive quality 
inside the country. The Nigerians are getting settled in, seem 
to be relatively accepting of the electoral outcome and 
relatively well protected at the moment by what is clearly 
still an imperfect constitution, in the way in which we have 
mentioned, to move things along.
    I believe it is for Nigerians now, not foreigners, to help 
settle that very difficult question that they face, is this the 
right constitution and does it cover the problems that we have 
to deal with in the right sort of way. I would say this is not 
in my view, from what I understand to be the situation in the 
country, the largest problem faced by Nigeria. We should not 
attempt to make it a larger problem for them than they see it.
    Senator Feingold. Fair enough. I think that is an 
interesting comment. I do worry about the lack of a legitimate 
organic document for the country and I want to have 
conversations with Nigerians about it in the future, but I 
think your comment is a good one.
    In your statement you mention the creation of a Joint 
Economic Partnership Committee between the United States and 
Nigeria. This is the first we have heard of this. I wonder if 
you could elaborate further on its goals and modalities.
    Ambassador Pickering. Yes. It was, of course, something 
that has some history. When the assessment mission went out and 
as the new government began to be thought about and then 
elected, my very distinguished colleague Stu Eizenstat went to 
Nigeria. One of Stu's thoughts, which we all supported fully, 
was that the economic issue, the management of the economy, as 
I highlighted in my statement, and the host of economic 
problems being experienced in Nigeria, could benefit from the 
establishment on an institutional basis of regular exchanges 
between U.S. officials and Nigerian officials on the issues of 
trade and investment and economic management.
    So this idea was brought to fruition and now Stu's 
successor, to be confirmed I hope very shortly, Alan Larson, 
who is acting in Stu's place, is leading our work in that 
commission. It pulls together economic expertise inside our 
Government and the Nigerian Government, with a very full agenda 
of initial discussions about how and in what way we can work 
with them to deal with a host of problems that they have 
experienced.
    Obviously, it will have to touch on things like how and in 
what way can they begin to stabilize and formulate rules, laws, 
and activities to promote investment rather than to inhibit or 
chase investment, how can they begin to deal further with the 
problem of corruption. As you may know, President Obasanjo has 
introduced a new law, he has removed a lot of people from 
government, he is prepared to continue to work on 
accountability.
    He has a huge problem. We need to do all that we can to 
help him, whether it is in the institutions that seem to help 
us here or with other best practices that can be put into 
effect. The remarkable thing is that for the first time in a 
decade or more you have a Nigerian leader who is truly 
committed on this problem, which has been not a peculiar 
affliction of Nigerians, but unfortunately something of a 
primary growth industry in the country that has been really 
deeply afflicted by this problem. And we all know that you 
cannot run good government and a good economy in a situation in 
which the decisionmaking apparatus--and it has been heavily 
weighted on the government side--is corrupted.
    Senator Feingold. Let me follow on with a question on 
President Obasanjo, who has been so successful in his reform 
efforts, but some have said it is in part because he has 
powerful allies, such as General Babangida. I certainly was 
impressed with the President when I met him the other day and I 
heard your words describing him as a statesman.
    How independent an actor is the President in your view? In 
what areas might this independence be curtailed in favor of 
stability?
    Ambassador Pickering. I have been surprised, because I 
think that General Babangida for his own purposes probably 
thought it best and useful to support General Obasanjo in his 
election. But as I have watched and I have kept a careful eye 
on the situation, I have seen the continued development of the 
independent policies that General Obasanjo told me when I saw 
him in the month before he assumed office that he was going to 
pursue.
    I can tell you that Nigerians and Americans watch very 
carefully this particular set of activities. I know General 
Babangida. I have known him for a long time. I do not think 
that his period was either the worst and certainly not the best 
in Nigerian history, and it was characterized by a lot of 
complaints about some of the issues we have been talking about. 
So I do not think that he is necessarily seen as a helpful 
influence, if I can be careful--I have to be a little 
diplomatic from this platform occasionally--a helpful influence 
on things in the future.
    If he is putting his weight behind free elections and his 
weight behind free choice and his considerable resources behind 
President Obasanjo, it is incumbent in our view that President 
Obasanjo continue to stick to his guns and represent those 
policies he has been committed to and carry forward. He has in 
that sense developed what I would call transparency and 
accountability. He has told me and he has told you and others 
what he intends to do and he has asked us in frankness to judge 
him on the basis of that.
    So I am happy with that. I believe he is proceeding in the 
right way. I share your concern, but, happily, I cannot report 
that I see convincing evidence that that is happening. We all 
want to watch it.
    Senator Feingold. Will we be continuing with the Secretary 
here?
    Senator Frist. No.
    Thank you, Mr. Secretary. As Senator Feingold said, we 
appreciated the opportunity to spend the time with the 
President and talk about a broad range of issues. One of the 
issues that we did talk about was privatization. In response to 
a question, he gave us his assessment of privatization and what 
he thought it would take. The analogy that he used is one that 
I guess he uses in many different settings, and that is to 
selling a car. He basically said that first of all before you 
sell a car you need to fix it up before you sell it, and he 
indicated that is what he would do with the parastatals in 
Nigeria.
    In terms of attracting investment, the time line you have 
spelled out historically where there is going to be some rapid 
change, he paints a vision and we stay very much on top 
observing, making sure that vision comes true, is that the best 
way to attract investment as he moves toward some privatization 
in the future?
    Ambassador Pickering. I think there are a couple of things. 
First may I make a remark on privatization? I agree and I think 
it is very important. I can accept his shining the bumpers and 
hubcaps as a reasonable response, but after a period of time 
you cannot shine them any more.
    There is in government operation of industry--and I just 
spent 3\1/2\ years in Russia before I came back to this job--
huge inefficiencies and terrible inequalities. Even in the name 
of social justice, the introduction of government control is 
often perverted and pulled out of order and distorted. So I 
believe that competition is a balance wheel for this and helps 
us balance social justice and equity in one side through 
government regulation with effective and efficient performance 
on the other side, which builds the income.
    This is always subject to debate and argument. But I think 
in Africa today and maybe in Nigeria today, if I had a 
criticism I would say there is a reluctance on the part of the 
state to part with what it had envisaged as a national 
patrimony in the best sense of the word, and about which I 
think the notion of poor organization, inefficient management, 
and costly operation and poor decisionmaking has not caught up 
with the fact that there are ways under careful regulation and 
control--after all, we all live in regulated economies, you and 
we both work at that--we can get better value for our people 
out of that kind of organization and you can return something 
to the state.
    So I would hope and encourage privatization, and if I have 
new opportunities to talk with General Obasanjo that is one of 
the things that is on my agenda and he knows it. That is no 
secret. We continue to talk about this. This is in my view 
extremely important. So I think we need to have that go ahead.
    Further, privatization is a clear signal to investors that 
the government wishes to become at least friendly, not 
antagonistic to, the people who are prepared to put their 
capital to work in that country. I do not mean that this should 
be unfettered and have only Adam Smith watch over the process. 
I think we need to obviously encourage governments to run good 
economies through careful management, they have taxation, they 
have health regulations, they have all the things that we know 
about that make our economies run in the interest of the public 
as well as the interest of the profits.
    This is very important, because I think this will introduce 
in a country like Nigeria elements of competition and 
efficiency which sometimes have been absent in this process.
    I think, second, the government has to convince the 
investor that if he puts his money in he can get a fair return 
on capital, that he will not be robbed, and that he can have 
governmental peace, ethnic peace where that has been a huge 
problem, stability, that he can compete on a level playing 
field, that he does not have enormous extra costs to be 
involved in. Even if the oil business is lucrative, obviously 
there are always limitations, and that has to be done.
    In general, Nigeria I think has done a fair job with 
bringing in oil investors. It could do better. It has not done 
as well with other industries, the service sector, other kinds 
of manufacturing, and so on. I would urge that in the areas 
that I have mentioned and others that are related to that you 
get a sense of transparency and predictability.
    Senator Frist. Let me ask, because we did not have time 
when we were with him to explore all of these areas, but one 
area that has not been mentioned is telecommunications. We have 
heard that Nigeria has essentially changed their policy with 
respect to the telecommunications sector to one which would 
attract immediate considerable direct foreign investment and, 
specifically, that $100 million will be required up front for a 
license fee for wireless communications and this would be after 
fees were paid, license issued, and agreements made under 
different rules and understandings.
    If so, this sounds to me like it would be almost disastrous 
for attracting investment. Do you know anything about that, or 
is that true?
    Ambassador Pickering. I do not and it sounds prohibitive to 
me. It sounds like it is a closing of the sector. I mean, I do 
not do business in telecommunications, but any license that 
costs $100 million has got to be pretty tough.
    Senator Frist. Do you feel that Nigerians are generally 
satisfied with the Obasanjo regime?
    Ambassador Pickering. Yes, I do.
    I just wanted to say, I am not confirming the $100 million 
number. This is the first I have heard it.
    Senator Frist. I understand.
    Ambassador Pickering. Yes, I do. I think that there is a 
new spirit abroad in Nigeria. There is a long way still to go 
and there are still a lot of abuses and difficulties. But there 
is more openness in the society. People are responding to 
General Obasanjo's efforts to get at corruption. I think there 
is more responsibility.
    He himself I know has pointed out, because I read this in 
the press statements--I was out of the country at the time he 
was here--that one of the immediate things he has done is he 
has gotten rid of gas lines. If you have gas lines in one of 
the world's largest producers of petroleum, you have got real 
problems, and he recognized that.
    So he has introduced responsibility and an effort to put 
the refineries back into repair and an effort to block what was 
really I think a huge scam, where people depended upon imports 
of petroleum products as a way of making extra money. It was in 
a sense a corrupt channeling of supplies and scarcity and 
maintenance of scarcity by government collusion in order to 
increase profits, and that is why they had the horrible problem 
with higher prices and lines and no available fuel for long 
periods of time.
    I think that that has ended and I think that is a step 
forward. There are still difficult problems. The ethnic 
problems in the delta of Nigeria, the oil-producing region, the 
deep-seated feelings on the part of the people that are there 
that they have not enjoyed in a responsible way many of the 
benefits that would have come had some of the oil income come 
in their direction, is a serious problem.
    General Obasanjo has been there several times. He has a new 
law on delta development. He has worked with the Governors and, 
even more importantly in my view, has begun to work with 
grassroots organizations, NGO's in that region, to begin to 
find ways to deal with the problem.
    The problem has taken on proportions beyond merely sensing 
a feeling of deprivation. It has taken on the prospect of 
intercommunal--the actuality of intercommunal strife between 
groups, ethnic groups in the region, and between ethnic groups 
and the oil producers and the oil producers' foreign employees 
or non-ethnic employees in some cases, not of the particular 
local ethnic group.
    It is a difficult problem and it will affect production, 
and people tell me in fact that there is a hesitancy on the 
part of oil developers to develop onshore resources if they 
have a choice of developing offshore. So I think it is serious 
and needs to be faced, and this has been part of our 
conversations with General Obasanjo.
    I think he is working at it. It is a very tough problem. It 
is going to take some time. It cannot take too long or it will 
have an effect.
    Senator Frist. Thank you.
    Senator Feingold.
    Senator Feingold. One or two questions, Secretary 
Pickering. The first one is, Nigeria has been a very important 
partner in U.S. efforts to address the tragic crisis in Sierra 
Leone and I personally witnessed the Nigerian effort in Liberia 
in 1994 and I remember being intrigued by that commitment 
despite the nature of the Government in Nigeria. But ECOMOG 
operations have been costly. President Obasanjo frequently 
cites, I believe, an $8 billion figure and he mentions both the 
human and economic term problems of that and the political 
unpopularity of this in Nigeria.
    Could you talk a little bit about the future of ECOMOG and 
Nigeria's role in it?
    Ambassador Pickering. Yes. I would say first, to the 
immediate future, General Obasanjo not only has indicated his 
deep concern by the continued long-term heavy drain on the 
treasury, but has taken firm decisions to remove his forces 
from Sierra Leone, although with a caveat that not only is he 
prepared to use those forces now for the disarmament and the 
demobilization and rehabilitation process, which is to take the 
weapons out of the hands of parties that should not be having 
them under the peace agreement, but to leave in place as part 
of a follow-on United Nations peacekeeping force a considerable 
number of Nigerian troops. Those troops of course would be 
financed under the regular United Nations peacekeeping scale 
and he would be relieved of the financial burden.
    Down the road, we are looking first and foremost with the 
Nigerians at military reform and the primary requirement we see 
is not only civilian control, but the development of a ministry 
of defense, not just an army headquarters to run the military, 
with civilian MOD employees, if I can put it that way. So we 
have a program already begun working with the Nigerians to do 
this and to begin this process. That is extremely important.
    Second, the Nigerians will be looking at downsizing. They 
have at their own expense engaged a U.S. firm, NPRI, retired 
American military who have worked other places in the world, to 
work on the civilianizing task and I hope eventually to help 
them start working on the downsizing.
    The third thing that I think is extremely important, as I 
prefigured in my own statement, is the need for Nigerian forces 
and diplomacy to be available in the region to deal with 
conflict in the region. Now, ECOMOG is interesting in the sense 
that it has had a huge amount of peacekeeping experience and a 
huge effect. It has been Nigerian led and almost Nigerian 
dominated, certainly Nigerian financed.
    If Nigeria were to disappear from ECOMOG, it would 
unfortunately be tiny and not functionally viable, I think, 
because of a lack of the resources to make it happen. So 
Nigeria is not only the key to ECOMOG, it is the cornerstone of 
ECOMOG.
    We have a program in Africa, the African Crisis Response 
Initiative, in which up to six countries now, I believe we 
have, work in training peacekeeping battalions. I believe in 
the future Nigeria, if it continues on the path to civilian 
democratic government and responsible military, should benefit 
as well, if it wants it, from that kind of training, so that 
its peacekeeping skills, its experience, can be honed and 
developed.
    We ought to be able to learn something from a country that 
has been involved in 5 or 10 years of peacekeeping in one of 
the toughest places in Africa. I think we have information and 
technology and ideas to impart to them. And it will put them in 
a position to work more closely with their previously trained 
neighbors, because integration and cooperation in working 
together is also something that we think is extremely important 
in ACRI.
    So those are three focal points that I see as important in 
response to your question.
    Senator Feingold. If I could just as a final question, sort 
of following on that, I find your reference to ACRI very 
interesting. Over the last year the U.S. has stepped up its 
engagement with the Nigerian military and the administration 
has announced its intentions to resume IMET funding to Nigeria. 
What kind of direct military training is under consideration 
and why do you believe that this is an important priority at 
this time, when Nigeria has so many other needs?
    Ambassador Pickering. I think that if I could rely a lot 
and not waste your time on my answer to the last question, many 
of those answers have already been prefigured, if not responded 
to. It is important because of peacekeeping, because of the 
need to get the military out of political life, the need to 
begin to bring about civilian control for the military, and the 
need to, in my view, professionalize a military that has been 
overblown, bloated, and let go, if I could use typical American 
expressions, and mainly and significantly to respond to 
Nigerian desires.
    President Obasanjo, we frequently tend to forget, was a 
military leader, the only one to step into civilian life and 
leave office to a civilian government. He has a remarkable 
balance and a remarkable basis. He is extremely important 
because the military, unfortunately, in Nigeria has always 
considered itself a court of last resort for correction.
    Having an elected former military leader now civilian 
President to deal with the military is very valuable. It is an 
opportunity now to help get it right, rather than to permit the 
military once again to get it wrong.
    Senator Feingold [presiding]. Thank you for all your 
answers, Secretary Pickering.
    Senator Biden [presiding]. I knew I would get to be 
chairman again some day. I did not think it would be this easy.
    Ambassador Pickering. Senator, nice to see you again.
    Senator Biden. I did not think it would be this easy.
    I apologize, Mr. Secretary, for being late. I have been 
working on a matter that is of significant interest to you as 
well, trying to figure out how we re-establish some semblance 
of bipartisan consensus on arms control, and I apologize.
    I further apologize because I am told after this vote on 
the spur of the moment they are bringing up a bill which I am 
responsible for managing or being part of the management of, 
and that is the bankruptcy bill. So once I get over there, if 
that is true, I will not be back.
    I feel very badly because I cannot think of anything that 
is, quite frankly, of greater significance to our interests in 
Africa than the democratic transition and the future of 
Nigeria. It is amazing to me how many Americans understandably 
have no notion of the size, significance, and importance of 
Nigeria in Africa and over time in the world.
    So what I would like to do is, rather than bore you with my 
opening statement, I am going to have my statement placed in 
the record as if read. And if you will give me 1 second here, 
since I kind of got caught off guard as I walked in, I have a 
couple questions I want to ask you.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Secretary Pickering, thank you for coming here to share the 
administration's views about the democratic transition in Nigeria and 
what this means for United States policy toward that country.
    You especially have a solid and profound understanding about just 
how pivotal a country Nigeria is in West Africa. I do not need to 
recite for you how influential that country has been politically and 
economically to the surrounding countries. Unfortunately, that 
influence has not always been positive.
    It seems to me, and I am sure you will agree, Nigeria stands at a 
crucial crossroads. Right now, in that country there is a chance to 
enact true democratic and economic reform. And I am not talking about 
holding elections. That was merely the first step. I am talking about 
improving the electoral process to minimize fraud, taking clear control 
over the military, providing a climate wherein the judiciary can begin 
to function independently, and ending corrupt government practices.
    While these will not be sufficient to cement a transition to 
democracy, they represent the conditions necessary to foster its taking 
root.
    We the United States Government must answer a very important 
question: How can we best aid the Nigerian Government in its efforts to 
institutionalize an open participatory society?
    I understand that the administration would like to increase aid to 
Nigeria by three times its present amount. Given the current climate 
here on Capitol Hill, it is unlikely that the foreign aid budget will 
increase significantly. The vetoed Foreign Operations Appropriations 
bill was almost $2 billion below the President's request.
    Knowing that, I believe it may be very difficult to increase the 
amount of funding dedicated to Nigeria by the amount you would like. 
Therefore, the administration may have to make some tough decisions 
about what assistance activities it wants to undertake.
    These decisions are going to be extremely important because of 
Nigeria's importance to the United States. I will not overstate the 
case, but I think we all understand how much we stand to gain and lose 
from the success of the Nigerian Government in its efforts at reform.
    The way I see it, the United States should pursue three major goals 
in its relationship with Nigeria. They are: an increase in the areas of 
U.S. trade and investment, an improvement in combating international 
crime and continued promotion and sustenance of democracy. I want to 
briefly address these issues.
    I do not need to emphasize the significance of our relationship 
with Nigeria economically. You are well aware that U.S. companies have 
$7 billion invested in Nigeria, mostly in the petroleum sector. Oil 
companies are developing the liquified natural gas sector, which could 
increase their investment considerably.
    The United States imports 8% of its oil from Nigeria, and in the 
future this figure is likely to rise rather than fall. I believe that 
it is in our interest to ensure that U.S. investments are protected and 
that our access to oil continues.
    The relationship is not one-sided. With the proper financial 
controls and management structure, Nigeria could benefit from this 
relationship as well. The challenge for the new government is ensuring 
that the population benefits from oil revenues from now on.
    While oil is the most prominent area of our trade and investment 
relationship with Nigeria, reform of the economy and financial sectors 
could well stimulate investment in other areas. I think it would 
benefit both of our countries to help Nigeria pursue a program of 
economic reform in order to create a climate that is suitable and 
attractive to investors.
    Combating international organized crime is something which both the 
Nigerian Government and this administration should attempt to address 
with all due haste.
    Under the previous Nigerian Government, criminals operated with 
impunity. Crime was treated with indifference by law enforcement 
officials who were either underpaid or unpaid altogether. Little or no 
resources were devoted to training and equipping police. The United 
States provided very little aid to law enforcement due to sanctions 
that were in place until General Abubaker took control of the 
government.
    As a result of the lax attitude toward crime, Nigeria has become a 
major transshipment point for illicit drugs. Nigerian drug trafficking 
and organized crime in the United States have become such a problem 
that U.S. law enforcement agencies have had to established an 
interagency task force to combat it in five major metropolitan areas, 
including the Baltimore-Washington area.
    Drug trafficking and organized crime is a potentially de-
stabilizing force in Nigeria. The massive amounts of money coming into 
that country from illegal activities abroad in combination with the 
fragility of the political situation create conditions conducive to 
corruption of the political process.
    Finally, and this goes without saying, but I want to make it clear; 
we must continue our support for democracy in Nigeria. Is democracy 
necessary for us to sustain an economic relationship with Nigeria? 
Clearly not. Is it the only way that we can get cooperation in the area 
of law enforcement? Some would argue no, but I believe that for our 
efforts to be successful and effective, it would help.
    If we consider Nigeria's regional role however, it is easy to see 
why continued promotion of democracy is imperative. With the largest 
population on the sub-continent, a democratic Nigeria could easily 
influence the much smaller surrounding countries to enact similar 
measures.
    The Obasanjo administration faces a host of challenges. 
Restructuring the economy, and paying off international debt are two of 
the biggest. The new government will also have to deal with the 
continued unrest in the Niger Delta. Its method of dealing with 
citizens of the Delta will be closely watched by the international 
community, and the government's commitment to human rights will be 
evaluated, fairly or not, on its ability to resolve the situation 
peacefully.
    Social issues such as the effect of AIDs on the workforce and 
healthcare system will have to be addressed. The list goes on.
    Let me state for the record that I approve of a policy of strong 
engagement with the new Government of Nigeria. We have a window of 
opportunity through which we can help the government in that country 
create a sound, viable stable democracy. Not only is it important to 
the West African region, it is in our interest to do so.
    I thank you for coming and look forward to hearing your testimony.

    Senator Biden. Mr. Secretary, will you briefly outline what 
the general conclusions of the assessment team were in terms of 
priorities for U.S. assistance and, given the scarcity of our 
aid resources and the reluctance of our Republican brethren to 
meet what I view to be the legitimate needs of our foreign 
assistance, what in your estimation are the most important 
areas for us to focus on?
    I am not asking you to stunt your--let me start off. I 
agree with the administration. I agree the aid level in the 
request is an appropriate request. But can you outline how you 
arrived at it? And then if you have to, which I am frank to say 
to you I am afraid we are going to be involved in, decide 
among--it is like giving you a Sophie's Choice here, but not 
what you are willing to give up, but what is the most important 
aspect of the aid that you are requesting, the areas we should 
focus on?
    Ambassador Pickering. Thank you, Senator Biden, very much. 
First let me thank you for taking time out of what I know is a 
hectically busy schedule to even come and spend a few minutes 
here. I am very pleased and I know the Secretary will be that 
your interest in Africa and these issues is important.
    The inter-agency assessment team identified a number of 
activities that we think need to be carried out over 18 to 24 
months, first to sustain democratic transition and as well to 
bring into effect longer term activities that we want to 
undertake in the future. Now, the recommendations focus our 
assistance on six major areas: democracy and governance; 
economic reform; civil-military relations; capacity building in 
energy, transportation, and infrastructure; agriculture and 
education; and then health, population, HIV-AIDS and child 
survival. These tend to reflect some of the budgetary 
arrangements of the House and Senate, so they will seem in fact 
familiar, in terms of where these are going.
    These were based on a careful look at Nigeria in June and 
July of this past year, a lot of conversations with both 
government and nongovernment people, up to and including 
President Obasanjo himself. They represent areas where we 
believe that careful, prudent amounts of assistance can help us 
produce major leverage, if I could put it that way, with other 
dollars, with Nigerian budgets, and provide capabilities, 
technical information, skills, technical support, in areas 
where we have a comparative advantage and where the Nigerians 
truly have a hole in the program that they cannot fill with 
their own resources.
    It is invested to help build capacity, but it is also 
invested over this 18 to 24 month period with the idea in mind 
of being finite and getting us out of business. In many ways 
there is an important question: Why should we be helping a 
country with all this oil income, even though it has a huge 
population?
    The answer is basically the same as the answer to why you 
need jumper cables and somebody else's battery to start a cold 
car. It is literally a cold car. It has got fuel in the tank, 
but we have to do something to jump start it in these critical 
areas. So that is the reason we are coming up.
    Now, triage.
    Senator Biden. Unfair, I agree.
    Ambassador Pickering. No, no. The remarkable thing about 
the question is that we have not got enough money yet in the 
budget to justify the programs that we would like to bring 
about, and this is one of our problems. So we have proposed in 
effect a $20 million program because we had to put the budget 
together before the assessment team came in for a $108 million 
set of projects.
    So our problem will be where do we find the additional 
money or how and in what way do we change our own priorities. 
The tragedy would be that, if anything like the bills that have 
been proposed up here with billion dollar cuts goes through, we 
have no way to rob Peter to pay Paul, not that it is easy to do 
that anyway. You should see the blood on the floor of my office 
every time I talk about Nigeria on this issue.
    Senator Biden. No, I am sure it is true.
    Ambassador Pickering. So in a sense, you are up here, 
Senator, doing the Lord's work in terms of trying to get the 
money back that we need just to meet a basic program, and your 
question to me raises the issue of, if this is not in the base 
program how do we find it. And I do not have a good answer, but 
I cannot even approach thinking about that question if we do 
not get what it is the President has asked for.
    Senator Biden. I am going to ask you a crazy question. It 
will not surprise you coming from me. You are one of the most 
skilled and seasoned diplomats we have and have had in any 
administration. I have been here 27 years. One of the things 
that, in my experience with you, you are good at is not only 
assessing what our relationship should be with other countries, 
but assessing why there is a willingness to engage some 
countries and an unwillingness to engage others here.
    You have been--knowing you, you have been trying to sell 
this important initiative not merely today up here on the Hill. 
What is the strongest argument that you are getting or what 
does your sense tell you about why we are where we are, and 
that is not moving forward?
    First of all, cutting a billion dollars is mindless in my 
view. But let me say what you cannot say, maybe would not say, 
maybe you do not believe. There is this little game going on 
here up here, and that is let us make foreign policy the last 
thing we deal with, foreign aid, so we can then juxtapose 
foreign aid against Social Security in a cynical way and make 
it sound like, OK, if you want to raid Social Security, which 
you have already raided by 18, 20 billion bucks, we are going 
to do it for those Africans or those Asians or those Europeans 
or those whomever.
    That is the cynical game I think is being played here. I am 
not suggesting that is the motive of anybody on this committee. 
I mean the overall rationale of this budget fight, why there is 
the fight to make foreign aid the last car on the train here.
    But beyond that generic kind of debate that is going on 
here, what is your sense when you talk to my colleagues in the 
House and the Senate about their sense of the significance of 
Nigeria?
    Ambassador Pickering. My sense is one of despair about the 
whole set of activities. I will stay out of the cynical debate 
department, although over a drink some time I would love to 
join you.
    Senator Biden. You should. I am not asking you to.
    Ambassador Pickering. But I guess I am still a diplomat 
enough to know that such an approach does not really win 
friends or get things done up here.
    I think, however, it is extremely important that we find a 
way--and it is as much our fault as it is anybody else's, I 
suppose--to help the American people and their Representatives 
in this body understand that increasingly everything we do 
every day depends upon something we have going overseas.
    With Nigeria it is our oil supply. With Nigeria it is 
narcotics trafficking. With Nigeria it is influence in a 
critical area of Africa. With Nigeria it is dispute settlement. 
If 30 percent of all new jobs in the United States depend on 
some overseas activity, it means cutting the throats of people 
in Peoria or Waukegan or someplace else if we do not pay 
attention to this.
    Somehow we must make that known. Somehow we must get across 
that in fact everything we do more and more--in the area of 
globalization--it is a wonderful word, but it really truly 
means we are more integrated into international activity in 
business and in every aspect of society. And if we are not 
prepared to take even up to 1 percent of our budget to put at 
the service of our own people in this way, it seems to me that 
we are compounding tragedy. And putting foreign affairs last in 
order to ``dis it'' or play a game with it in my view is 
remarkably cynical, and I said I was not going to get into it.
    Senator Biden. I think, though, there is a sense that I 
have up here for the first time in 27 years that the consensus 
across party lines on engaging the world is slipping a bit. I 
do not mean to--I am by occupational requirement an optimist, 
so I still believe we will figure our way out of this. But I 
think it is going to be a tough, a tough road.
    I do not have any more time left to go vote unless I run 
now. I would like to ask, Mr. Chairman--and I am not looking to 
make work; I am looking to make a record--if I may submit to 
you some very good questions, I believe, my staff has drafted 
for me going into three or four different areas, that I would 
like to be able to submit for the record.
    I am at your leisure. I mean, there is no urgency in the 
matter of days to get this back to me. But I do think, although 
some of it may be covered by my colleagues in my absence, I 
would like very much to be able to submit them for the record.
    Senator Frist [presiding]. Without objection.

  Responses of Hon. Thomas Pickering to Additional Questions for the 
                   Record Submitted by Senator Biden

                        u.s.-nigerian relations
    Question. The Secretary of State indicated during her visit to 
Nigeria that the United States is receiving much better cooperation on 
counter-narcotics activities since President Obasanjo took office.
    What law enforcement assistance programs are the United States 
currently engaged in in Nigeria? Are there any plans to expand or 
increase the number of programs?

    Answer. Cooperation between U.S. and Nigerian law enforcement 
agencies has increased. The ties between the Drug Enforcement 
Administration (DEA) and its Nigerian counterpart, the National Drug 
Law Enforcement Agency (NDLEA), and between the Secret Service and the 
Nigerian Police Force Special Fraud Unit have significantly 
strengthened and improved during the past eighteen months.
    We are working with Nigeria to improve counter-narcotics and 
overall law enforcement to ensure the country can meet the requirements 
for certification. In FY99, the Bureau for International Narcotics and 
Law Enforcement of the Department of State provided approximately 
$1,918,000 to assist the Nigerians in fighting crime and narcotics 
trafficking. These programs were broken down as follows:


                      FY 1999 INL Training Programs
------------------------------------------------------------------------
             Agency                 Course Description    Cost Estimates
------------------------------------------------------------------------
ATF............................  Post-blast Assessment..         $12,864
ATF............................  Post-blast Training....         220,000
DEA............................  Drug Enforcement, Basic          66,000
DEA............................  Drug Enforcement, Basic          66,000
DEA............................  Drug Enforcement, Basic          60,000
DEA............................  Airport Operations.....          51,500
FBI............................  Police Science Seminar.          50,000
FBI............................  Basic Law Enforcement..          50,000
FBI............................  Internal Controls......          50,000
FBI............................  Computer Crimes........          50,000
IRS............................  Money Laundering &               60,000
                                  Financial Inv.
INS............................  Borders/Documents               155,000
                                  Control.
DOJ/OPDAT......................  Asset Forfeiture for             29,938
                                  Prosecutors.
DOJ/OPDAT......................  Asset Forfeiture,                29,938
                                  Financial Inv.
DOJ/OPDAT......................  Anti-corruption                  73,000
                                  Consultation.
USCS...........................  Overseas Enforcement             58,850
                                  Training.
USCS...........................  Contraband Enforcement           48,000
                                  Training.
USCS...........................  Short Term Advisory....          16,300
USCS...........................  Integrity Training.....          34,720
USCS...........................  Carrier Initiative               25,020
                                  Program.
USSS...........................  Economic Fraud and               60,755
                                  Counterfeiting.
USSS...........................  Fraud and Counterfeit            45,027
                                  Forensics.
------------------------------------------------------------------------


    Beyond the listed courses, the Secret Service has conducted, with 
INL funds, practical financial crimes training and has a task force in 
country that works with the Nigerian Police Special Fraud Unit. This 
program has netted arrests and convictions of criminals that victimize 
American citizens (est $155,000). DEA also provides similar ongoing 
training and support to the NDLEA (est $300,000).
    INL provided approximately $150,000 in material assistance to 
Nigerian police organizations.
    Recognizing that Nigeria is an important regional leader and 
partner in the fight, against transnational crime, the State 
Department's Bureau of International Narcotics and Law Enforcement 
Affairs is also planning to have an officer resident in Lagos as soon 
as possible.
    Crime is a growing problem in Nigeria and throughout Africa. U.S. 
government money spent on effective training of African police to 
combat criminal organizations at their source pays dividends by 
reducing the direct effects of crime on U.S. citizens, decreasing the 
vulnerability of African countries to corruption, and increasing 
respect for human rights and the rule of law. The State Department will 
continue to make such training an important budget priority and will 
work with Congress to increase this high return investment as future 
budgets allow.

    Question. Nigerian organized crime is said to be a problem all over 
the world, and clearly such criminal rings operate in the United 
States.
    How prominent are Nigerian crime syndicates in the United States? 
What sorts of activities are they involved in?

    Answer. Nigerian organized crime groups, with cells worldwide, 
supply large quantities of Asian heroin to U.S. markets. Nigerian fraud 
syndicates operate a wide variety of financial fraud schemes that cost 
U.S. businesses, individuals, and governments at all levels hundreds of 
millions of dollars annually.
    Nigerian criminal organizations operate throughout the United 
States. In the narcotics field, they are primarily wholesalers and 
traffickers with little involvement in street-level sales. Our law 
enforcement agencies estimate that Nigerian traffickers supply 70% of 
the heroin to Chicago. The National Drug Intelligence Center's baseline 
assessment of Nigerian organized crime listed the following cities as 
key locales for Nigerian narco-criminal activity: Atlanta, Baltimore, 
Boston, Chicago, Dallas-Fort Worth, Detroit, Houston, Los Angeles, 
Miami, Newark, New York, San Francisco, Seattle, and Washington D.C. 
Secondary cities include Columbia, South Carolina; Columbus, Ohio; Fort 
Lauderdale and Tampa, Florida; Jackson, Mississippi; Milwaukee, 
Wisconsin; Minneapolis, Minnesota; Oklahoma City, Oklahoma; Richmond, 
Virginia; Savannah, Georgia, and St. Louis, Missouri.
    Fraud committed by Nigerian criminals costs U.S. businesses, 
individuals, and governments at all levels hundreds of millions of 
dollars a year. Nigerian criminals victimize institutions through 
insurance fraud, credit card fraud, loan fraud, identity theft, real 
estate fraud, benefits fraud, electronic funds fraud, and public 
housing fraud. They also victimize individuals through flimflam schemes 
with nicknames such as ``wash-wash'' and ``419.'' The use of mail, 
phones, faxes, and e-mail allow for a victim pool that goes well beyond 
the urban centers listed above.
    Nigerian organized criminals also engage in visa, passport, and 
immigration fraud, sometimes to assist in the commission of other 
crimes and sometimes as a fee-based ``service'' to individuals who do 
not qualify for legitimate entry into the United States.
    Investigations have led to criminal prosecutions and convictions in 
the U.S. and Nigeria.

    Question. The Nigerian military has a long history of involvement 
in politics. There have been several times during Nigeria's history 
when a civilian government has been overturned by a military coup.
    What is your estimation of the importance of the U.S. establishing 
military-to-military contacts, and what are the chances that such a 
relationship will influence the military's willingness to involve 
itself in politics again?

    Answer. The last fifteen years of military rule in Nigeria have 
left the country in ruins. Ironically, the Nigerian military 
establishment is also in ruins. Contrary to popular belief, the 
Nigerian military, as an institution, did not benefit during the 
succession of military regimes. During the Abacha era, there was a near 
total lack of training, equipment purchases, and maintenance. Military 
readiness declined and soldiers were poorly paid, housed, and fed. 
Morale within the military reached an all-time low. Pride in the 
military as a national institution disappeared. Most observers, 
including the Inter-Agency Assessment Team sent to Nigeria in late June 
1999, conclude that military reform must be an overriding priority for 
the new elected civilian government, as a major component of Nigeria's 
transition to a system of democratic governance.
    In our view, the way to keep the military out of politics is to 
develop a restructured, professional military subordinate to civilian 
control under a successful, democratic government. We, along with the 
British Government, are working with the new Obasanjo Administration to 
achieve these goals. USAID's Office of Transition Initiatives has 
funded a contract through MPRI, a private consulting firm that employs 
retired high-level U.S. military officers to develop a program focussed 
on civil-military relations and the role of the military in a 
democratic society. The objective is to inculcate these program values 
within the Nigerian military establishment. MPRI is also helping to 
develop an action plan to redefine the roles, mission, and structure of 
the Nigerian military establishment.
    In addition, the Administration has budgeted $425,000 in FY 2000 
for E-IMET training to help provide a professional core of officers for 
the Nigerian military. We have discussed African Crisis Response 
Initiative (ACRI) peacekeeping training with the Nigerian authorities, 
although no offer to join has been made by us or tendered by them.

                                politics
    Question. Observers of the Nigerian presidential elections were 
concerned about the amount of fraud they witnessed in certain areas of 
the country. Though they do not believe that the outcome of the 
elections would have been different had they been 100% free and fair, 
there is still cause for concern.
    What steps is the Nigerian Government taking to ensure that there 
are mechanisms in place to prevent election fraud? Is there a truly 
independent electoral comission?

    Answer. Although isolated incidences of fraud were reported in 
areas throughout the country, the most egregious cases occurred in the 
southern reaches of the country. There were no widespread allegations 
that the Electoral Commission was corrupt or incompetent. The short 
time period for election preparations and the enormous costs involved 
also contributed to imperfections in the elections.
    President Obasanjo was sworn in May 29. In nearly six months on the 
job, he has made an important start in tackling many of the critical 
and immediate problems facing Nigeria after fifteen years of misrule 
under military governments. However, many tough challenges still lie 
ahead.
    Newly elected legislatures at local, state and federal levels are 
still being organized. A national debate continues over the need for a 
new constitution or whether the current constitution should be changed 
by a sovereign national conference or the recently elected National 
Assembly. Reform of the electoral machinery and the establishment of an 
Independent Electoral Commission is another important aspect of the 
political culture that requires further refinement.
    An important positive development in last year's elections was the 
formation of the Transition Monitoring Group (TMG). This coalition of 
64 Nigerian pro-democracy organizations fielded more than 10,000 
domestic observers in all 36 states for the Presidential election, 
providing close oversight and the most comprehensive monitoring effort 
ever for a Nigerian national election. The TMG's membership and 
leadership crossed all ethnic, regional and religious barriers, making 
it a truly national coalition. This type of civil society engagement is 
key to ensuring transparent and credible elections in the future. USAID 
provided support to the TMG.
    The Independent National Electoral Commission needs support in 
order to become a truly effective arms-length regulatory body that can 
ensure a fair and legitimate electoral process. Strict enforcement of 
Nigeria's electoral laws and regulations is essential to prevent fraud 
and to increase confidence in democratic institutions and processes. 
Conducting genuinely free and fair elections in the future will be a 
major test of Nigeria's transition to democratic governance.

                               economics
    Question. Last night, November 3, the Senate passed the African 
Growth and Opportunity Act.
    This is the only major piece of legislation dealing with sub-
Saharan Africa as a whole that Congress has dealt with all session.
    Will this bill have any effect on trade relations between Nigeria 
and the United States? Do you think it will promote economic growth 
and/or investment in Nigeria?

    Answer. Yes, over time and assuming Nigeria proceeds with economic 
and political reform, we believe this bill will help promote trade with 
and investment in Nigeria, as well as the rest of Africa. The central 
factor in the African Growth and Opportunity Act (AGOA) is the 
expansion of the privileges under the Generalized System of Preferences 
(GSP). This would give Nigeria and other African countries greater 
access to the U.S. market without duties. Currently, however, the 
Nigerian economy is dominated by oil and Nigeria's small scale and 
underdeveloped export products would need an infusion of investment 
before textiles and other products are in a position to compete 
significantly within the U.S. market. Nigerians, however, are 
optimistic about prospects for trade and investment which would become 
available under AGOA.

    Question. Nigeria is burdened with a reported $31 billion in 
external debt, most of it owed to the Paris Club of creditors.
    What is the current state of the Nigerian economy? How will this 
affect Nigeria's ability to pay external debt? Is debt forgiveness for 
Nigeria an option being discussed at the Paris Club? What about 
bilateral debt owed to the United States?

    Answer. The Nigerian economy remains depressed and handicapped by a 
broad array of severe infrastructural (power, water, security) and 
institutional. (corruption, lack of due process) weaknesses. The formal 
economy is overly dependent on fluctuating world oil prices, which 
provide virtually all of Nigeria's foreign exchange earnings and about 
80 percent of government revenue.
    There is tremendous competition for scarce Nigerian resources to 
rebuild social services, infrastructure, and expand the economy. The 
Obasanjo Administration confronts enormous pressures to deliver a 
democracy dividend, which would translate into visible improvements in 
the standard of living. Despite its oil wealth, Nigeria is one of the 
poorest countries in the world, with an annual per capita income of 
less than $300. For these reasons, Obasanjo continues to make the case 
for debt relief as key to controlling Nigeria's budget deficit and 
freeing up resources to restore Nigeria's institutional and social 
infrastructure.
    There has been no formal discussion of debt forgiveness for Nigeria 
in the Paris Club. Nigeria currently owes over $30 billion to external 
creditors, including $869 million to the USG, with an annual debt 
service burden of about $2 billion. Its debt to the U.S. accounts for 
approximately 4% of its debt to Paris Club creditors and about 3% of 
its total debt. The United States does not, however, require the 
approval of the Paris Club to unilaterally forgive bilateral debt. 
President Clinton has stated publicly that the Administration favors 
generous debt rescheduling as part of a comprehensive economic program 
that will spur private investment and growth in Nigeria.

                        nigeria's regional role
    Question. For years Nigeria has been involved in peacekeeping 
efforts in Liberia and Sierra Leone. Though the performance of the 
military units as peacekeepers has been criticized as unprofessional in 
some instances, even critics agree that without Nigeria's intervention 
in those two countries, their collapse could have been even more 
profound.
    What role do you envision Nigeria playing economically and 
politically in the region should the democratic transition be 
successful? Will this have any impact on the U.S. relationship with 
Nigeria?

    Answer. Our hope is that Nigeria will remain actively involved in 
regional conflict resolution and peacekeeping. It is in Nigeria's 
interest to do so. Popular disaffection at home, however, obstructs 
Nigeria's involvement in resolving regional conflicts when many 
domestic needs remain unsatisfied. Nigeria has borne a disproportionate 
burden of regional peacekeeping operations in terms of treasure and 
loss of lives. In the future, Nigeria will look to greater burden-
sharing by others in the region as well as greater support by the 
international community.
    Nigeria and the United States share common objectives: regional 
stability and security. We can work actively with a democratic Nigeria 
to contain conflicts before they occur.
    As the elected President of sub-Saharan Africa's most populous 
country, Obasanjo can have tremendous influence on other African 
nations. In the short time he has been in office, he has been active 
internationally playing a central role in the development of the peace 
process in Sierra Leone and encouraging dialogue in Angola, Sudan and 
the Democratic Republic of the Congo. A right-sized, reformed, 
professional Nigerian military can continue to play a critical role in 
future peacekeeping efforts in the region, as Nigeria is the only 
country in the region capable of projecting military force.
    Economically, a prosperous and flourishing Nigeria will have a 
spill-over effect onto other regional economies. If Nigeria realizes 
its vast economic, commercial, and investment potential, it raises the 
prospects for stability and economic growth in the entire region. The 
United States recognizes Nigeria as Africa's largest potential consumer 
market and as a prospective destination for investment.
    Overall, a successful, stable, and economically vibrant democratic 
government in Nigeria will have a profoundly positive influence on the 
region and the continent.

    Senator Biden. Thank you.
    And as I said, Mr. Chairman, in your absence, I have been 
informed 10 minutes before I came over here that we are going 
to go to the bankruptcy bill, which I am responsible in part 
for managing on the floor, so I may not be back. But if that is 
not the case, the bad news is I will be back.
    Senator Frist. Good. Thank you very much.
    Senator Biden. Thank you very much.
    Thank you, Mr. Secretary.
    Ambassador Pickering. Thank you, Senator, very much.
    Senator Frist. Mr. Secretary, thank you very much. You have 
been very patient. We appreciate your spending this time, 
arranging the scheduling. It is, I agree, mutually beneficial 
to be able to have what has occurred over the last several 
weeks. But we do appreciate it. We appreciate your service and 
look forward to working with you in the future as well.
    Ambassador Pickering. Thank you, Mr. Chairman, very much 
for scheduling an important hearing on a very important set of 
issues for us.
    Senator Frist. Thank you.
    Ambassador Pickering. Thank you.
    Senator Frist. We will proceed with the second panel. There 
are votes that are going, so we will be moving in and out. But 
let us go ahead and have the second panel come forward at this 
juncture. Our second panel consists of Dr. Jean Herskovits, 
professor of history, SUNY-Purchase, New York, and Dr. Adotei 
Akwei, advocacy director for Africa, Amnesty International USA, 
Washington, DC.
    Welcome to both of our witnesses, and we will begin with 
Dr. Herskovits.

  STATEMENT OF JEAN HERSKOVITS, PH.D., PROFESSOR OF HISTORY, 
                  SUNY-PURCHASE, NEW YORK, NY

    Dr. Herskovits. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to testify at these hearings, 
discussing these issues that have long concerned me, for over 
three decades in fact. Discussing them at so hopeful a time, 
with so many sharing these hopes, is a great pleasure, and a 
great contrast to when I was last here in 1996.
    I think the breadth of this hearing is appropriate. 
Relations between the U.S. and Nigeria depend on the success of 
its transition to civilian rule and democracy. The transition, 
however, is a work in progress, and Nigeria's problems will not 
be solved by an election alone, as the Under Secretary 
mentioned. As President Obasanjo said here last week, democracy 
is not an event, it is a process, adding that we need to see 
him hand over to an elected successor to be confident of its 
durability.
    In my prepared statement I look at where Nigeria stands now 
as Nigerians see it. Where do their hopes rest? Where do their 
most immediate problems lie? What are the longer range 
challenges they face? I move then to the relationship between 
the United States and Nigeria and conclude with policy matters.
    We all know Nigeria's vital statistics--size, population, 
resources--and how damaging the last 15 years of military rule 
have been. We have heard some of that already. Self-serving 
policies purposely undermined Nigeria's previously robust 
institutions, from the civil service through civil society. The 
vibrant and growing middle class of the 1970's and early 1980's 
was destroyed. Poverty escalated as insecurity and deprivation 
ruled the land. Corruption on an unimagined scale was central 
to control at the top and, for many others, became the only 
means of survival.
    The drop in Nigeria's economic fortunes that began in the 
early eighties, along with international borrowing, underlay 
what followed. Combined with massive devaluation of the naira, 
the demands of debt service would impoverish many in this 
import-dependent economy. The criminal looting of the treasury 
that came as well escalated the dire consequences.
    These economic circumstances, which continue today, have 
compounded a problem that for historical reasons afflicts 
Nigeria, namely the central role of government in people's 
lives and prospects. It focuses too much attention on politics 
and power, it interferes with new economic policies, and it is 
remarkably resilient, going so deep few even discuss it. It 
underlies many of Nigeria's problems, even as Nigerians 
continue to look to government for solutions.
    President Obasanjo in his first days in office acted 
decisively on a number of matters important to Nigeria, 
Nigerians. I will not repeat them here for the sake of time; we 
have heard from Under Secretary Pickering about a number of 
them.
    I do not think, though, that he mentioned President 
Obasanjo's having appointed a panel to review contracts awarded 
by previous governments, as well as seeking to find out what 
money exactly had been stolen and making clear that his 
government henceforth would be accountable and its processes 
transparent.
    President Obasanjo also empaneled a group of respected, 
credible Nigerians to examine allegations of human rights 
abuses. He retired over 100 high-ranking military officers who 
had held political positions in previous regimes. All of these 
measures were popular, and all raised hope and expectations. In 
Nigeria, as here, these expectations are high, perhaps 
unrealistically so.
    So much needs to be done and prioritizing is vital, though 
very difficult. Does one start with the economy? If so, where? 
Does one start with the constitution? If so, how? How high a 
priority is the military? Does one focus on redressing the 
wrongs of the past, as the President stressed at the start, or, 
as he seemed to say last week, put the bulk of one's energies 
into solving the problems of the present and future?
    Among the highest priorities I believe must be the 
military. Scarcely any need is more pressing than to create a 
trim, professional military that understands its role in a 
democratic system and is responsible to civilian authority. 
This requires training and there is no time to waste in getting 
started. Grumblings are already audible among junior officers: 
Where are the benefits, they ask, that come to them from 
Nigeria's democracy? Here also, expectations are high.
    Two immediate challenges face Nigeria's military. One is 
its peacekeeping responsibilities in West Africa, about which 
we have been hearing today. The second and more difficult is 
internal. The military have long been asked to perform duties 
that seem to Americans more appropriate for the police. But 
Nigeria's police, neglected, underpaid, and corrupt, lack the 
training to handle such conflicts as have broken out in the 
Niger Delta and elsewhere. Thus the military will continue to 
be called upon when such crises occur. This makes all the more 
critical appropriate training, for the police certainly, but 
also for the military in the interim.
    In my prepared statement I take up several of the hot 
button issues of today's Nigeria, among them the constitution, 
its federal structure, and how to share revenue. Time does not 
allow me to discuss them here, important though they are, but, 
especially because Senator Feingold raised the matter of the 
constitution, I would be happy to talk further about it if you 
or he wishes to ask.
    But immediate dangers lie in the Niger Delta. Many 
localities where oil companies operate and now the all-
important liquefied natural gas facility is being built have 
provided one flash point after another. Ironically, the LNG 
plant, apart from generating needed additional revenue, will 
play a major role in ending the decades-long destructive and 
wasteful flaring of the gas associated with oil production that 
has so damaged communities in the delta.
    The delta is the region of the greatest ethnic, linguistic, 
and geographical complexity in a country where complexity is 
everywhere. Because its people see themselves as having 
provided Nigeria's wealth for decades with little coming back 
to them, their anger has escalated. Combine this rage with the 
same high unemployment that plagues the whole country, 
especially among the young, add the demonstration effect of 
international NGO support for some local efforts, and the 
combustible nature of the mix is obvious.
    Unfortunately, some of the protest has moved beyond 
spontaneous violence to criminal acts, threatening the economic 
lifeline of the nation. If people in the oil-producing 
communities do not see tangible results on the ground, 
difficult as the terrain literally is, and see them soon, we 
are likely to see even more violence.
    Delta issues, however, are often posed as either matters of 
justice and fairness or of security. Actually, they are both 
and more. It serves neither the people of the delta nor Nigeria 
as a whole to reduce this highly complex crisis to any single 
issue with a simple solution. And failure to solve the delta 
problem could deal a severe blow to the hopes for Nigeria's 
democracy, economic growth, and, even--though I fervently hope 
not--international support.
    Nigeria will need understanding and forbearance here. 
Resentments built up for decades will unfortunately be with us 
for a long time.
    Turning back to the United States and Nigeria, in Abuja 
recently some of the Nigerian legislators who had visited here 
expressed concern about what the United States can and will do 
to help. They feared that the intricacies of policymaking mean 
that little will be done. They understand that measures taken 
since 1993 are difficult to remove, but at the same time they 
point to the continuous demands that Nigeria democratize and 
they say--and this is a literal quote: ``OK, now we have done 
it and, even if we did it for our own sake, should you not make 
a serious effort to help us, instead of explaining to us what 
is not possible because of this or that regulation or 
legislation or politics?''
    Indeed, the high degree of official interest since May 29, 
so welcome to Nigerians after their painful isolation, has 
raised the expectations, probably unrealistically, about what 
the United States will do to support them. This matches what 
they expect from their new government. The possibility of 
disappointment in both cases is considerable.
    We know that the greatest constraint on U.S. policy is 
financial. We must seek imaginative alternative ways to find 
more resources, even while working to overcome the resistance 
to increasing, for instance, the budget of USAID and others. 
The planned U.S.-Nigerian Joint Economic Partnership Committee 
just spoken about this afternoon may provide a vehicle for 
tackling this challenge.
    Nigerians see a double standard when it comes to Africa's 
needs compared to almost anyone else's. This is not in 
Nigeria's case mainly a question of aid. President Obasanjo's 
pleas for debt relief and assistance in recovering stolen money 
are central to Nigeria's ability to handle its problems. 
Nigeria insisted on paying its own way in the late 1960's and 
1970's. It has also been generous to its neighbors and others. 
Hence the plea for debt relief.
    It is of course true that Nigeria does not meet HIPC or 
Paris Club conditions for forgiveness, but it should not be 
impossible to find a new solution to this problem. The United 
States can press for conditions to be modified, perhaps. What 
good does it do the countries of West Africa who do qualify for 
forgiveness if Nigeria's indebtedness were to undermine its 
economic recovery and even its democracy, with obvious impact 
beyond its borders?
    For democracy to endure, Nigerians must see improvement in 
their standard of living and especially the creation of jobs. 
If Nigeria puts in place the conducive policies President 
Obasanjo says it must and will, the U.S. Government can support 
frameworks and guarantees that give confidence to a hesitant, 
if interested, U.S. private sector.
    Along with the economy, I believe, as is clear from what I 
have already said, the police and the military need urgent 
attention and assistance. Already, through the Office of 
Transition Initiatives the State Department is working on 
civil-military relations, stressing the role of the military in 
a democracy. Meanwhile, essential to achieving the goals for a 
new Nigerian military are both the IMET and Expanded IMET 
programs.
    I realize there are concerns about IMET, and we have heard 
some of them already expressed. But based on what I have 
learned through years of talking with Nigerian officers, senior 
and junior, and not least while working on regional security 
issues, I am convinced that making it possible for them to 
attend courses available through IMET is crucial. The key to 
professionalization of the forces must be education and 
professional training, which does of course also include the 
role of the military in a democratic society.
    In addition, we want Nigeria to continue to participate in 
peacekeeping. But in Sierra Leone the Nigerian troops found 
themselves with no peace to keep. They had to fight and they 
took casualties, and some of these surely were because of lack 
of training. This is another, if you will, humanitarian reason 
for IMET.
    Also critical is internal security when violence erupts. 
Training special units to better handle such situations is 
essential. But this also needs a new approach that I think 
should include support, not only from the administration and 
Congress, but, especially in reference to the Niger Delta, from 
human rights and environmental organizations that have played 
so important a part in bringing the issues there to 
international attention.
    Respect for human rights must be a key component of 
whatever training the U.S. supports, and those with expertise 
in this area should participate in and also endorse such vital 
training. The problems of the delta cannot begin to be solved 
without both security and human rights restored and respected.
    Peacekeeping is the area in which the Africans see a double 
standard most starkly displayed. Why are the horrific human 
rights abuses in Sierra Leone less worthy of U.S. attention and 
resources than the ones in Kosovo or East Timor? Now the 
Security Council has at least approved an assessed peacekeeping 
mission for Sierra Leone. Nigeria has borne for years the 
financial and human cost, as we have already heard, of trying 
to keep the peace there and in Liberia, and Nigerians will 
provide the bulk of the up to 6,000-man peacekeeping force 
charged with disarming and demobilizing Sierra Leone rebel 
forces.
    But U.N. reimbursement for peacekeeping missions is slow at 
the best of times, which these are not. Nigeria is not 
unappreciative of the $100 million of assistance the United 
States eventually provided to ECOMOG, and only then through 
some creative policymaking. But Nigeria's burden, the $8 
billion we have heard about today, was obviously 
disproportionate. The State Department needs greater resources 
to assist regional peacekeeping efforts. That last year only a 
paltry $4 million was available for all of Africa is 
astonishing, or should be.
    The Sierra Leone peacekeeping mission offers another 
opportunity for creative policymaking. An idea comes from the 
Government of The Netherlands, which produced a variant of 
their now-mooted debt for peacekeeping swap to pay earlier for 
some of the non-Nigerian troops in ECOMOG. I understand that 
applying this notion to what will be taking place now in Sierra 
Leone is still in its formative stages. The U.S. should work 
with this idea so that its eventual terms do not preclude 
Nigeria as a beneficiary on the grounds that it has oil 
resources. Ideally, some of the expenditures on peacekeeping 
made before a swap comes into effect could be taken into 
account.
    So what more can and should the U.S. do? I would like to 
make just three more small suggestions. One, address as 
expeditiously as possible the constraints placed on assistance 
as punitive measures against Nigeria from 1993 on. Of course 
there is a separate basis for concern about drug trafficking, 
but with the current cooperation I hope recertification or at 
least a national interest waiver will be possible.
    Two, permit direct flights between the U.S. and Nigeria. I 
know at firsthand the efforts made to bring Murtala Muhammed 
Airport in Lagos up to the standards the U.S. requires. I also 
know from much flying in and out of other airports in Africa 
and elsewhere that it is not the worst of them. And it is a 
matter of profound chagrin to Nigerians to see prominently 
displayed here at every airport warnings against traveling 
there.
    It is true now, as it has been since direct flights were 
prohibited, that the people this ban hurts most are not the 
privileged elite. Students and people with sick relatives and 
even academics like me, for example, sorely miss being able to 
travel to and from Nigeria more cheaply and efficiently.
    Third, bring back the Peace Corps to Nigeria. With the 
disastrous state of education there and with resourceless local 
governments now responsible for schools, Peace Corps teachers 
would be welcome. The needs are so great, indeed, in so many 
areas that any Peace Corps mission would be helpful.
    So then, in conclusion, what lies ahead? I share Nigerians' 
hopes for their country and am delighted to be able to talk of 
Nigeria in this new positive atmosphere. But I also remember 
that in 1978, which is the last time when relations between the 
U.S. and Nigeria were cooperative and warm, an article I wrote 
on the subject in the Financial Times was headlined ``The 
Dangers of Falling in Love.'' Expectations were the issue.
    Not long after, the ``love'' disappeared. Now dangers may 
be there again. Unfulfilled expectations can lead to 
disillusionment, the positive too readily turning negative.
    In today's Nigeria, blessed though it is with a President 
committed to righting the wrongs and curing the ills of his 
country, the job is still formidable. Many things could go 
wrong and some of them almost certainly will. Nigeria needs 
friends who will not turn away when that happens, and I very 
much hope that this time the United States will be one of them.
    Thank you very much.
    [The prepared statement of Dr. Herskovits follows:]

               Prepared Statement of Dr. Jean Herskovits

    Mr. Chairman, Senator Feingold, Members of the Committee, I 
appreciate the opportunity to testify at this hearing on the U.S. 
relationship with, and policy towards, Nigeria, and on Nigeria's 
transition to civilian rule and democracy.
    I am a professor of history at the State University of New York at 
Purchase. African history, distant and recent, is my field of 
specialization, and Nigeria--especially its on-going struggles with 
governance and relations between it and the United States--has been the 
central concern of my work since 1970, although my interest in its 
politics goes back to my first travels there, as a student, shortly 
before its independence in 1960. Since the end of Nigeria's civil war 
in 1970, I have spent time there almost every year, for stays ranging 
from ten days to the 18 months that led to the 1979 transition to 
civilian rule. I have traveled throughout the country, discussing over 
the years their concerns with as wide a range of Nigerians as possible 
in 34 out of the current 36 states. I returned two and a half weeks ago 
from my fourth trip there this year.
    It is a particular pleasure to be able to talk about Nigeria in a 
climate of hope, very much in contrast to when I was last here, in 
1996. I think the breadth of this hearing is appropriate, for relations 
between the US and Nigeria depend primarily on the success of its 
transition to civilian rule and democracy. There are some who, looking 
at the dramatic changes that culminated in the inauguration of 
President Olusegun Obasanjo on May 29th, would say that the transition 
has taken place. But Nigerians say that their transition is, to 
paraphrase, a work in progress. They know their problems, so long in 
the making, will not be resolved by an election alone, nor even by 
working at them for a four-year term. As President Obasanjo himself 
said here last week, ``democracy is not an event; it is a process,'' 
adding that we need to see him hand over to an elected successor to be 
confident of its durability.
    Thus I will begin this statement with a look at where Nigeria 
stands now, as Nigerians see it. Where does their hope rest? Where do 
their most immediate problems lie? What are the longer-range challenges 
Nigeria's governments and people face? I will then take up the 
relationship between the United States and Nigeria, moving then to 
issues of policy.
                          a little background
    As an historian, I must spend a few moments on context. Nigeria is 
about to turn 40, and during all those years, outsiders especially have 
tended to minimize its complexities. People recite its vital statistics 
like a mantra: it is Africa's most populous country, with (now) some 
110 million people. It has over 250 ethnic groups and some 400 mutually 
unintelligible languages. It has adherents, numbering in the tens of 
millions, of Islam and Christianity. It is the world's 10th largest oil 
producer (and the United States' fifth largest supplier), but one of 
the world's poorest countries by per capita GDP, about $300. 
Democratically-chosen civilians have ruled Nigeria during fewer than a 
quarter of its post-independence years.
    Behind those statistics are tangled causes and consequences. Shifts 
in policy have left one encrusted legacy upon another to complicate the 
challenges its leaders now face. Particularly damaging have been the 
last 15 years of military rule. During that time, self-serving policies 
purposely undermined Nigeria's previously robust institutions, from the 
civil service through civil society. Its judiciary, its educational 
system, its military, its political organizations, its trade unions, 
its bar association--all those and more suffered from neglect, 
manipulation, cooption, and ruthless repression, at times veiled, at 
others obvious. The vocal (if opinionated) press, was hounded and 
worse. Arguably, the most tragic broad consequences were economic: the 
vibrant and growing middle class of the 1970s and early 80s was 
destroyed. Poverty escalated as insecurity and deprivation ruled the 
land. Corruption on an unimagined scale was central to control at the 
top, and for many others became the only means of survival.
    The drop in Nigeria's economic fortunes that began in the early 
1980s,\1\ and the international borrowing on a large scale that was new 
to Nigeria, \2\ underlay all the maneuvering and manipulating that was 
to follow. Combined with the massive devaluation of its currency, the 
naira, a few years later, the demands the debt imposed would impoverish 
many in this import-dependent economy. The criminal looting of the 
treasury that followed only escalated the dire consequences for 
Nigerians as a whole and the dwindling middle class in particular.
---------------------------------------------------------------------------
    \1\ Beginning with the sudden 1982 drop in oil prices (following an 
ill-judged OPEC decision in 1979 to double the price, which had led to 
a popular assumption that revenue from oil was headed unendingly 
upward), Nigerians' declining economic circumstances contributed to 
impatience and lack of confidence in the workings of civilian-led 
government. These in turn fueled popular support for the coup d'etat of 
December 31, 1983 that ended Nigeria's second attempt at democracy.
    \2\ At the handover to civilians in October 1979, Nigeria's 
external debt stood at less than $3 billion. I remember throughout the 
late 1970s and early 1980s the scores of international bankers, with 
growing petrodollar resources, urging on Nigerian governments the view 
that the country was ``under borrowed.''
---------------------------------------------------------------------------
    These economic circumstances, which continue today, have only 
compounded a problem that plagues Nigeria: the central role of 
government in people's lives and prospects. Whereas in many parts of 
the world in the 20th century excessive government involvement derived 
from socialist ideology, in Nigeria (as in other one-time colonies), 
the precedent was colonial rule. Under it, power was kept securely at 
the top of government, and those who wielded it and made key economic 
decisions automatically had substantial perks--housing, telephones, car 
loans, ``home leave,'' and more. This inheritance, which makes 
government so attractive and so far persists, has undercut the 
entrepreneurial drive evident to anyone who visits Nigeria. It has 
undercut the search for opportunities that a vibrant private sector 
could offer to the country's growth and individuals alike. It has made 
institutions that should have some independence from government--
universities come to mind--even want closer association with it.
    This pervasive role of government, combined with all the negative 
consequences of oil production and the access to oil wealth that 
control of government provides, has intensified an unhealthy fixation 
on political power. It has fueled both military and civilian ambitions, 
including civilian support for military governments. It has escalated 
demands to create more and more states within the Nigerian federation, 
and more and more local governments within those states. These steps--
taken in the last decade for cynical reasons even if in response to 
popular demand--have created more, not fewer, tensions, as people fight 
(at times literally) for access to whatever resources they think only a 
government can offer.
    These, then, are some of the most difficult ingredients of the 
problems the new democratic Nigeria faces. They need to be kept in 
mind, in understanding not only what issues need urgent consideration, 
but also the mind set of many of those in the very process of 
considering them.
                              nigeria now
    President Obasanjo in his first days in office acted decisively on 
several matters important to Nigerians. They had for years been plagued 
by epileptic supplies of petrol at the pump. Long, long queues and 
double digit hour waits were the norm, and reminded Nigerians every day 
how miserable was their lot. Within a few weeks of his inauguration, 
the queues were gone, as he made tangible his promise to Nigerians to 
improve their lives. He launched a high profile campaign against 
corruption, starting with immediate investigations into the well-known 
stealing of public funds by those at the top of previous 
administrations, notably Abacha's. The magnitude of what was rapidly 
uncovered shocked even cynical Nigerians, just as the efforts to 
recover the ``loot'' impressed them--efforts in which President 
Obasanjo is seeking international cooperation and support. He stressed 
that government henceforth would be accountable, its processes 
transparent.
    He also appointed a panel to review contracts awarded by previous 
governments, with an aim of securing compensation from those who had 
not completed--or in some cases even started--the work for which they 
had been paid. Equally important, he empaneled a group of respected, 
credible Nigerians to examine allegations of human rights abuses--this 
was inspired by South Africa's Truth and Reconciliation Commission--
over a period that would, by popular demand, be extended backward 
several times. And he retired over a hundred high-ranking military 
officers who had held political positions in previous regimes, and were 
thus presumed to harbor potential political ambitions of their own; 
more retirements were known to be possible later. All of these measures 
were popular, and all raised hope and expectations.
                      expectations and challenges
    In Nigeria, as here, these expectations are high, perhaps 
unrealistically so. Because of President Obasanjo's international 
standing, some of them rest on the international community, and 
especially the United States, as I will discuss shortly. Many, however, 
are domestic. First comes the economy: Nigerians are looking for a 
revitalized economy that will give them jobs and a decent standard of 
living. The young have become especially desperate, especially among 
unemployed high school and university graduates. Many know that turning 
a stagnant economy around can't be done quickly, and they don't expect 
miracles. But they expect visible signs in the right direction. That 
the long queues at petrol stations disappeared in early June was 
important.
    So much needs to be done, and prioritizing is vital, though very 
difficult. Does one start with the economy? If so, where? Does one 
start with the constitution? If so, how? How high a priority is the 
military? Does one focus on redressing the wrongs of the past, as 
President Obasanjo stressed at the start? Or, as he seemed to say last 
week, put the bulk of one's energies into solving the problems of the 
present and future?
The Military
    Among the highest priorities must be the military. Even if they 
prefer other topics, Nigerians say in any discussion that ``the 
soldiers'' are critical to Nigeria's future. Given its history, that 
should be obvious. By retiring politically active senior officers as 
one of his first acts, President Obasanjo implicitly confirmed that. 
Scarcely any need is more pressing than to create a trim, professional 
military that understands its role in a democratic system and that it 
is responsible to civilian authority. Nor is understanding sufficient; 
officers must subscribe and adhere to that role. This requires training 
most of all, and there is no time to waste in getting started. As if to 
underscore the urgency, grumblings are already audible among junior 
officers: where are the benefits to them of Nigeria's democracy?
    Nigerian civilians may be suspicious of--not to say hostile 
towards--the military, and for good reason. But they do not doubt the 
importance to the future of the country of keeping them out of politics 
and governance. And though many civilians do not wish to hear it, the 
military too were victims of the abuse of power by their recent 
leaders.\3\ They were often not properly paid, housed, equipped, 
supplied; most repugnant was the diversion of some funds from the 
troops in ECOMOG in Liberia and Sierra Leone. Fortunately, President 
Obasanjo and his minister of defense, retired General T.Y. Danujma, 
well understand the importance of dealing with, not just downsizing and 
retraining, but also the welfare of those who will belong to the 
reprofessionalized national institution that will serve the country, 
under its democratically-elected leaders. Because both have had 
military careers, those in uniform at all levels anticipate 
understanding of their problems and improvement in their circumstances. 
Here also expectations are high.
---------------------------------------------------------------------------
    \3\ It seems to me this parallels the allegation often heard in 
Lagos and elsewhere in the southern part of the country that, because 
Nigeria's rulers have almost all come from the North, that ``the 
North'' was the recipient of all the country's wealth. Anyone who has 
spent time driving around the northern states knows how seriously 
impoverished they also are.
---------------------------------------------------------------------------
    Two immediate challenges face Nigeria's military. The first is in 
their subregion, West Africa, where they have borne an extraordinary 
burden for nearly a decade, first in Liberia and then in Sierra Leone, 
on behalf of the ECOWAS (the Economic Community of West African 
States). Providing nearly all the personnel, equipment, and funding for 
the operations of ECOMOG, they spearheaded the only international 
intervention there would be (despite the US's long historical ties with 
Liberia) in both of those brutal civil wars. The international 
community showed no will to assist until quite late in the day.
    This effort may have cost Nigeria as much as $8 billion, between 
500 and 1,000 killed in action, and many hundreds wounded.\4\ And, 
however much those far away may criticize an operation with 
acknowledged imperfections, I have myself met numerous Liberians and 
Sierra Leoneans who say, unprompted and with considerable emotion, 
that, but for the Nigerians, they would not be alive today.
---------------------------------------------------------------------------
    \4\ There are those who argue that Nigeria would have had to spend 
money on its thousands of ECOMOG troops even if they had been at home; 
true, but they would not have had to spend dollars. Others say, as I 
have mentioned, that some funds intended for ECOMOG were diverted, but 
the President's estimate of the cost takes that into account. And the 
Nigerian casualties are an additional and painful cost.
---------------------------------------------------------------------------
    Now that the UN Security Council has authorized an assessed 
peacekeeping force for Sierra Leone, there is hope that--even as 
Nigeria continues to supply troops for it--Nigeria's financial burden 
will be lifted. It has to be, for given the problems discussed here, it 
is clear that a newly democratic Nigeria cannot continue to sustain the 
costs.
    The second and more difficult challenge is within the country, 
where the military have long been asked to perform highly sensitive 
duties that seem to Americans more appropriate, in any case, for the 
police. As it now stands--and acknowledging the intentions and plans of 
the current minister of police affairs for the future--the police 
suffer from years of neglect and pitifully low pay. Corrupted beyond 
description, they largely lack the training to handle appropriately 
such conflicts as have broken out in the Niger Delta and elsewhere. 
Thus, the military will continue to be called upon to safeguard life 
and essential facilities, when such crises occur. That there is 
potential for many more incidents makes all the more critical 
appropriate training, for the police, certainly, but also for the 
military in the interim, a point I will say more about later.
Nigeria's constitution: questions of legitimacy
    Meanwhile, the focus of Nigerians on government continues. The 
contentious issues of the constitution and of revenue sharing (in 
Nigerian terminology, revenue allocation) are central concerns. Years 
ago a Nigerian friend commented to me that ``Nigerians are over 
politicized and under governed.'' I'm not sure about ``under 
governed,'' but ``over politicized'' is certain. Apart from needing to 
learn or relearn how democratic governance functions, Nigerians face 
the complexities of an American-style federal system. The executive 
president and governors are more limited in freedom of action than the 
military executives of recent experience, and legislatures, whose 
members are finding their way after a long hiatus, are also facing 
executives unaccustomed to sharing power, especially financial power, 
with legislators.\5\ Working all this out will take time, and the 
budget process is already making the challenges evident.
---------------------------------------------------------------------------
    \5\ Then General Obasanjo, commenting from outside in 1979 on this 
process of learning, described it as ``testing for height.'' 
Unsurprisingly, he favors an assertive, strong executive, but even he 
may find he needs to adjust his thinking about the legislature, and 
tailor his actions accordingly.
---------------------------------------------------------------------------
    Underlying these systemic complications is a set of problems that 
did not face the Second Republic after the 1979 handover from the 
military: Nigerians questioning and challenging the constitutional 
basis of the country's existence. Fundamental now is the nature of 
Nigeria's federalism. The constitution itself is farther removed from 
being the voice of ``We, the people,'' thanks to amendments upon 
amendments made by successive military governments.\6\ And the 
federation is now composed of 36 states, not the 19 of the Second 
Republic, states having been created by dividing, and dividing further, 
ones delineated earlier. These problems, though related, need to be 
dealt with separately.
---------------------------------------------------------------------------
    \6\ In the 1979 wording, ``Sovereignty belongs to the people of 
Nigeria from whom government through this Constitution derives all its 
powers and authority.'' [Section 14 (1)(a) of the 1979 Constitution.] 
Many voices are now challenging the legitimacy of the present, 1999, 
constitution, one of the most eloquent being Chief Rotimi Williams, 
Senior Advocate of Nigeria and one of the country's most distinguished 
lawyers. He chaired the Constitutional Drafting Committee that in 1976 
produced the draft on which it, and subsequent versions decreed by 
military governments in 1989 and 1999, were based. The challenge from 
himself and others rests on the amendments made, not by the almost 
entirely elected Constituent Assembly that sat in 1977-78 and commanded 
the respect and support of Nigerians generally, but rather by 
successive military ruling councils. See ``A Constitution for the 
People of Nigeria,'' a lecture delivered by Chief F.R.A. Williams at 
the inaugural United Bank for Africa Law Lecture Series, Lagos, 19 
August 1999.
---------------------------------------------------------------------------
    The first is the more pressing. The demand to rethink Nigeria as a 
``corporate entity'' (as Nigerians put it) was loud during the years 
after the annulled 1993 election. The call then, and with it the demand 
for a ``Sovereign National Conference,'' came largely from the south-
west of the country, though the south generally protested ``Northern 
domination.'' More recently, as more and more groups in the country 
have felt aggrieved, the term ``marginalized'' has come to dominate 
political discourse, each group claiming it in the present, recent, or 
more distant past.\7\ Now there is growing agitation from many parts of 
the country (if less from the south-west) for some sort of national 
conference to address the constitutional issues.
---------------------------------------------------------------------------
    \7\ Father Matthew Kukah, a member of the panel set up by the 
Obasanjo government to examine human rights abuses over the years), 
commented to me last month that he hoped that hearing from those who 
feel aggrieved and who come from all parts of the country would work to 
strengthen the sense of national unity, precisely because airing those 
grievances would give people a sense of common suffering that would 
make it possible to turn to building the future together.
---------------------------------------------------------------------------
    The pressure has increased, unexpectedly, because of an issue that 
posed a challenge even at the 1978 Constituent Assembly: namely, the 
institutionalization of Sharia law for Nigerian Muslims. Without 
getting into the intricacies of the debate, it is necessary to make two 
points: one, that Nigeria's Muslims have generally taken Sharia as 
``personal law,'' applying to such matters as divorce and inheritance; 
the connotations the term calls up in Western minds (chopping off hands 
of thieves, stoning adulterers, etc.) have not been accurate.\8\
---------------------------------------------------------------------------
    \8\ Lately, with the rise in crime all over the country and the 
seemingly endless delays in the sclerotic court system, the attraction 
of providing quicker justice has grown.
---------------------------------------------------------------------------
    Suddenly, though, the issue is front and center. Perhaps, like his 
colleagues, having little material benefit of democracy to show his 
constituents, the governor of recently-created Zamfara State in the 
north-west of the country, announced that he was going to introduce 
Sharia law in his state, and has since done so. This has provoked 
widespread reaction, largely favorable in the almost wholly Islamic 
population of his state, but often negative from elsewhere in the 
country, and everywhere producing controversy.
    It raises issues of constitutionality: Nigeria is constitutionally 
a secular state, or, as some Nigerians prefer to put it, a state 
without an established religion. In fact both the 1979 and the 1999 
constitutions seem unambiguous: ``The Government of the Federation or 
of a State shall not adopt any religion as State Religion.'' \9\ How, 
then, can a unit of the federation have its own rules on officially 
adopting a religion? The recent fanfare suggests an extension of the 
Sharia courts both constitutions allow.\10\ It seems an obvious case 
for the Supreme Court.\11\ From my inevitably American perspective (but 
as one concerned with Nigerians' long-term welfare), I hope that the 
issue does indeed come before the highest court in the land.
---------------------------------------------------------------------------
    \9\ This one sentence section is number 9 in the 1979 constitution 
and 10 in the 1999 one.
    \10\ ``There shall be for any State that requires it a Sharia Court 
of Appeal for that State.'' [1979: section 240 (1); 1999: section 275 
(1)], further specifying ``. . . appellate and supervisory jurisdiction 
in civil proceedings involving questions of Islamic personal law . . 
.'' [1979: Section 242 (1); 1999: Section 277 (1)], with specific areas 
of personal law in the five subsections of the next section.
    \11\ Only one case has come to the Supreme Court for constitutional 
interpretation; it was in 1979, just before the handover to civilians. 
It was highly political and highly controversial, but the precedent was 
important and the judgment at that time respected. If Nigeria is to 
continue with an American-style constitution, it needs to entrench the 
respect for what we may hope will be a rehabilitated judiciary, whose 
judgments on constitutional matters will be honored.
---------------------------------------------------------------------------
    But it was clear to me in Nigeria a few weeks ago that the issue of 
constitutional legitimacy cannot be ignored, for the sake of the future 
of Nigeria and its democratic stability. Because of the legal questions 
trying to hold a ``Sovereign National Conference'' would raise, just 
sorting them out and creating an acceptable process will take a great 
deal of time and energy. Because the National Assembly, the appropriate 
body to amend the constitution, has other pressing matters it must deal 
with, leaving it, or its committees, to bring forward proposals one by 
one would not resolve matters as expeditiously as seems necessary. How, 
then, can such a crucial constitutional review take place with minimal 
disruption and distraction from acting to improve the day-to-day lives 
of Nigerians?
    I would like to offer a suggestion, in all humility, for a possible 
way forward. Could the National Assembly, through the amendment 
procedure, consider taking as a package removal of all amendments that 
military governments have made to the 1979 constitution as approved by 
the 1978 Constituent Assembly? If such a package passed and the 
required number of state legislatures approved, the result would be a 
document that had unquestionably been crafted by the representatives of 
the ``people of the Federal Republic of Nigeria.'' That document, then, 
could provide both a framework for legitimate governance and the basis 
from which committees of the National Assembly could start a further 
amendment process as set out in Section 9 of both the 1979 and 1999 
constitutions. Whatever amendments--including perhaps some that had 
been made previously in the national interest--the current elected 
representatives of Nigerians chose to adopt would become part of a 
nationally accepted (may one hope even revered?) constitution.
What is Nigeria's federation?
    The second, related issue has to do with how to build a stable and 
equitable federation. It is well known and not surprising that the 
military ran the Federal Republic of Nigeria as a unitary state, 
unconcerned about the contradiction. But a federal system seemed 
appropriate for Nigeria, even to the British. The question would be, 
what are the appropriate units to federate? Independent Nigeria began 
with three (later four) regions, but voices to create more were heard 
in the 1950s, culminating in a British-organized commission, ``On the 
Fears of Minorities and the Means of Allaying Them.'' It reported in 
1958 that the fears in the three regions of the non-Yoruba, non-Igbo, 
non-Hausa living in them were real. But despite consistent testimony 
from ``minority'' witnesses, the commission concluded that creating 
more states wouldn't be the answer. In 1967, in part because of 
mounting demands--but also as a tactical necessity as secession of the 
Eastern Region (as Biafra) loomed--Nigeria became a country of 12 
states. In 1976 the number would be increased to 19; and from the mid-
80s on, first to 21, then 30 and, by 1997, the 36 of today.
    Even in the best of economic times, that number of states would 
have required outsized expenditures on administration alone. In these 
times, as newly-elected state governors were shocked to discover, the 
resources were simply not there for much of anything. The problem is 
that the states' means of support is the allocation of revenue--almost 
entirely oil revenue--from the center, to them and to local government.
    The demand for more states has been driven by wanting a larger 
share of what Nigerians have long called ``the national cake.'' When 
the country's earnings rested on cocoa and groundnuts and palm oil, 
each region had a share in producing them. The size of the three (later 
four) regions, and a revenue allocation formula that assigned 50 
percent to ``derivation,'' gave each of them its own sources of 
revenue. A federal division of responsibilities made sense, even while 
the minorities still protested their neglect.
    Apart from the neglect, the situation is very different now. A few 
years back only the governments of Lagos State and the then-undivided 
Kano and Rivers States were conceivably able to meet their own costs. 
Now it is not even Lagos that can. Two thoughts follow: one, that there 
needs to be (as demanded) a review of and change in the revenue 
allocation formula. But the second is that, if Nigeria is to be a fully 
functioning federation, states also must take on greater 
responsibilities, both to raise revenue and to carry out functions 
constitutionally ascribed to them. This is not possible with 36 states 
that I have heard Nigerians describe as little more than local 
governments. Sooner or later the states will have to consider coming 
together into a few geographically (as opposed to ethnically) defined 
groupings--six is the number usually mentioned--to provide a more 
realistic division of labor with the center.\12\ What the mechanism 
will be to address this issue is, for now, not clear, nor is the will 
to address it yet there.
---------------------------------------------------------------------------
    \12\ That the political parties, especially PDP and APP, have 
formalized ticket balancing and distributing appointments according to 
six zones may be a step towards this. This touches on matters such as 
``federal character'' and the ``rotational presidency'' that are 
fraught with difficulties, only some of which are already apparent.
---------------------------------------------------------------------------
    The biggest problem transcends states and regional groupings. 
Nigerians now appear to believe that only when someone from their ``own 
place'' is in power will they be treated even-handedly. Demands for 
rotation of high offices, and even for dividing the country, rest on 
that assumption. But what Nigeria needs is not that at all: not one 
chance in six (or 36 or 406) to take all (as in ``winner-take-all,'' a 
phrase much heard there). What Nigeria needs is determination by 
whoever is in power from whatever part of the country to deal fairly 
with all Nigerians.
    Right now--not sometime in the future--it is critically important 
that, as a Nigerian businessman put it last month, ``all parts of the 
country feel included: those who were in before and are now out; those 
who were out before and are still out; those who were out before and 
are now in.'' Until this is clearly articulated, accepted as the goal, 
and seen to be the case, tensions and problems described here will 
dominate Nigeria's political future.
The Niger Delta
    Immediate dangers lie in the Niger Delta. With its decades of 
neglect and environmental destruction now the object of international 
attention, its many localities have provided one flashpoint after 
another where oil companies work and, now, the all-important liquefied 
natural gas (LNG) facility is being built--which, apart from generating 
needed additional revenue, will play a major role in ending the 
decades-long destructive and wasteful flaring of the gas associated 
with oil production that has so damaged communities in the area.
    The region of the greatest ethnic, linguistic, and geographical 
complexity in a country where complexity is everywhere, the Delta poses 
arguably the greatest immediate challenge. Because its people regard 
themselves as having provided Nigeria's wealth for decades, with little 
coming back to them despite commissions on top of commissions and 
studies on top of studies, their anger has escalated. Combine this rage 
with the same high unemployment that plagues the country, especially 
among the young, add the demonstration effect of international NGO 
support for some local efforts, and the combustible nature of the mix 
is obvious. Unfortunately, some of the protest has moved beyond 
spontaneous violence to criminal acts, which the government will not 
tolerate.
    For many reasons, the Delta has historically not functioned as an 
effective, unified political unit or even pressure group. This makes 
the problems all the more intractable now--and yet there have to be 
solutions. Time has truly run out, and the sporadic and mounting 
violence imperils the very economic lifeline of the nation. If people 
in the oil-producing communities do not see tangible results on the 
ground, difficult as the terrain is, and see them soon, Nigerians and 
outsiders alike are likely to see even more violent outbursts there. 
When such incidents come, they must be handled with skill and care. But 
at the same time, the government cannot simply allow them to escalate, 
especially where actions become undeniably criminal, as with sabotage 
of pipelines and kidnapping.
    These issues are too often posed as either matters of justice and 
fairness or of security. They are both, and more. It serves neither the 
people of the Delta nor Nigeria as a whole to reduce this highly 
complex crisis to any single issue with a simple solution. No one wants 
to see the use (or misuse) of force result in loss of life or limb--the 
lives of local protesters, and of those trying to mediate disputes, and 
of expatriates or Nigerians employed in the oil industry all need 
protection. Failure to handle this problem, giving everyone a stake in 
its resolution at the earliest possible moment, could deal a severe 
blow to the hopes for Nigeria's democracy, economic growth and even 
(though I fervently hope not) international support. Nigeria will need 
understanding and forbearance on this matter, which, with resentments 
having built up for decades, will unfortunately be with us for a long 
time.
          the united states and nigeria: the past as prologue?
    In 1978, I wrote an article for the Financial Times on US-Nigerian 
relations. The headline, ``The dangers of falling in love,'' resonates 
today. I enjoy today's euphoria as much as anyone, but I cannot help 
fearing an equal and opposite reaction should things be perceived to be 
going wrong.
    The years from 1977 to 1980 were the last time relations between 
the two countries showed the warmth and ease of communication evident 
today. Jimmy Carter was the first American president to go to Africa 
for its own sake (FDR had dropped by Liberia on his way back from 
Casablanca in 1944), and the country he chose to visit was Nigeria 
(again Liberia got a few hours en route). In those days, Nigeria worked 
with the US on issues that concerned them both, especially at the 
United Nations (and as it would continue to do, even in cooler times), 
for in those years Nigeria was on the Security Council.
    Nigeria was of interest to the US then for some of the same reasons 
as now: its large population and potential market; its regional 
leadership--and of course in those days of OPEC dominance, its oil. 
(Nigeria was for almost the whole of the 1970s the United States' 
second largest supplier, at times even in first place.) The program 
that returned Nigeria to democracy was a plus, but hardly the central 
consideration it has now become. For Americans, Nigerians seemed to be 
doing things right. Even if their assertiveness and independence on 
some matters was irritating, the US accepted the important role in 
which Nigerians cast themselves.
    It would all come crashing down in a few years. Nigeria did not 
matter in the Cold War scheme of things; neither by geography nor 
ideology was it a critical spot.
    The oil market changed, and Nigeria mattered less. Then, as its 
economic fortunes declined and then plummeted, Nigerian ingenuity found 
new, and at times unsavory, channels. All of this soured relations 
further. American attention was elsewhere; in any case, when it turned 
to Africa it was to the south: Angola, Namibia, and of course South 
Africa itself.\13\
---------------------------------------------------------------------------
    \13\ Southern Africa had become important to US policy in the 
1970s, and the Carter Administration placed a high value on the role 
Nigeria, as a leading African state, was able to play there.
---------------------------------------------------------------------------
    Meanwhile Nigeria's oft-postponed transition to civilian rule 
became less and less palatable as the world saw democracy ``bustin' out 
all over.'' Babangida's annulment of the 1993 presidential election--
especially once it had been pronounced Nigeria's freest and fairest 
ever by international observers \14\--and its repressive aftermath, 
fueled Western anger in general and American anger in particular. There 
is no need to recount the policy debate of the time from then until the 
death of Sani Abacha in June 1998; suffice it to say that it took place 
in an Ice Age climate.
---------------------------------------------------------------------------
    \14\ In 1979, then departing Head of State Obasanjo commented to me 
that the elections just held would prove to be the freest and fairest 
this century; judging from what I have seen over the years, he was 
right.
---------------------------------------------------------------------------
    I do not expect, and certainly do not want, this history to repeat 
itself. But now, far more than during the years when relations were 
last warm, Nigeria's need for more than words of encouragement and 
support is great. Nigeria's highest priority, as President Obasanjo 
makes clear, is debt relief. He argues for forgiveness, but Nigeria's 
oil resources disqualify it according to the current rules. The 
generous terms for rescheduling the Clinton Administration announced it 
would support last week will surely help in the near term, but could 
not the US work to change the rules so that more would become possible 
in the long term? It does not take a student of history (though the 
years following World War I are instructive) to know that a democracy 
that cannot satisfy the basic needs of its citizens is at risk.
    Some of the Nigerian legislators who recently visited these shores 
took home with them serious concerns about what the United States can 
and will do to help. They fear that the intricacies of policy making 
here, and the difficulties of getting past the many constraints on 
relations, mean that little will be done. They have come to understand 
that measures taken during the Abacha regime in an effort to show 
disapproval and exert pressure are more difficult to remove than they 
were to put in place. But at the same time, they point to the 
continuous US demands that Nigeria democratize, and they say, ``OK, now 
we've done it, and (even if we did it for our own sake) shouldn't you 
make a serious effort to help us, instead of explaining to us that 
whatever we propose is not possible because of this or that regulation 
or legislation?''
                               us policy
    In fact, the high degree of official interest since May 29th, 
supportive of the transition and welcome to Nigerians after their 
painful isolation, has raised their expectations, probably 
unrealistically, about what the United States will do to support 
democracy there. This matches what they expect from their new 
government. Obviously, the possibility of disappointment in both cases 
is considerable.
Constraints
    The most obvious constraint on US policy is financial. When the 
Clinton Administration promises to seek a three-fold increase in aid to 
Nigeria, that will still bring the total to less than $100 million. 
Such a sum, even if it should survive the budgetary process, will not 
go far in a country that has for years been spending $1 million a day 
on peacekeeping in its region. So, in the absence of the ability to 
commit more sizable financial resources from obvious sources (such as 
the aid budget), we must seek creative, imaginative alternative ways to 
find them. The planned US-Nigerian Joint Economic Partnership 
Committee, designed to coordinate the assistance to Nigeria from 18 
federal agencies, may provide a useful forum for ideas about maximizing 
what is available and exploring new possibilities.
Debt relief, aid, investment
    Nigerians, even with their high hopes, already see a double 
standard when it comes to Africa's needs compared to almost anyone 
else's. This is not in Nigeria's case mainly a question of aid, though 
(as President Obasanjo commented) some aid may be necessary to create 
the wherewithal to trade. The president's pleas for debt relief and 
assistance in recovering stolen money are central to his hopes for 
Nigeria's ability to tackle its own problems financially. Nigeria has a 
history of paying its own way that goes back to its civil war and the 
oil boom that followed. It also has a history of generosity with its 
neighbors and others on the continent and in the Caribbean. Hence, the 
plea for relief on the debt burden.\15\
---------------------------------------------------------------------------
    \15\ Panafrican News Agency reported (October 31, 1999) that in his 
speech at Harvard last Saturday, Obasanjo ``pointed out Nigeria has 
done several debt re-schedulings in the past but that the outcome was 
the expansion in the country's debt stock. For instance, he said, 
Nigeria's debt to the Paris Club of official creditors in 1985 stood at 
about five billion dollars. Today, Nigeria's debt to the Club amounts 
to 21 billion dollars, even though the country has not taken any new 
loans within this period.''
---------------------------------------------------------------------------
    It is of course true that Nigeria does not meet HIPC or Paris Club 
conditions for forgiveness. But it should not be impossible, even as we 
acknowledge that so much is at stake, to find a creative solution to 
this problem. With sufficient will, the United States can press for 
conditions to be modified. What good does it do the countries of West 
Africa who do qualify for the forgiveness initiatives if Nigeria's 
indebtedness were to undermine its economic recovery and even its 
democracy? Its neighbors could not escape the consequences. Just as 
Nigeria's success will affect the entire African continent, so its 
failure (too horrible to contemplate) would prove devastating well 
beyond its borders.
    Programs to support strengthening democratic institutions are 
important to be sure. But the most critical way to support democracy is 
to enable Nigerians to see improvement in their standard of living, and 
especially the creation of jobs. That requires resources. If Nigeria 
puts in place the conducive policies its president says it must, the US 
government can support frameworks and guarantees that give confidence 
to a hesitant, if interested, US private sector.
The military and the police
    Apart from the economy, the military and the police need urgent 
attention and assistance. Already, through the Office of Transition 
Initiatives, the State Department is working on civil-military 
relations, with an important educational component on the role of the 
military in a democracy, subordinate to civilian authority.
    It is scarcely possible to overstate how critical the military are 
to the success of Nigeria's democracy. We cannot wait to see how things 
go before decided to help President Obasanjo on that front. As I have 
mentioned, signs of unease are already appearing among junior officers. 
Among them, and senior officers too, expectations of the United States 
are high.
    Essential to meeting those expectations and achieving the goals 
already described for a new Nigerian military, are both the IMET and 
the Expanded IMET programs. I realize that there are concerns about 
IMET for Nigeria. But--based on what I have learned through years of 
meeting Nigerian officers, senior and junior (not least while working 
on regional security issues)--I am convinced that making it possible 
for them to attend courses available through the IMET program can play 
a critical part in achieving the professionalization that comes only 
through education and professional training--which, importantly, 
stresses studying, and internalizing, the role of the military in a 
democratic society. I know from talking to them that many Nigerians who 
have in the past attended such courses are notable for their commitment 
to a professional, not political, army. That some from Nigeria and 
elsewhere may not emerge with this commitment does not disprove the 
value of the training for the many who do.
    I cannot stress too strongly how important it is to engage the 
military, as other segments of Nigerian society. I believe that now is 
not to soon to do so. What better way to show them the benefits of 
their new democracy than to bring some of the military here and give 
them the training to make them first-rate soldiers?
    In addition, the US wants Nigeria to continue to participate in 
peacekeeping in West Africa and elsewhere (as it has done since the 
Congo in 1960). But in Sierra Leone, the ECOMOG troops found themselves 
with no peace to keep; facing brutality, they had to fight. They took 
casualties, as we have seen, and some of those surely resulted from 
lack of training. So this is an additional--if you will, humanitarian--
reason to support IMET programs.
    One final point: Nigerians today will not accept, as they have in 
the past, another military intervention in government. But it is 
essential to do everything possible to make even an attempt unthinkable 
over the longer run. Of great importance is the recent initiative, 
spearheaded by President Obasanjo, to deny recognition and 
international participation to countries in Africa whose elected 
governments are overthrown by the military.
    Soon after Nigerians read about this, however, they learned of the 
recent events in Pakistan. In Nigeria at the time, I was struck by how 
closely they were looking to see the US reaction to the coup there. We 
need to know that, in this world of CNN and the Internet, people in 
Nigeria--and no doubt elsewhere--will draw lessons from what we do as 
well as what we say. Key differences from case to case will all too 
likely be lost.
    Meanwhile, Nigeria has another, immediate need: internal security 
at the country's flashpoints.\16\ For decades, the military and units 
called ``mobile police'' have been called in to deal with such crises. 
In general, their record has ranged from sometimes restrained and 
successful to deplorable, resulting in civilian injury and death. 
Surely the need to train special units to handle such situations is 
obvious; it should be a high priority. I was pleased that an outcome of 
last week's presidential visit was a pledge of support for police as 
well as military training.
---------------------------------------------------------------------------
    \16\ We tend to think that such possible deployments occur only in 
the Niger Delta, but that is not the case. The recent clashes in 
Shagamu, Lagos State between Yoruba and Hausa, triggering subsequent 
ones in Kano required such measures. So also, just last week, did the 
rally in Gusau, the capital of Zamfara State, with the introduction of 
Sharia.
---------------------------------------------------------------------------
    I believe that this effort also needs a new approach: to receive 
support, not only from the administration and the Congress, but as 
importantly and especially in reference to the Niger Delta, from human 
rights and environmental organizations that have played so important a 
part in bringing the issues there to international attention. Clearly, 
respect for human rights must be a key component of whatever training 
the US endorses and assists, and there must be a way to ensure that 
those with expertise in this area can participate in and also endorse 
such essential training. The intricate problems of the Delta cannot 
begin to be solved, to benefit at last those who live there, without 
both security and human rights restored and respected.
Peacekeeping
    This is the area in which Africans see a double-standard most 
starkly displayed. If NATO intervention in Kosovo cost billions of 
dollars, that could be accepted as humanitarian, yes, but also within 
NATO's area of primary concern. But then comes prompt US logistical and 
other support, given, at what has to be some cost, to the intervention 
in East Timor, again on humanitarian grounds. There is testimony galore 
to the horrors inflicted on Sierra Leone's people in its war, horrors 
that arguably outstrip all others of the moment. Yet the problem was 
almost entirely left to ECOMOG (which means Nigeria). And while the US 
calls for war crimes tribunals to address the human rights abuses in 
Kosovo and in East Timor, for Sierra Leone there is no such demand. 
Instead, the US joins in successfully pressuring Sierra Leone's elected 
president to place in government positions perpetrators of the 
atrocities there, on the grounds that only this will bring peace (which 
has not yet fully resulted).
    Now the UN Security Council has, at last, approved an assessed 
peacekeeping mission for Sierra Leone. What effect will the problem of 
US arrears to the UN peacekeeping budget have on the costs to Nigeria? 
Nigerians, all agree, will provide the bulk of the ``up to 6,000''-man 
peacekeeping force, charged with disarming and demobilizing the Sierra 
Leone rebel forces.\17\ But UN reimbursement for peacekeeping missions 
is slow in the best of times, which these are not.
---------------------------------------------------------------------------
    \17\ Indeed, on this basis, Nigeria plans to send 4,000 ``fresh'' 
troops to replace those who have, in some cases, long overstayed what 
should have been their tours of duty with ECOMOG.
---------------------------------------------------------------------------
    Nigeria is not unappreciative of the $100 million of assistance the 
United States eventually provided to the ECOMOG effort--and that only 
through some creative policy making--but the burden (Nigeria's $8 
billion mentioned before, along with casualties) was obviously 
disproportionate. The State Department needs greater resources to 
assist regional peacekeeping efforts in general. That last year there 
was a paltry $4 million available for all of Africa is astonishing, or 
should be.
    Here, with the Sierra Leone peacekeeping mission, is another 
opportunity for creative policy making. One imaginative suggestion 
comes from the government of The Netherlands: a debt-for-peacekeeping 
swap. Following an earlier version, which paid for some Malian and 
other non-Nigerian ECOMOG troops, the idea is still in its formative 
stages. The US should try to influence its eventual shape so that the 
terms do not preclude Nigeria as a beneficiary. Ideally, some of the 
expenditures on peacekeeping made prior to whenever the swap may come 
into effect could be taken into account.
What more can and should the US do?
    --Address as expeditiously as possible the constraints placed on 
assistance as punitive measures against Nigeria from 1993 on. Of course 
there is a separate basis for concern about drug trafficking, but with 
the current cooperation, I hope recertification, or at least a national 
interest waiver, will be possible for Nigeria.
    --Reinstate direct flights between the US and Nigeria. I know at 
first hand the efforts Nigeria has been making to bring Murtala 
Muhammed Airport in Lagos up to the standards the US requires. I also 
know from flying in an out of many other airports, in Africa and 
elsewhere, that it is by no means the worst. It is a matter of profound 
chagrin to Nigerians and friends of Nigeria to see prominently 
displayed at every major airport in this country the warnings against 
traveling there.
    Further, it is as true now as it has been since direct flights were 
prohibited, that the people this ban hurts are not the privileged 
elite. Students and people with sick relatives (and even academics like 
me), for example, sorely miss being able to travel to and from Nigeria 
with less expenditure of time and treasure. Closing down that route was 
also a major contributor to the demise of Nigeria's national airline. 
Other airlines, Nigerian or American, should be extremely interested in 
the route, considering how lucrative it is bound to be for them.\18\
---------------------------------------------------------------------------
    \18\ For British Airways, its London-Lagos route is, in the high 
season, its second most profitable after New York-London; in the low 
season, it is the most profitable.
---------------------------------------------------------------------------
    --Bring the Peace Corps back to Nigeria. Given the disastrous state 
of education there, and with resourceless local governments now having 
responsibility for schools, a group of Peace Corps teachers--
replicating the successes of the work done there in the 1960s--would, I 
think, be welcome. The needs are so great in so many areas, that any 
Peace Corps mission would be helpful.
                            what lies ahead?
    I share Nigerians' hopes for their country and am delighted to be 
again able to talk of Nigeria in a positive atmosphere. In 1977, then-
General Obasanjo, gave a speech calling for Nigeria to become a 
``disciplined, fair, just, and humane African society.'' President 
Obasanjo would now, I'm sure, stress guaranteeing these added 
attributes: democratic, honest, transparent. That is what he and his 
fellow Nigerians, facing more daunting challenges now, so badly want 
and need. We can all see that the direction is the right one, even 
while knowing that reaching the goal will take time.
    But I also remember that 20 years ago the ``dangers of falling in 
love'' won out over sustained constructive relations between the US and 
Nigeria. Too high expectations can lead to disillusionment if they are 
not fulfilled quickly; the positive too readily turns negative. In 
today's Nigeria, blessed though it is with a president committed to 
righting the wrongs and curing the ills of his country, the job is 
still formidable. The problems I have mentioned here are only some of 
those he and the other elected officials have to face. Many things 
could go wrong, and some of them almost certainly will. Nigeria needs 
friends who will not turn away when that happens. I very much hope that 
this time the United States will be one of them, for Americans and 
Nigerians must understand that creating a stable, prospering, democracy 
requires patience at the very least. We must all give it the best 
possible chance to succeed.

    Senator Frist. Thank you, Dr. Herskovits.
    Mr. Akwei.

   STATEMENT OF ADOTEI AKWEI, ADVOCACY DIRECTOR FOR AFRICA, 
                   AMNESTY INTERNATIONAL USA

    Mr. Akwei. Thank you, Mr. Chairman.
    My name is Adotei Akwei and I am the Africa advocacy 
director for Amnesty International USA. On behalf of Amnesty 
International's members, I would like to thank you for holding 
these hearings. The energy and interest shown by you and the 
committee and your staff have been one of the real beacons of 
hope that we have had in a fairly bleak time on Nigeria work.
    Amnesty International and AI USA in particular have been 
heavily involved in working to improve the human rights 
situation in Nigeria and to support the work of Nigerian 
individuals and human rights groups working on the ground 
there. The heroic and often very dear costs these men and women 
paid to regain freedom and justice are the main reason that 
Nigeria has regained a large measure of freedom and human 
rights. Whether it was Alhaja Kudirat Abiola, Chief M.K.O. 
Abiola, or Ken Saro Wiwa and the other members of the Ongoni 
Nine, the fact that we are here to discuss the challenges and 
the opportunities for the future is a tribute to them and their 
courage.
    It is also a tribute to the Nigerian support network here 
in the United States that came together from the environmental, 
labor, youth, African American, human rights, medical 
communities who worked with you in Congress not to compromise 
on human rights and freedom in Nigeria.
    Very briefly, what I would like to do is just talk about 
some of the major developments in the positive in Nigeria and 
then talk about some of the challenges. I would just say that I 
share my professor's viewpoint that this is a critical 
opportunity. Professor Herskovits was my thesis advisor in 
undergraduate school, so this is a double honor, not only 
speaking to you but following her.
    In the 17 months following General Abacha's death, Nigeria 
has undergone a major transformation in terms of the respect 
and protection of human rights. At the same time that the 
political transition process back to civilian rule was under 
way under General Abubakar, a number of human rights reforms 
were undertaken and should be acknowledged. The Provisional 
Ruling Council released most of the country's political 
prisoners and prisoners of conscience by March 1999. Included 
were some of the best known prisoners, including the current 
President, Olusegun Obasanjo, Dr. Beko Ransome Kuti, Bola Ige, 
Ibrahim Dasuki, Frank Kokori, and Milton Dabibi.
    General Abubakar also invited Nig, nullifying the treason 
charges against pro-democracy activists Chief Anthony Enaharo, 
Nobel laureate Wole Soyinka, and democracy activist Frederick 
Fasehun, and others. Furthermore, General Abubakar commuted the 
sentences, death sentences, of General Oladipo Diya and the 
former Lieutenant Colonel Olu Akiode. Many of those exiles have 
returned and have taken part in the transition process.
    The regime was also reportedly in the process of preparing 
to release Chief M.K.O. Abiola, the man regarded to have won 
the 1993 Presidential elections, when he died suddenly while in 
detention.
    The government also repealed numerous of the sweeping 
restrictive legislations and decrees that have crippled the 
country. People have been allowed to associate freely and form 
policy parties, of course, and take part in the election 
process. Trade unions and other special interest groups do 
operate fairly freely. As a result, organizations met in public 
for the first time in years. In addition, the government 
abolished specific decrees like Decree No. 24, which restricted 
the activities of students and academic staff unions, and 
Decrees 9 and 10 that prohibited union elections.
    Also, prior to the handover of power to President Obasanjo 
other sweeping decrees were repealed, including those that 
created special military courts and tribunals.
    Unfortunately, neither the outgoing government nor the 
incoming administration effectively disseminated these 
important legal changes to the Nigerian public. In fact, the 
new constitution was not even available in its entirety until 
well into the Obasanjo administration's tenure. However, there 
is progress in that respect.
    In terms of the respect for fundamental human rights, that 
has also greatly improved. Freedom of speech and the activities 
of the press are now in a more normal fashion. Journalists and 
editors of state media as well as the independent media are not 
subject to harassment or threats for their editorial decisions.
    The Abubakar regime voided most of the restrictive tribal 
regulations, passports that had been previously confiscated by 
the government, the former government, were returned to their 
owners, and former political prisoners were allowed to travel 
freely. Local human rights activists were no longer harassed 
and the current government continues to meet with national and 
international human rights groups and organizations. Most 
importantly, the Obasanjo government has invited the UHCR 
Special Rapporteur for Nigeria to visit the country.
    But probably the most impressive step that has been taken 
has been the creation of a human rights panel, which was 
referred to by Professor Herskovits. The Oputa Panel is 
mandated to look into serious human rights abuses committed by 
all military governments since 1966. The panel is headed by a 
respected retired supreme court justice and it will hold 
hearings in different parts of the country where it will 
receive testimony from victims.
    However, as we have all noted today, there are major 
challenges. Accountability for the past remains a critical one. 
The creation of the Oputa Panel represents a significant step 
in the direction of establishing accountability in Nigeria. 
However, it is only a first step and will need to be backed up 
by the political will to deliver justice. The panel must be 
given the mandate, resources, and political support to fully 
investigate all serious human rights abuses. It will be 
essential that it have the power to subpoena witnesses and to 
make recommendations for prosecution when and where 
appropriate.
    The panel is expected to look into the deaths of Kudirat 
Abiola, M.K.O. Abiola, the Ogoni Nine, and Shehu Musa Yar'Adua, 
and scores of others who were victims of the repressive actions 
of the Abacha regime. However, the panel will also have to look 
into the cases of victims under previous regimes, including 
that of President Obasanjo, which was a previous--who served as 
head of state in the 1970's.
    Given the great desire for justice from the various 
communities in Nigeria, it will be essential that the Oputa 
Panel not be overwhelmed by its workload and become a 
bottleneck for all initiatives to look into past abuses. For 
example, the Movement for the Survival of the Ogoni People 
alone has submitted a brief covering 2,000 cases.
    In that regard, Amnesty International notes the recent 
announcement that several former military officials, including 
the son of the late General Abacha, have been charged with the 
murder of Kudirat Abiola and Shehu Yar'Adua and will face 
trial. We hope and expect that their trials will be free and 
fair, transparent, and will signal the return of the rule of 
law and the growing capacity of the judicial system.
    The rule of law is also a particular priority for Amnesty. 
Successive military juntas have seriously neglected the 
country's judicial system and actively undermined its 
authority. Repressive military decrees created special courts 
or military tribunals that were used to try civilians or oust 
judicial authority to take on cases which military officials 
had a particular interest in.
    Even when the courts were allowed and able to make rulings, 
noncompliance by the security forces was generally the rule, 
fostering a climate of impunity. Further complicating this, the 
judiciary's capacity, is the reputation of corruption, 
violence, and fear of its enforcement mechanism, the police, 
again a point raised by Professor Herskovits.
    It is going to take time to undo this legacy of impunity. 
While efforts will have to focus on the judicial system itself 
and its enforcement mechanism, an equal amount of energy will 
have to be spent reestablishing respect for the judicial system 
itself and the rule of law by the other sectors of Nigerian 
society. The critical investigative work of the Oputa Panel 
must not preclude similar initiatives to support accountability 
within Nigeria.
    We would also call for the same type of professionalism and 
accountability within the Nigerian security forces and we hope 
the Obasanjo administration will make this a priority of their 
regime, of his administration. A recent example showing that 
this might be the case has been the government's announcement 
that there would be a public investigation into the September 
killings in Yenagoa in the Niger Delta.
    The role of civil society is also an incredibly important 
one. The inauguration of President Obasanjo symbolized the end 
of one of the bleakest periods in the country's history in 
terms of human rights violations. General Abacha had been 
ruthless in his adversarial relationship with civil society and 
in particular the country's independent press. Nigerian civil 
society and the independent media not only survived Abacha, but 
went on to play a critical role in the country's struggle to 
regain democratic governance and respect for human rights, in 
the process taking on the role of the opposition.
    The relationship has changed and must be respected by both 
sides. It is no longer an adversarial one, but one of a 
partnership while keeping on the role of watchdog. In that 
light, Amnesty was dismayed to learn about the arrest of Jerry 
Needam, the editor of the MOSOP publication ``The Ogoni Star,'' 
in connection with the release of a police order which 
characterized MOSOP and other human rights groups as ``enemy 
forces.''
    Amnesty International has since learned that he was 
released on bail yesterday and hopes that his trial will be 
free, fair, and transparent. However, the incident underscores 
the distance Nigeria has to go to protect and respect the 
fundamental rights of free speech and the legitimate watchdog 
role of civil society. The characterization of civil society as 
``enemy forces'' is unfortunately an attitude we have 
encountered in several of the newly selected government 
officials and needs to be addressed, starting with the 
President himself setting the example.
    I would just like to close in terms of the challenges by 
looking at the communal violence and ethnic situation. 
Following President Obasanjo's inauguration, clashes between 
several ethnic groups erupted in several locations in the 
country, resulting in the deaths of scores of individuals. The 
Obasanjo government faces a difficult economic situation, 
increased expectations of government, and the opening up of 
political competition for resources and influence. Even as the 
government must act to protect the lives of its citizens, the 
government has also played the role of reinforcing political 
space and participation, as well as respect for fundamental 
human rights of all Nigeria's citizens.
    Nowhere is this outbreak of violence more alarming than in 
the oil-producing areas of the Niger Delta. Tensions, clashes 
between minority ethnic groups who are now competing for 
control of resources and political leverage have been further 
complicated by the presence and activities of multinational 
corporations and the security forces linked to them.
    The residents of the Niger Delta have suffered greatly for 
demanding freedom from pollution and a more equitable voice in 
the allocation of revenues generated from their lands. In 
November 1995 Ken Saro Wiwa, the leader of MOSOP, and eight 
other Ogoni leaders were arrested and accused of murder by the 
Nigerian military. They were tried, found guilty, and executed.
    Despite the military's allegations, the world knew that the 
Ogoni Nine, as they came to be known, were killed for 
organizing peaceful protests against the country's largest oil 
exporter, Royal Dutch Shell. Shell failed to use its 
substantial influence with the Nigerian Government to stop the 
executions.
    Since the executions, Shell has publicly admitted that it 
had invited the Nigerian army to Ogoniland, provided them with 
ammunition and logistical and financial support for military 
operations that left scores dead and destroyed many villages. 
More than 2,000 Ogoni men and women and children have died in 
the struggle against Shell's pollution. Today Ogoniland remains 
polluted, well waters in many areas are unsafe to drink, crops 
do not grow where they used to, there is no electricity, 
running water, and few paved roads.
    Unfortunately, Shell is not the only oil company implicated 
in environmental and human rights abuses in this area. The 
drilling in the region by a U.S.-based company, Chevron, is 
also fueling inter-ethnic unrest in the Niger Delta. On May 25, 
1998, about 120 unarmed youths from the Ijaw community occupied 
Chevron's Parabe production platform. The youths were demanding 
that Chevron make financial compensation for polluting the 
water and reinvest in community developments.
    In actions eerily reminiscent of those taken by Shell in 
Ogoniland, Chevron requested the assistance of the Nigerian 
security forces to stop the protests. On the 28th, Chevron's 
head of security accompanied Nigerian naval and political 
officers to the platform in helicopters hired by the company 
and in the crackdown that ensued two protesters were killed and 
the security forces detained eleven youths.
    The human rights situation in the Niger Delta is 
complicated by increased incidents of hostage-taking and 
attacks on oil facilities. However, a focus on the incidents of 
violence in the area and establishing the rule of law in the 
region cannot be limited only to the minority communities. It 
must also take on the activities of multinational corporations. 
Oil companies in the Niger Delta have the right to protect 
their facilities, but they also have an obligation not to 
violate the rights of the Nigerian people or to facilitate the 
violation of those rights by any others.
    Our recommendations are very simple. Nigeria stands at a 
critical crossroads in its political and human rights 
development. While it is clear that the country has moved back 
from the precipice of widespread violence and political chaos 
that seemed inevitable as a result of the policies of General 
Abacha, it is not clear how secure the country's new democracy 
is or how well fundamental human rights will be protected in 
the long term.
    Each of Nigeria's previous military regimes made human 
rights gestures at the beginning of their terms, only to strip 
away those rights or re-detain prominent dissidents within 
months. The record of the country's short-lived civilian 
administrations is not much more reassuring.
    President Obasanjo should be commended for the steps he has 
taken, but should be made to realize that at every opportunity 
how much he and the Nigerians have further to go. It is 
essential that Nigeria's capacity to protect fundamental human 
rights be rebuilt and strengthened. The United States and the 
international community should focus and channel their 
assistance and engagement for the country around building that 
capacity, both with the Obasanjo administration, but, more 
importantly, with other sectors of the country. Accountability 
and the protection of human rights in Nigeria are too important 
and too large a task to be left just to President Obasanjo, the 
new legislature, or even to civil society.
    Equally important will be the activities of multinational 
corporations. As they confront increasing anger and frustration 
over environmental issues and have to navigate communal 
tensions, corporations would serve themselves and the people of 
Nigeria best by meeting the same standards of transparency, 
respect for environmental and human rights that they have to 
meet here in the West.
    I will stop there. We have some specific recommendations at 
the end of our testimony.
    [The prepared statement of Mr. Akwei follows:]

                   Prepared Statement of Adotei Akwei

                              introduction
    Mr. Chairman, my name is Adotei Akwei and I am the Africa Advocacy 
Director for Amnesty International USA. Mr. Chairman on behalf of 
Amnesty International USA I would like to thank you for holding these 
hearings and for allowing AIUSA to testify before this committee. The 
energy, interest and commitment that you, your colleagues and your 
staff have shown toward Africa has been one of the few reassuring 
beacons of hope that the continent and, the people who work on Africa 
here, in the United States, look to for inspiration. I would like to 
take this opportunity to personally thank Senator Feingold and his 
staff for the leadership and hard work and support over the years on 
Nigeria.
    Amnesty International is a worldwide human rights movement that 
works for the release of prisoners of conscience, fair trials for 
political prisoners and ending torture, ``disappearances'', political 
killings and executions wherever they occur. Amnesty International has 
one million members and supporters in over 100 countries around the 
world with about 300,000 here in the United States. The organization is 
financed by its members and supporters and accepts no money from 
governments.
    Amnesty International and AIUSA in particular have been heavily 
involved in working to improve the human rights situation on Nigeria 
and to support the work of Nigerian individuals and human rights 
working on the ground there. The heroic and often very dear costs these 
men and women paid to regain freedom and justice are the main reason 
that Nigeria has regained a large measure of freedom and human rights. 
Whether it was Alhaja Kudirat Abiola, Chief M.K.O. Abiola, Ken Saro 
Wiwa and the other members of the Ogoni Nine, the fact that we are here 
to discuss the challenges and opportunities for the future is a tribute 
to them and their courage. It is also a tribute the Nigeria support 
networks here in the United States that came together from the 
environmental, labor, youth, African American, human rights, medical 
and communities and who worked with you in Congress to hold the line 
and not compromise on human rights and freedom in Nigeria.
    Mr. Chairman, my testimony today will focus on four areas:

  <bullet> A brief chronology of the political transition process.
  <bullet> A review of the human rights changes that Nigeria has 
        undergone in the last year.
  <bullet> Human rights issues that remain.
  <bullet> Recommendations for action by the United States government.
  <bullet> Recommendations to the Nigerian Government.
  <bullet> Recommendation for multi-national corporations operating in 
        Nigeria.

                 nigeria's transition to civilian rule
    Nigeria's former head of state, General Sani Abacha died suddenly 
in June of 1998. Abacha, who had seized power in September 1993, was 
allegedly conducting a transition process back to civilian rule that 
had been widely condemned and rejected, both within Nigeria and outside 
of the country. Abacha was succeeded by General Abdulsalami Abubakar, 
who instituted a genuine transition process culminating in presidential 
elections May 1999 won, by former head of State Gen. (retired) Olusegun 
Obasanjo.
    Review of Human Rights Development in Nigeria during the last 17 
months In the 17 months following Gen. Abacha death, Nigeria has 
undergone a major transformation in terms of the respect and protection 
of human rights. At the same time that the political transition process 
back to civilian rule was underway under Gen. Abubakar a number of 
human rights reforms were undertaken.
            the release of political prisoners and detainees
    The Provisional Ruling Council released most of the countries 
political prisoners and prisoners of conscience by March 1999. Nine of 
the country's best known prisoners including Olusegun Obasanjo, Beko 
Ransome-Kuti, Bola Ige, Ibrahim Dasuki, Frank Kokori and Milton Dabibi 
were released on June 16. In addition, the Ogoni 21, who had been 
incarcerated since 1994, were released in September.
    Gen. Abubakar also invited Nigerian exiles that had fled the 
country during Abacha's rule, to return to Nigeria, nullifying the 
treason charges against prominent pro-democracy activists like Chief 
Anthony Enaharo, Nobel laureate Wole Soyinka and democracy advocate Dr. 
Fred Fasehun. Furthermore, General Abubakar commuted the death 
sentences of General Oladipo Diya and former Lieutenant Colonel Olu 
Akiode. Many of those exiles did return.
    The Abubakar was reportedly in the process of preparing to release 
Chief
M. K. O. Abiola, the man regarded to have won the 1993 presidential 
elections, when he died suddenly while still in detention.
                  the repeal of repressive legislation
    In July, the government repealed Decree No. 24, which placed 
restrictions on student and academic staff unions. People were allowed 
to associate freely with other political parties, trade unions or 
special interest groups. As a result, organizations met in public for 
the first time in years. In addition, the government abolished Decrees 
9 and 10 that prohibited union elections.
    Prior to the hand over of power to President Obasanjo several other 
repressive decrees were reportedly repealed, in particular those 
creating special military courts and tribunals. Neither the outgoing 
military government nor the incoming civilian administration 
effectively disseminated these legal changes to the Nigerian public. In 
fact the new constitution was not even available in its entirety until 
well in to the Obasanjo administration's tenure.
                     respect for fundamental rights
    The government's respect for fundamental human rights has improved. 
Respect for freedom of speech and press is the norm and journalist and 
editors of the state media are not subjected to harassment or threats 
for their editorial decisions.
    The Abubakar regime voided most of the restrictive travel 
regulations. Passports that had been previously confiscated by the 
former government were returned to their owners. Former political 
prisoners were allowed to travel freely and passports were provided to 
political figures and journalist without question.
    Local human rights activists are no longer harassed and the current 
government continues to meet with national and international human 
rights groups and organizations. The Obasanjo government has also 
invited the UNHCR Special Rapporteur for Nigeria to visit the country.
          the creation of mechanisms to enforce accountability
    In another important and positive development, President Obasanjo 
has created a human rights commission, the Human Rights Investigation 
Panel, that is mandated to look into serious human rights abuses 
committed by all military governments since 1966. The panel is headed 
by retired Supreme Court Justice Chukwufidu Oputa and will hold public 
hearings in different parts of the country where it will here testimony 
from victims.
    human rights challenges and issues--accountability for the past
    The creation of the Oputa panel represents a significant step in 
the direction of establishing accountability in Nigeria. However, it is 
only a first step and will need to be backed up by the political will 
and deliver justice. The Oputa Panel must be given the mandate, 
resources and political support to fully investigate all serious human 
rights abuses. It will be essential that it also have the power to 
subpoena witnesses and make recommendations for prosecutions when and 
where appropriate.
    The Panel is expected to look into the deaths of Kudirat Abiola, M. 
K. O. Abiola, the Ogoni Nine, Shehu Musa Yar'Adua and scores of others 
who were the victims of the repressive actions of the Abacha regime. 
However, the panel will also have to look in to the cases of human 
rights victims under previous regimes including under General 
Obasanjo's previous tenure as head of state. Given the great desire for 
justice from various communities in Nigeria it will be essential that 
Oputa Panel not be overwhelmed by its workload and become a bottleneck 
for all initiatives looking in to past abuses. For example the Movement 
for the Survival of the Ogoni People (MOSOP) alone has submitted a 
brief covering over 2,000 cases. In that regard, Amnesty International 
notes the recent announcement that several former military officials 
and a son of the late General Abacha have been charged with the murder 
of Kudirat Abiola and Shehu Musa Yar' Adua and will face trial. AI 
hopes and expects that their trials will be free, fair and transparent 
and will signal the continued return of the rule of law and the growing 
capacity of the judicial system.
                            the rule of law
    Successive military juntas have seriously neglected the country's 
judicial system and actively undermined its authority. Repressive 
military decrees created special courts or military tribunals that were 
used to try civilians or ousted judicial authority to take on cases 
which military officials had a particular interest in. Even when the 
courts were allowed and able to make rulings, non-compliance the 
security forces was generally the rule, fostering a climate of 
impunity. Further complicating the judiciary's capacity to administer 
justice is the reputation of corruption, violence and the fear of its 
enforcement mechanism, the police.
    It will take time to undo this legacy of impunity. While efforts 
will have to focus on the judicial system itself and its enforcement 
mechanisms, an equal amount of energy will have to be spent re-
establishing respect for the judicial system and the rule of law in 
other sectors of Nigerian society. The critical investigative work of 
the Oputa Panel must not preclude similar initiatives to enforce 
accountability within Nigeria.
  rebuilding accountability and professionalism in the security forces
    The record of the Nigerian security forces regarding fundamental 
human rights under previous regimes has been poor to abysmal. The 
Obasanjo administration must establish transparency and accountability 
within the armed forces and must insist upon respect for the public and 
the rule of law. One example in the right direction is the recent 
announcement by the Nigerian government that there would be a public 
investigation into the September killings in Yenagoa in the Niger delta 
region.
    The performance of security forces both before and since the 
inauguration of President Obasanjo should be investigated in a 
transparent manner by independent and impartial inquiry. Whether it is 
the Oputa Panel or some other mechanism, all allegations of human 
rights abuses and excessive use of violence by the armed services must 
be reviewed and those responsible for violations brought to justice.
                       the role of civil society
    The inauguration of President Obasanjo symbolized the end of one of 
the bleakest period in the country's history in terms of human rights 
violations. Gen. Abacha had been ruthless in his adversarial 
relationship with civil society and in particular the country's 
independent press. Nigerian civil society media not only survived 
Abacha but went on to play a critical role in the country's struggle to 
regain a democratic government and respect for human rights, in the 
process taking on the role of the opposition Amnesty International was 
dismayed to learn about the arrest of Jerry Needam, the editor of MOSOP 
publication The Ogoni Star. Mr. Needam who has been in detention 
without charge or trial since Oct. 11 was reportedly arrested in 
connection with the publication of a police order which characterized 
MOSOP and other human rights groups as ``enemy forces.'' Amnesty 
International has since learned that he was released on bail today and 
hopes that his trial will be free, fair and transparent. However the 
incident underscores the distance Nigeria has to go to protect and 
respect the fundamental rights of free speech, and of the legitimate 
watchdog role of civil society. The characterization of civil society 
as enemy forces unfortunately is an attitude AI has encountered in 
several newly elected government officials and needs to be addressed 
starting with President Obasanjo himself and those who wish Nigeria's 
democracy to thrive.
                      communal and ethnic violence
    Following President Obasanjo's inauguration, clashes between 
several ethnic groups erupted in several locations in the country 
resulting in the deaths of scores of individuals. The Obasanjo 
government faces a difficult economic situation, increased expectations 
of government and the opening of political competition for resources 
and influence. Even as the government must act to protect the lives of 
its citizens, the government must also play the role of reinforcing 
political space and participation and a respect for the fundamental 
human rights of all of Nigeria's citizens.
    Nowhere is the outbreak of violence more alarming then in the oil 
producing areas of the Niger delta. Tensions and clashes between 
minority ethnic groups who are now competing for control of resources 
and political leverage have been further complicated by the presence 
and activities of multi-national oil corporations and the security 
forces linked to them.
                        corporate accountability
    The residents of Nigeria's delta have, suffered greatly for 
demanding freedom from pollution and a more equitable voice in the 
allocations of revenues generated from their lands. In November of 
1995, Ken Saro-Wiwa, the leader of the Movement for the Survival of 
Ogoni People and eight other Ogoni leaders were arrested and accused of 
murder by the Nigerian military. They were tried, found guilty, and 
executed. Despite the military's allegations, the world knew that the 
Ogoni 9, as they came to be known, were killed for organizing peaceful 
protests against the country's largest oil exporter, Royal Dutch Shell. 
Shell failed to use its substantial influence with the Nigerian 
government to stop the execution. Since the executions, Shell has 
publicly admitted that it had invited the Nigerian army to Ogoni land, 
provided them with ammunition and logistical and financial support for 
military operation that left scores dead and destroyed many villages. 
More than 2,000 Ogoni men, women and children died in the struggle 
against Shell's pollution. Today, Ogoni land remains polluted. Well 
water in many areas is unsafe to drink, crops do not grow where they 
used to. There is still no electricity, running water or paved roads. 
The few existing schools and hospitals do not have even basic equipment 
or resources.
    Unfortunately, Shell is not the only Oil Company implicated in 
environmental and human rights abuses in the area. The drilling in the 
region by U.S.-based Company Chevron is also fueling inter-ethnic civil 
unrest in the Niger Delta area. On May 25, 1998, about 120 unarmed 
youths from the Ijaw community occupied the Chevron Parabe production 
platform, effectively taking about 200 employees of Globestar 
McDermott/EPTM (a subcontractor of Chevron) hostage. The youths were 
demanding that Chevron make financial compensations for polluting the 
water and re-invest in community development. In actions eerily 
reminiscent of those taken by Shell in Ogoniland, Chevron requested the 
assistance of Nigerian security forces to stop the protest. On May 28, 
Chevron's head of security accompanied Nigerian Naval and police 
officers to the platform in helicopters hired by the company. In a 
crackdown that ensued, two protesters were killed and security forces 
detained eleven youths.
    The human rights situation in the Niger delta area is complicated 
by increased incidents of hostage taking and attacks on oil facilities. 
However, a focus on the incidence of violence in the area and 
establishing the rule of law in the region cannot be limited only to 
the minority communities. It must also take on the activities of 
multinational corporations. Oil companies in the Niger delta have the 
right to protect their facilities but they also have an obligation not 
to violate the rights of the Nigerian people or to facilitate the 
violation of those rights by any others.
                            recommendations
    Nigeria stands at a critical crossroads in its political and human 
rights development. While it is clear that the country has moved back 
from the precipice of widespread violence and political chaos that 
seemed inevitable as a result of the policies of the late General 
Abacha, it is not clear how secure the country's new democracy is or 
how well fundamental human rights will be protected. Each of Nigeria's 
previous military regimes made human rights gestures at the beginning 
of their terms only to strip away those rights or re-detain prominent 
political dissidents within months. The record of the country's short-
lived civilian administrations is not much more reassuring. President 
Obasanjo should be commended for the steps he has taken but should be 
made to realize at every opportunity how much further he and the 
Nigerian government must go.
    It is essential that Nigeria's capacity to protect fundamental 
human rights be rebuilt and strengthened. The United States and the 
international community focus should channel their assistance and 
engagement with the country around building that capacity both with the 
Obasanjo administration but more importantly with the other sectors of 
the country. Accountability and the protection of human rights in 
Nigeria are too important and too large a task to be left to just 
President Obasanjo, the new legislature or only to civil society.
    Equally important will be the activities of multi-national 
corporations. As they confront increasing anger and frustration over 
environmental issues and have to navigate communal tensions, 
corporations would serve themselves and the people of Nigeria best by 
meeting the same standards of transparency, respect for environmental 
and human rights that they have to meet here in the West.
                      for the nigerian government
  <bullet> AIUSA welcomes the creation of the Commission to Investigate 
        Human Rights Violations Investigations Panel, also known as the 
        Oputa Panel. AIUSA urges the Obasanjo government to ensure that 
        Oputa Panel is independent politically and financially and the 
        government upholds its commitment to act on the recommendations 
        of the panel.
  <bullet> AIUSA urges the Nigerian government to conduct public and 
        impartial investigations in to human rights incidents linked to 
        the activities of multi-national corporations operating in the 
        Niger delta.
  <bullet> AIUSA calls on the Nigerian government to review and 
        publicize the terms of engagement between the Nigerian security 
        forces and multi-national oil companies operating in Nigeria. 
        The dissemination of such agreements will help clarify under 
        what terms such requests are made and help designate 
        responsibility for ensuring that the intervention does not 
        result in human rights violations.
                      for united states government
  <bullet> AIUSA urges the United States Government to support the work 
        of the Commission to Investigate Human Rights Violations 
        Investigations Panel, also known as the Oputa Panel. The Oputa 
        Panel should be independent politically and financially, 
        transparent and should receive the political and diplomatic 
        support to pursue its mandate. Further the Obasanjo government 
        should be encouraged to uphold its commitment to act on the 
        recommendations of the panel.
  <bullet> All U.S. training of Nigerian security forces should be 
        focused on improving transparency respect for the rule of law 
        and respect for fundamental human rights. Potential recipients 
        of such training should be thoroughly and publicly vetted to 
        screen out person who might have been involved in the 
        commission of human rights violations. AIUSA would also 
        strongly encourage the consultation of Nigerian human rights 
        groups in such programs.
  <bullet> AIUSA welcomes the statements made by senior officials in 
        the Administration regarding the importance regarding democracy 
        and respect for the rule of law and for human rights. AIUSA is 
        also aware of the important role that U.S. companies can play 
        in supporting and reinforcing those principles. We therefore 
        recommend that a discussion between members of both 
        governments, Nigerian and international human rights groups and 
        U.S.-based multi-national corporations be convened to review 
        past incidents and to seek ways to avoid further human rights 
        abuses, as occurred at the Chevron and more recently at the 
        facilities of Wilbros International linked, to the operation of 
        multi-national corporations in Nigeria.
    for u.s. based multi-national corporations operating in nigeria
  <bullet> Multi-national oil companies operating in Nigeria request 
        the assistance of Nigerian security forces to protect their 
        operations and facilities should clarify under what terms such 
        requests are made and must accept responsibility to work as 
        diligently as possible to ensure that the intervention does not 
        result in human rights violations.
  <bullet> Multi-national corporations should also ensure that their 
        private security personnel receive training to guarantee the 
        respect and protection of the human rights of the communities 
        that they interact with. Candidates for employment and for such 
        training should be vetted to ensure that they have not 
        committed any human rights abuses. If their personnel should 
        commit any abuses they should support local efforts to 
        prosecute them.
  <bullet> Corporations in Nigeria should encourage and support 
        governmental efforts to deliver human rights training to the 
        Nigerian security forces. Such training should include 
        consultation with Nigerian human rights groups and with leaders 
        of local communities who potentially interact with the security 
        forces in question.

    Senator Frist. Thank you, Mr. Akwei.
    A question to both has to do with the military. The 
military has ruled Nigeria for I guess 28 of its 39 years since 
independence, and I think it is important for us to take the 
long view as well as the short view, to be excited, to be 
optimistic, but nevertheless look both historically and project 
forward with that, that 39-year perspective.
    Why has the military been so prominent over this period of 
time? And what are the prospects for another intervention by 
the military? I guess Dr. Herskovits.
    Dr. Herskovits. Well, I think it is a complicated question 
and it will not have an easy answer. I think one of the 
problems that you see in countries other than Nigeria as well 
as in Nigeria itself is that once the military intervenes and 
has a period in government, it creates that possibility for 
succeeding groups of officers to entertain that option.
    There has been an impatience in Nigeria with successive 
governments. Nigerians I always thought were an impatient 
people, but their long waits at the fuel lines have been making 
me rethink, and I hope that their patience will last with their 
democracy this time. But certainly in the second republic, from 
1979 to 1983, there was a really marked impatience with all 
manner of what was going on under the civilian government of 
that day.
    That made it possible for a group of military officers--
unfortunately aided in financial ways, but also given moral 
support and other support, by civilians--to seize power. This 
has been a pattern that has repeated itself. Each military coup 
has had some civilian collaborators, unfortunately, and because 
Nigeria's problems cannot be easily solved they can be easily 
exploited.
    So I think that what is different now and what gives me 
hope is that, because Nigerians have seen so many military 
regimes come and say, ``We can solve the problems where the 
civilians could not,'' and they know that is not true--they 
have seen it too many times to believe it--that the Nigerian 
people will refuse should anybody get the idea of trying to 
make another attempt. And there are many ways of refusing to do 
that, both at the leadership level and at the popular level.
    But beyond that, it is because I think it is vitally 
important to do everything possible to head off such another 
attempt that I stressed what I believe is the contribution the 
United States can make in military training. I have had 
discussions about this very subject with a considerable number 
of Nigerian military officers, senior and not so senior, and 
the ones who have had the opportunity to come here say it has 
made a difference to them.
    The most concrete example I can give is General Abubakar, 
whom Adotei Akwei commended for some of the steps he took. We 
know that he also did hand over to civilians, as promised.
    There are no guarantees here. There are obviously people 
who have experienced military training here who are not great 
supporters of democracy in their countries. But I do think that 
in Nigeria, and especially because of the style of constitution 
that they have adopted, which is like ours, we have a 
particularly important contribution to make in trying to make 
sure that a military takeover does not happen again.
    Senator Frist. Any comments, Mr. Akwei?
    Mr. Akwei. It is hard to follow your professor. I think I 
would agree with Professor Herskovits about the fact that it is 
not just Nigeria that has this issue with the military and the 
military's apparent national nature in terms of its ability to 
include different groups and also to present a neat cohesive 
unit for external interests.
    I would say that one of the reasons that Africa in general 
has a problem with military governments is that they are viewed 
as effective security guarantors. Democracy is untidy and it 
appears even untidier in Africa. I would argue that it is 
easier to do military-to-military training because you know who 
the partners are and you know what they are supposed to do, and 
even when they break the rules there is the sense that they 
will at least maintain security over the country.
    That is where we would have some concern about military-to-
military training as business as usual. The Nigerian military's 
problem has been with the Nigerian civilians, not with the U.S. 
military, and if there is going to be effective training for 
respect for the rule of law and human rights in Nigeria the 
Nigerian civilians have to be involved in that training and in 
the nature of the training and assessing how it is done and who 
participates.
    Senator Frist. Thank you.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Dr. Herskovits, I was not here for your initial remarks. My 
staff tells me you invited further comment on the question of 
the constitution for Nigeria. Let me just say that I have 
respect for what Secretary Pickering said with regard to the 
reality that it should be up primarily to Nigeria and the 
Nigerians to determine what kind of a constitutional structure 
they have.
    On the other hand, the only other subcommittee on which I 
am ranking member is the Constitutional Subcommittee of the 
Judiciary Committee here in the U.S. Senate. And there is not a 
day when I do not feel how important it is for our country that 
we have a legitimate underpinning in the form of a constitution 
for our system of government. So it does concern me that any 
nation as enormous and diverse as Nigeria would not have that 
kind of a legitimate structure underpinning its new democracy.
    I am wondering if you have further comments on that?
    Dr. Herskovits. Certainly. I was privileged to be in 
Nigeria much of the time when in the late 1970's they were 
crafting the constitution on which the current one is based. It 
was also put in place, of course, by a military government, at 
that time General Obasanjo's. But the decisionmaking process, a 
drafting committee and a constituent assembly, was carried out 
by elected representatives, and at that time the document they 
produced carried clear legitimacy in the view of Nigerians.
    I think that, because much of that document constitutes the 
present constitution, it is not totally illegitimate even 
though it has been put in place by another military government. 
Part of the problem is that successive military governments 
have tampered with that original draft or, as they say, amended 
it. ``Legitimacy'' depends on your point of view and it depends 
on which particular provision you consider.
    In my written statement I actually made a proposal that I 
hope I may be able to make to the Nigerians and they might 
entertain, which is this: that they take the draft that came 
out in 1978 from the elected representatives of Nigeria, strip 
away the additions that have been put in place by military 
governments, perhaps as a package if their legislative process, 
which is modeled on ours, make it possible, and then proceed to 
amendments within that framework, using the constitutionally-
mandated amendment process.
    So I think it is not as bleak as it looks at first glance, 
but there certainly are a number of topics of a constitutional 
nature that need addressing and the legitimacy of the 
constitution is obviously primary.
    Let me just say that I did not mention, although I think of 
it more than occasionally, the importance of the judiciary in 
Nigeria, to underscore Mr. Akwei's point, and how it tends to 
get neglected when we talk about assistance. I have seen 
recently and over the years judges in Nigerian courtrooms who 
are taking notes on the trial with, metaphorically, a quill 
pen. The pen is a little more modern than that, but the point 
is that they are recording the proceedings by hand.
    They would be overjoyed to have the kind of technology that 
there is right here in this room. There is much that can be 
done, both technically and also through discussing how our 
judicial system functions, in view of the fact that they have a 
constitution that resembles ours, but a legal system that is 
largely British in its structure.
    So I think this is another area in which, if we could find 
some resources, we might be able to make a contribution.
    Senator Feingold. That is a very helpful answer. Let me ask 
you one other question. Just moments before I had a chance with 
the chairman to meet with President Obasanjo, I learned that a 
state in northern Nigeria had introduced Islamic law. How can 
the new government address the challenges of regional and 
religious differences that have such a destabilizing potential 
in Nigeria?
    Dr. Herskovits. I also do address that issue and that 
particular incident in my written statement. But let me just 
say two things here. First of all, it is highly inflammatory 
and very unfortunate that this has happened just now. I fear 
that what this is is a person who finds himself in charge of a 
state with few resources and he is finding a way to deliver 
something to an overwhelmingly Muslim population in his state.
    Reporting on this is misleading in a number of ways, but 
the most important is that this very constitution we have just 
been talking about does provide for sharia to be available to 
Muslims in matters of personal law, and that is what Nigerians 
think of when they think of sharia. They do not call up the 
images that we are accustomed to associating with it of 
criminal penalties.
    Those provisions are there in the constitution. The 
Governor is not instituting anything that does not already 
exist. But at the same time there is the very clear statement 
in the constitution of 1979 and the current constitution that 
says that no state, no government--central or state--can 
establish a religion.
    It seems to me this is a case for constitutional 
interpretation by Nigeria's supreme court, and I very much hope 
that that is the way that the issue is going to be settled.
    Senator Feingold. Thank you, doctor.
    Mr. Akwei, I just want to clarify what you were saying 
about IMET. Do you think it is wise for us at this point to use 
IMET with regard to Nigeria?
    Mr. Akwei. I think that we would certainly support any kind 
of initiative that would improve the Nigerian military or 
security forces' capacity to protect and respect human rights. 
However, there are severe shortcomings, I think, in the IMET 
and other U.S. training programs. For one, there is no serious 
attempt at vetting out people who have committed human rights 
violations. That needs to be done.
    There has also got to be a much more serious effort to 
follow and evaluate what their graduates do. In some cases, 
people that have come for U.S. training have ended up being 
heads of state, as in Panama, and their record has been fairly 
abysmal.
    So we would not per se say no to U.S. military training, 
but we would make a very strong pitch that it be oriented 
around respect for the rule of law and human rights and that it 
be made as transparent with the Nigerian public. They are going 
to be the people who guarantee that your graduates of IMET 
actually live up to the training.
    Senator Feingold. It sounds like the way it is likely to be 
set up now, though, you would not be very happy with the idea.
    Mr. Akwei. That is right.
    Senator Feingold. One other question for you. You spoke at 
some length about the Niger Delta and the factionalized nature 
of local politics there and that it must be hard to determine 
where political legitimacy and leadership can be found in the 
region. How can this new government and administration engage 
the citizens in the delta effectively?
    Mr. Akwei. President Obasanjo has I think gone further than 
any of his predecessors in going to the region to sit down and 
listen to the grievances of the communities there. He has also 
set up a number of different panels. I understand from some of 
his advisors that there is a panel of traditional chiefs, there 
is a panel, a commission that he meets with with youth leaders, 
and there is also a panel which involves the Governors of the 
Niger Delta area.
    Those are the right steps. Those are the beginnings of the 
right steps. I think the problem is whether the message has the 
time to percolate to the rest of the communities involved and 
in particular the youth involved, what are the ones who are 
involved in the violence. I am not saying they are instigating 
it, but they are involved in it.
    He is going to have to do as good a job as a car salesman 
as he can in terms of saying that, I am not here to give you 
the same old bill of goods in different packaging, and that 
this is not just a jobs issue and this is not just a security 
issue in the Niger Delta, but it is one where I am going to 
genuinely listen to your grievances about jobs, about 
environment, and about involvement in politics.
    I do not know whether that last component has yet become 
part of the message of the President.
    Senator Feingold. Mr. Chairman, I thank you. I think these 
two witnesses were extremely informative and I am grateful for 
your help in understanding the situation in Nigeria.
    Senator Frist. Thank you, Dr. Herskovits and Mr. Akwei. 
Thank you very much. I agree, it has been a very, very useful 
panel. I have learned a great deal from it. I remain very 
optimistic about the future. It has to be guarded optimism, but 
I really appreciate both of your taking time to share your 
insights with us and I look forward to being back in touch with 
you as we go forward.
    With that, we will keep the record open until close of 
business tomorrow.
    With that, we will stand adjourned. Thank you.
    [Whereupon, at 4:34 p.m., the committee was adjourned.]
                            A P P E N D I X

                              ----------                              


                           STAFFDEL ROTBLATT

   Report of Travel to Nigeria and Senegal, December 2-13, 1998 and 
                       February 24-March 2, 1999

   (Prepared by Linda S. Rotblatt, Legislative Assistant to Senator 
                          Russell D. Feingold)

                                             April 1, 1999.
The Honorable Jesse Helms, Chairman
The Honorable Joseph Biden,
Ranking Minority Member
Committee on Foreign Relations,
U.S. Senate, Washington, DC.

    Dear Senator Helms and Senator Biden:

    On behalf of the Committee on Foreign Relations and Senator Russ 
Feingold, I traveled to Nigeria and Senegal from December 2-13, 1998, 
and again to Nigeria from February 24-March 2, 1999. In Nigeria, the 
primary focus of both trips was to assess the general political 
environment during the ongoing transition to democratic rule in that 
country, including the observation of the December 5 elections for 
local councilors and of the February 27 elections for president. In 
Senegal, I attended the final day of the Second Conference of the 
Parties to the United Nations Convention to Combat Desertification in 
Those Countries Experiencing Serious Drought and/or Desertification, 
Particularly in Africa, a treaty currently pending before the Senate 
Committee on Foreign Relations.
    In Nigeria, I associated myself with official assessment missions 
organized jointly by the National Democratic Institute for 
International Affairs (NDI) and The Carter Center, in addition to 
arranging an independent program. As part of NDI/Carter's December 
delegation, I spent four days in Kano, a primarily Hausa-speaking city 
in the north of Nigeria. There, I met with officials from the three 
major parties competing in the elections and from the state office of 
the Independent National Electoral Commission (NEC). I also visited 
approximately 20 polling and collating stations on election day. In 
February, I spent three days in and around the city of Lagos, observing 
voting and collating in nearby Ogun State, and two days in Abuja, the 
national capital.
    In Senegal, I joined the official U.S. delegation to the Second 
Conference of the Parties to the desertification convention. In 
addition to attending part of the final plenary session, I met with 
delegates from other countries, including Benin (head of the Africa 
Group), Argentina and Ethiopia.
    I am grateful for the cooperation of the staffs of the U.S. 
embassies in Lagos and Dakar. I would particularly like to thank 
Ambassador William Twadell, Deputy Chief of Mission Nancy Serpa and 
Ambassador Dane Smith, foreign service officers Chris Jester, Alan Eyre 
and Andrew Havilland, and members of the U.S. delegation to the 
Desertification conference, including Diane Graham, Franklin Moore and 
Theresa Hobgood. Finally, I gained invaluable assistance and insight 
from the staffs of both the National Democratic Institute and The 
Carter Center.
    The attached report includes a summary of my key findings and 
recommendations for U.S. policy. Attached as appendices are several 
statements from the American nongovernmental organizations that 
observed various stages of electoral process in Nigeria, including the 
ones from NDI/Carter, which I helped to draft, as well as an assessment 
by the Transition Monitoring Group, an independent domestic 
organization. These reports provide an additional sense of the climate 
surrounding the transition in Nigeria. In addition, as the primary 
evidence of the election-related programs which the U.S. government has 
chosen to support, I felt it was important to present these reports to 
the Committee.
    Finally, the conclusions in this report are my own, and do not 
necessarily reflect the views of Senator Feingold or of the Committee 
on Foreign Relations.
            Sincerely,
                  Linda S. Rotblatt, Legislative Assistant,
                             Office of Senator Russell D. Feingold.

                           SECTION I: NIGERIA

                         a. staffdel activities
    Staffdel traveled to Nigeria December 2-11, 1998 and February 24-
March 2, 1999. In order to assess the current transition process and 
appropriate U.S. policy response to it, Staffdel was associated with 
two Election Assessment Delegations organized by the National 
Democratic Institute for International Affairs (NDI) and The Carter 
Center, in addition to conducting a regular staffdel program. [For 
additional information about the delegations, their mandates and their 
assessments, please see Appendix.]
    The NDI/Carter Center delegation was invited by Head of State 
General Abdulsalami Abubakar and accredited by the Independent National 
Electoral Commission (NEC). In December, Staffdel was appointed to the 
NDI/Carter team responsible for Kano State, and was deployed to the 
region for a four-day period. On election day, Staffdel visited more 
than 20 polling sites and collation centers in this region. In 
February, Staffdel was part of the NDI/Carter team in Ogun State; 
visiting nine polling stations and collation centers on election day.
    As part of the December delegation, Staffdel met with 
representatives of the three major political parties competing in Kano 
State (the All People's Party, the People's Democratic Party, and the 
Alliance for Democracy), NEC officials and political activists. In 
February, Staffdel met with NEC officials of Lagos state.
    Staffdel also held the following independent meetings during the 
two trips:

  <bullet> Dr. A.J. Arije, Acting Executive Secretary, Economic 
        Community of West African States (ECOWAS)
  <bullet> Col. Ibrahim Babangida, Special Assistant to Charles Eze, 
        Special Advisor to the Head of State for Economic Affairs, 
        Drugs and Financial Crimes
  <bullet> Members of the Transition Monitoring Group (TMG), a non-
        partisan coalition of more than 40 civil society organizations, 
        committed to monitor specific aspects of the transition process 
        and responsible for fielding more than 10,000 domestic monitors 
        for the presidential elections
  <bullet> Ogbonna Onovo, Chairman of the Nigerian Drug Law Enforcement 
        Agency
  <bullet> Embassy officials
  <bullet> Members of the NDI/Carter joint delegations

    Staffdel's primary interest in these additional meetings was in 
assessing the level of Nigerian cooperation in the fight against 
narcotics trafficking; the significance of Nigerian contribution to 
regional peacekeeping; the relationship between the United States and 
the Nigerian military (currently, and in a post-transition 
environment); and the overall climate for political expression in the 
country.
                       b. transition environment
    Background: Following the sudden death in June 1998 of General Sani 
Abacha, his successor, General Abdulsalami Abubakar made some progress 
in liberalizing the political environment in Nigeria, including 
establishing a time line for elections and reestablishing guidelines 
for political participation. According to his transition plan, power 
will be handed over to a civilian government on May 29, 1999, after a 
series of elections, scheduled respectively for December 5, 1998 (local 
government), January 9, 1999 (state assembly and governors), February 
20, 1999 (national assembly) and February 27, 1999 (presidential). Gen. 
Abubakar also agreed to release political prisoners, and some have 
indeed been released.
    Most Nigerians appear to have embraced this transition program, and 
the international community has welcomed Gen. Abubakar's bold 
statements. Nevertheless, observers remain apprehensive about the role 
of the security forces and of the military, perceived weaknesses in the 
electoral system, the lack of a clear constitutional order, and the 
possibility of violence during the electoral period. Nigerians also 
remain concerned about the important questions of federalism and 
decentralization--including the control and distribution of national 
wealth--which have yet to be satisfactorily worked out.
    These concerns, which have remained a backdrop throughout the 
current transition, were exacerbated by multiple reports of fraud 
during the four rounds of elections, particularly the February 27, 
1999, presidential poll. Although, to date, it remains unclear whether 
the fraudulent activities had an impact on the ultimate outcome of the 
elections, such irregularities--including excessively high collated 
numbers or materials delivered suspiciously late--risk bringing the 
legitimacy of the process into question and tended to dampen what had 
otherwise been a largely optimistic and enthusiastic attitude 
throughout the country.
    Assessment: Staffdel found the general electoral environment to be 
calm and orderly. Nigerians seem genuinely optimistic the country will 
return to civilian rule upon the completion of this transition program, 
and are therefore willing to put faith in the transition program 
despite certain difficulties, and even the irregularities. Thus, 
although the party system was not well developed at the time of the 
qualifying election (the December 5 local councilor poll), Nigerians 
generally accepted that three legitimate parties were eligible to 
participate in subsequent electoral rounds. [This is despite the fact 
that the processes within each party (for taking positions or electing 
candidates) may not have been wholly democratic. In addition, the 
platforms of the major parties were not distinct, so party support has 
tended to be more regionally or ethnically based.] Similarly, Nigerians 
tacitly accepted that fraud would occur during the process, but they 
did not seem to think that such fraud would prevent the transition to 
civilian rule from taking place, or would threaten the legitimacy of 
the next government.
    That said, Staffdel remains concerned that little, if any, serious 
discussion of postelection priorities took place. From the outset, the 
incoming civilian government will face enormous challenges as well as 
the unrealistically high expectations of the population for early 
positive results. The Nigerian economy has seriously deteriorated. Fuel 
is nearly unavailable, and waiting hours in line to purchase gas has 
become a part of the local lifestyle. Domestic refineries are currently 
shut down, and will require significant investment to refurbish, and 
the agricultural sector has collapsed due to years of mismanagement. 
Some one-third of the work force is unemployed, and yet another third 
is underemployed. And social services are virtually non-existent in 
many parts of the country. By all accounts, the new government will 
come into power with greatly diminished resources, at a time when 
political stability may depend on sound and consistent economic policy.
    Equally disturbing is that little thought is given to the future 
role of the military in Nigerian society. The military has controlled 
Nigerian political life for most of the post-independence period. The 
military is accustomed to being in power, and ruling by decree. As a 
result, the population is less accustomed to building a consensus 
around policy issues, but rather tends to protest policies which do not 
result in tangible identifiable benefits. It is worrisome, then, that 
the new civilian government will be compelled to enact new policies 
which are likely to be unpopular with an expectant electorate. Without 
a serious effort to build support for such policies, riots or other 
forms of unrest become likely. During similar periods in Nigeria's 
history, the military has reasserted power under the pretense of 
``establishing order.''
    At the same time, the military has for much of the recent past 
determined the distribution of national resources, a distinction that 
has been characterized more by corruption and cronyism than by any 
standard of governance. Although the Abubakar government has taken some 
strides to investigate the abuses of the past, corruption proliferates 
and it remains unclear how any new government will be able to extricate 
itself from such practices.
                   c. recommendations for u.s. policy
    United States relations with Nigeria have been strained in recent 
years, particularly since the execution of Ken Saro-Wiwa and eight 
other Ogoni activists in November 1995. Under the Abacha regime, the 
human rights situation seriously deteriorated, and Nigerians were 
unable to exercise their rights. As repression and corruption 
proliferated, so too did the prevalence of narcotics, with Nigeria 
increasingly being used as a transit stop for traffickers moving heroin 
and other drugs from Asia to the West.
    For many years, the United States had in place a variety of 
sanctions against Nigeria pursuant either to statute (most notably the 
drug certification law), or imposed by executive order in response to 
the takeover of power by a military government. These sanctions include 
prohibitions on U.S. foreign assistance (both economic and military) to 
the government and negative voting requirements at multilateral 
institutions, among other actions. [Visa restrictions, aimed at top 
military rulers, were lifted in late 1998 in response to reforms 
undertaken by the Abubakar regime. The mandate for other sanctions was 
removed as of March 28 pursuant to President Clinton's February 26, 
1999, decision to grant a national interest waiver pursuant to the drug 
certification law.]
    Despite the restrictions on military assistance during the Abacha 
regime, however, the United States relied heavily on the Nigerian 
contribution to ECOMOG, the regional peacekeeping arm that played an 
invaluable role in pursuing U.S. policy goals in Liberia, and more 
recently in Sierra Leone. The U.S. relationship with ECOMOG, which has 
included transportation and logistical support, has complicated 
America's ability to exert pressure on Nigeria's human rights record.
    As Nigeria plods through its new transition program, there are 
numerous U.S. policy issues which must be re-evaluated. Although an 
analysis of these issues should take into consideration the efforts of 
the Abubakar regime to enact some political reform, it must also 
consider the overall political climate in Nigeria, including the human 
rights situation, and the role that the military is likely to play 
under the new civilian dispensation.
    In general, Staffdel believes it is important for the U.S. to 
continue to monitor closely the situation in Nigeria--to commend 
progress when it is made, but not to shy away from harsh criticism if 
the government slips back into the repressive habits of the past. The 
U.S. should continue to maintain some distance, even as it pursues more 
direct ties with the new government.
    In particular, Staffdel makes the following analysis of some 
specific bilateral issues that are further complicated by the ongoing 
transition process:
    (1) Drug certification law--Under Section 489 and 490 of the 
Foreign Assistance Act of 1961, as amended, the President has until 
March 1 each year to make a determination whether Nigeria has 
``cooperated fully'' with U.S. narcotics reductions goals, or has taken 
``adequate steps on its own'' to achieve full compliance with the goals 
and objectives established by the 1988 U.N. anti-drug convention. 
Nigeria is considered a major illicit drug transiting country under the 
statute. On February 26, the President announced that Nigeria, among 
other countries, was deemed as not fully cooperating but eligible for 
assistance due to vital national interests. (Countries that are 
decertified are subject to a range of sanctions.) The 1999 decision 
represents the first time Nigeria was granted a waiver pursuant to this 
law.
    The drug certification law has become a particular stickler with 
Nigerians, who believe they do the best they can with few resources, 
and are insulted that Americans do not recognize their efforts. This 
feeling is further compounded by the fact that Nigeria is not a drug 
producing country. Nigerians are well aware of the debate in the United 
States, particularly in Congress, surrounding the certification of 
Mexico in recent years, despite that country's arguably weak 
cooperation record, and thus are convinced that annual certification 
decisions are based on political, rather than drug-related, criteria. 
That said, the Nigerian authorities have been slow, at best, in 
pursuing only a few of the numerous extradition requests from the 
United States. In addition, its anti-trafficking organization, the 
National Drug Law Enforcement Agency (NDLEA), lacks the expertise, 
management capacity and resources to be a viable partner in the fight 
against drugs.
    To complicate the situation, the March 1 deadline (for presidential 
certification) occurred just two days after Nigeria's scheduled 
presidential elections (February 27). The climate at the time in 
Nigeria was such that if the Clinton Administration had issued a 
straight decertification decision, it would have been perceived within 
Nigeria as a slap in the face, both to the electoral process itself, as 
well as to the newly elected civilian leadership. Such a situation, 
admittedly, would not have been an ideal way for the United States to 
launch ties with a new government. Indeed, the mandated timing of the 
determination probably contributed to the President's decision to grant 
a national interest waiver. The State Department's explanatory message 
to Congress explained the waiver as follows:

        Denial of certification would mandate a cut off of economic and 
        security assistance necessary to support Nigeria's transition 
        to democracy and its attempts to reinvigorate a failing 
        economy. The President determined that it is in the vital 
        national interests of the U.S. to be able to support a new 
        democratically elected government which will pursue narcotic 
        and other objectives in Nigeria with more vigor and potential 
        for success than any of the military juntas which proceeded it.

    Nevertheless, the State Department acknowledges that there was 
``little concrete progress'' on key counter-narcotics criteria. 
According to the International Narcotics Control Strategy Report, ``The 
Nigerians government's counternarcotics effort remains unfocused and 
lacking in material support . . . [Nigeria] was unable to conclude any 
of the 24 outstanding extradition cases sought by the U.S. . . . 
Nigerian law enforcement agencies did not significantly improve their 
countemarcotics performance.''
    Drug trafficking in Nigeria remains a serious issue, and Congress 
remains serious about implementation of existing law. Staffdel commends 
the administration for not using the few extraditions, pursued by the 
Government of Nigeria during the final days of the 1998 calendar year, 
as a basis for certifying a country that has not, according to the law, 
been cooperative on this issue. However, Staffdel is concerned that the 
vital national interest waiver decision has been interpreted within 
Nigeria as an endorsement of its efforts with respect to narcotics 
trafficking, rather than as--as was intended--an acknowledgment of the 
importance of an open relationship at a crucial moment in Nigeria's 
transition to civilian rule.
    Staffdel recommends the explanation of the national interest 
imperatives, and the distinction between that decision and a decision 
of ``cooperation,'' be made very clear. The United States must also 
clarify that the certification is indeed an annual process, and that 
ongoing monitoring of Nigeria's efforts will continue. Such 
explanations are crucial if the United States is to continue to help 
Nigeria make improvements in its ability to stem narcotics trafficking.
    Finally, Staffdel urges the administration to moderate the direct 
assistance it chooses to deliver under the waiver. (See point 3, 
below.) Staffdel believes U.S. foreign assistance should be granted to 
countries that share our country's commitment to democratic principles 
and respect for internationally-recognized human rights. Although there 
has been substantial improvement in Nigeria's human rights record in 
recent months, there remains the potential for continued human rights 
problems, and the U.S. assistance program should continue to be used to 
leverage further progress.
    In any case, Staffdel encourages the administration to consult 
closely with Congress on all aspects of the certification issue, and of 
the foreign assistance program.
    (2) Certification of the airport--For many years, the Murtala 
Mohammed International Airport in Lagos, a major hub in West Africa, 
has not, under Federal Aviation Administration (FAA) standards, 
qualified for direct flights from the United States. As a result, signs 
indicating the lack of safety standards in Lagos are posted at all 
American airports. This lack of certification, which is based entirely 
on technical grounds, has been a great embarrassment and hassle for 
Nigerians. According to administration sources, however, the government 
of Nigeria (under both the Abacha and Abubakar regimes) has made 
significant progress in updating its airport, and is nearing the 
technical qualifications for certification. The Nigerians, 
unfortunately, believed such a certification would be made by late 
1998. Administration sources believe it now may occur sometime during 
calendar year 1999.
    Staffdel agrees with the consensus assessment of administration 
officials and other observers that airport certification should be 
based solely on the FAA technical criteria. However, administration 
officials should be aware that the resumption of direct air travel will 
be perceived as having been based on political considerations, and 
should take efforts to minimize this perception as much as possible.
    (3) Foreign assistance--As discussed in point (1) above, the United 
States has been prohibited from providing economic or military 
assistance to the government of Nigeria due to sanctions imposed on 
Nigeria largely pursuant to the drug certification law. Due to 
President Clinton's decision to grant a waiver, on national vital 
interest grounds, to this prohibition, the administration is now able 
to conduct a full bilateral assistance program. [Note: Pursuant to the 
February 26 determination, all sanctions were lifted on March 28, with 
the exception of the presumption of denial on military exports, which 
will remain in effect until the inauguration of a civilian government.]
    Until the recent decision, the U.S. development assistance program 
in Nigeria was conducted solely through non-governmental organizations, 
and focused primarily on health/population issues and the development 
of civil society. In FY 1998, total U.S. assistance to Nigeria was only 
$7 million, a moderate amount given Nigeria's population of over 100 
million people. In FY 1999, the account was increased to $12.5 million, 
and the administration's request for FY 2000 brings it up to $20 
million.
    Staffdel believes the size of this program until now does not 
reflect the importance of Nigeria to U.S. interests. However, Staffdel 
is skeptical about providing any significant amount of direct 
assistance to the government until the new civilian government is in 
place and has proven its capacity to use and monitor such resources 
efficiently. At the same time, it is critical that the United States 
continue to demonstrate its support for Nigerian civil society.
    Staffdel encourages close consultation with Congress on the 
formation of a more robust development assistance program in Nigeria, 
in particular the eventuality of providing direct assistance to the 
government. Staffdel also encourages coordination with other donors who 
too are poised to make substantial changes in their development 
assistance programs to Nigeria. The enthusiasm surrounding recent 
developments in the country raises the potential for careless overlap 
between and among different donors.
    (4) Military assistance/Relations with the military--U.S. relations 
with Nigeria's military have been highly strained in recent years, due 
in part to decertification under the drug law, but largely because of 
the military's poor record on human rights. At the same time, the 
United States has worked closely with Nigeria, and its military, in its 
capacity as the lead contributor to ECOMOG, the West African regional 
peacekeeping force. Given the recent political liberalization in 
Nigeria, the executive branch is anxious to close the gap by developing 
closer ties to the Nigerian military, including normalizing the direct 
military-to-military relationship between the two countries. Indeed, 
powerful arguments can be made about the potential contribution the 
Untied States could make, for example, to helping restructure the 
Nigerian military and/or bestowing upon the Nigerian military the U.S. 
experience with civilian control of the military. The executive branch 
has already taken steps to expand ties through several high-level 
visits, efforts to upgrade the rank of the U.S. defense attache 
resident in Lagos and the development of plans to launch training and 
assistance programs upon the inauguration of a civilian government.
    Staffdel is concerned that such ties are being strengthened 
prematurely, i.e., before a larger strategy is developed regarding the 
military's role in a post-transition Nigeria, and without regard to the 
signals that the establishment of such ties might send to the Nigerian 
public. Staffdel is particularly concerned about any activities at this 
time related to training of the Nigerian military, especially 
participation in the two of America's premier training programs, the 
International Military Education and Training (IMET) and the African 
Crisis Response Initiative (ACRI), in both of which Nigeria is anxious 
to participate. [Note: This skeptical view has been compounded by 
events in the oil-producing regions over New Year's weekend, when 
Nigerian troops reportedly fired upon civilians, killing between 20 and 
100 individuals.]
    Staffdel recommends that the administration moderate its ties to 
the Nigerian military, particularly during this insecure transitional 
period, and/or expand its public diplomacy efforts in order to make 
clear the position that the United States will not tolerate a 
repressive military.
    (5) Movement of embassy to Abuja--Although the Government of 
Nigeria moved the capital to Abuja, Federal Capital Territory (FCT) in 
1991, the United States has maintained its Embassy in Lagos. However, 
the United States has recently upgraded the status of its presence in 
Abuja from a ``liaison office'' to an ``Embassy office,'' and plans are 
underway to build a new embassy in Abuja. [According to some 
administration sources, this move was at one time fourth in a list of 
priority of major projects in the Foreign Buildings Operations (FBO) of 
the Department of State. Additional efforts are now being made to 
identify appropriate building locations pursuant to enhanced security 
needs in the wake of the August 1998 terrorist bombings in East 
Africa.] In the meantime, the United States has attempted to expand its 
presence in Abuja through a higher-ranking office that is responsible 
for maintaining more frequent direct contact with government officials 
resident in Abuja.
    While Staffdel recognizes the move to Abuja is inevitable, there 
are two concerns about the existing and projected status. First, in the 
current environment, it appears that the division of labor between 
staff resident in Lagos and staff resident in Abuja is unclear, and the 
lack of clarity may cause friction between and among the two offices. 
For example, some portfolios are more appropriately handled in Lagos, 
although certain contacts in Abuja may be imperative. In order to best 
cover this portfolio, the ambassador may wish to make clear whether an 
officer in Lagos or one in Abuja has primary responsibility. In 
addition, Staffdel believes communication between officers in both 
locations can be improved, and should be encouraged.
    Second, Staffdel believes the deployment of an American ambassador 
to Abuja (even if this occurs prior to the actual construction of a new 
embassy) will be perceived as a significant signal of U.S. approval of 
the government resident in Abuja at that time.
    Therefore, Staffdel recommends the United States consider carefully 
not only the diplomatic imperatives of the move, but also the public 
reaction to the move.
    Given the possible perception problems of this move, Staffdel urges 
congressional consultation on this issue.
    (6) Other issues--There are myriad other U.S. policy issues that 
need to be addressed, including the following:

  <bullet> the impact of Nigeria's crushing debt on its economy, and 
        therefore on the transition process as a whole, and whether the 
        U.S. should consider debt relief or restructuring;
  <bullet> the extent to which massive corruption still exists in 
        Nigeria, its impact on the transition process, and its effect 
        on virtually every option for U.S. financial assistance to 
        Nigeria;
  <bullet> whether the U.S. can make an appropriate contribution to the 
        debate over federalism in Nigeria; and
  <bullet> the significance of the policies of U.S. allies (or other 
        countries) in Nigeria.

    Staffdel recommends that future congressional and staff delegations 
consider some of these issues in greater detail.

                              II. SENEGAL

                         a. staffdel activities
    Staffdel attended the proceedings of the final day (December 12, 
1998) of the Second Conference of the Parties to the United Nations 
Convention to Combat Desertification in Those Countries Experiencing 
Serious Drought and/or Desertification, Particularly in Africa, in 
Dakar, Senegal. (The Conference was held from November 30-December 11, 
1998.)
    The Desertification Treaty, as it is known, was signed by the 
United States on October 14, 1994. President Clinton submitted the 
treaty to the Senate for its advice and consent on August 2, 1996, but 
review of the treaty is still pending before the Senate Committee on 
Foreign Relations. The treaty entered into force on December 26, 1996. 
[See Treaty Doc. 104-29.]
    A U.S. delegation (USDEL) participated in the Second Conference of 
the Parties as an observer, even though the United States is not yet a 
party to the Convention.
    With invaluable assistance from USDEL, Staffdel met with several 
representatives of delegations representing Parties to the Convention, 
including:

  <bullet> The Honorable Rogatien Biaou, Minister Counselor, Foreign 
        Ministry, Republic of Benin, and chair of the Africa group
  <bullet> Mr. Octavio Perez Pardo, Secretary of Natural Resources and 
        Sustainable Development, Republic of Argentina, and chair of 
        the Latin America group
  <bullet> Ms. Tsedale Waktoka, representing the Republic of Ethiopia
  <bullet> Members of the U.S. delegation
  <bullet> Members of the non-governmental community

    Staffdel also met with Dr. Abdoulaye Bathily, a former Minister of 
the Environment of Senegal and a renowned expert on the issue of 
desertification. Staffdel attended the final plenary meeting of the 
Conference.
    Finally, Staffdel met with a reduced Embassy country team to 
discuss recent events in Guinea-Bissau, and U.S. military relations 
with Senegal.
                           b. desertification
    Background: Desertification is the severe degradation of land in 
arid and semi-arid regions which renders the land infertile and no 
longer able to sustain crops or livestock. Desertification claims 
nearly 10 million acres of the world's arable lands per year and 
affects millions of people. Dry land degradation is particularly acute 
in Africa, having been one of the underlying causes of African famine, 
migration, and emigration. Dwindling land and water resources caused by 
desertification frequently ignite destabilizing regional conflicts. The 
United Nations Development Program estimates that economic loss from 
desertification is about $42 billion per year, while the cost of 
actions needed to combat the problem is estimated at between $10 and 
$22 billion annually.
    UN Convention: The UN Convention To Combat Desertification was 
designed to combat desertification and mitigate the effects of drought 
on arid, semi-arid, and dry sub-humid land. The Convention addresses 
the fundamental causes of famine and food insecurity in Africa by 
encouraging partnerships between governments, local communities, 
nongovernmental organizations and aid donors.
    The Convention is unique among international treaties in that it 
requires recipient nations to establish ``National Action Plans'' to 
combat desertification. The Convention does not establish a new 
financial `mechanism'' to administer funds for convention-related 
projects and activities. Instead, it emphasizes the need to mobilize 
substantial funding from existing sources and to rationalize and 
strengthen their management. It encourages better use of development 
resources worldwide, particularly in Africa, where it mandates a 
process to combat land degradation which draws on lessons learned from 
past successes and failures. Notably, by mandating the development of 
the national action plans, the Convention emphasizes local community 
participation. Signatory countries in affected regions are obligated to 
adopt the combating of desertification (or mitigation of its effects) 
as a central strategy to eradicate poverty.
    The Convention also urges improved coordination between donors and 
national governments. Donor states would have the option of placing 
their specialists, resources and businesses on a global roster that 
would be available to all recipient countries. A ``Global Mechanism'' 
established by the treaty would inventory existing drylands projects 
and facilitate better matching of donors with projects. While this 
mechanism will seek to identify and facilitate funding sources for the 
desertification programs of affected countries, it will not be a source 
of financing itself.
    Implications of U.S. Ratification of the Convention: U.S. 
ratification of the Convention could boost business opportunities for 
American agribusiness. Once the United States becomes party to the 
treaty, U.S. businesses, experts and universities will be listed on the 
Convention's roster of service-providers. Rising incomes in the 
agricultural sector of developing countries generate a higher demand 
for U.S. exports of seeds, fertilizer, farm and irrigation equipment, 
as well as other U.S.-produced products.
    Because of the United States experience with desertification, the 
Dust Bowl, U.S. universities and farmers are uniquely equipped to 
combat land degradation, which still affects an estimated 37 percent of 
the United States. The convention will facilitate closer collaboration 
between these experts and those in other countries. In particular, U.S. 
businesses have considerable expertise with successful soil and water 
conservation activities. It is hoped that U.S. ratification of the 
Convention will increase opportunities for marketing U.S. technologies 
abroad.
    Unlike most treaties, the Convention requires no new U.S. foreign 
aid funding and the cost of U.S. participation would be minimal. 
[Estimates are that the U.S. voluntary contribution would be roughly 
$1.25 million per year.] In transmitting the Convention to the Senate, 
the President noted that ``United States obligations under the 
Convention would be met under existing law and ongoing assistance 
programs.'' In addition, with the help of the global mechanism, 
existing U.S. foreign aid resources would be used more effectively.
    Finally, because of the relationship between desertification, 
poverty and migration, it is believed that successful implementation of 
the treaty will help reduce the demands placed upon donors as a result 
of regional conflict or refugee migration.
                             c. assessment
    Many of the countries already party to the treaty, particularly 
those in sub-Saharan Africa, have identified desertification as a 
serious environmental problem. The governments of these countries feel 
strongly that the Convention will greatly assist efforts to stem the 
problem of desertification in their countries and regions, and have 
dedicated considerable human and financial resources to becoming an 
active party to the treaty, including dedicated solicitation of input 
from affected communities.
    Although the problem of desertification affects land throughout the 
world, the problem is most prevalent in Africa, where more than 73 
percent of Africa's drylands are affected. Some 100 million Africans 
live on these marginal lands and suffer from the loss of the land's 
ability to sustain crops and livestock. Many observers blame 
desertification for Sahelian drought of 1971-73 and 1984-85 which 
caused mass starvation. As a result of the severe impact of this 
problem on Africa, the Desertification Convention is therefore 
considered an ``African treaty,'' i.e., it is considered by African 
governments and Africans themselves as a recognition by the rest of the 
world that Africa faces unique challenges.
    It is for this reason that it is particularly awkward that the 
United States has yet to ratify this treaty. As a result of the Dust 
Bowl experience, the United States is recognized for its technological 
leadership in combating dry land degradation. More than one-third of 
the United States is still arid or semi-arid, yet improved land and 
water management practices have helped stem the pace of 
desertification. U.S. ratification would elevate the status of the 
treaty.
    By not ratifying the treaty, the United States is perceived as 
being unfriendly to Africa which detracts from U.S. claims about 
importance of Africa to United States.
    Staffdel believes this treaty represents an admirable model of how 
international environmental treaties might in the future be structured. 
It creates no new bureaucracy nor does it require significant 
contributions from donors. Instead, the burden is shared among the 
affected countries which are required to develop ``national action 
plans'' that encourage grassroots involvement. The bottom-up process 
involved in developing these national action plans has been beneficial 
to most of these countries. Finally, the Convention will provide 
significant opportunities for U.S. businesses and universities.
    Staffdel recommends the Committee on Foreign Relations begin 
consideration in earnest of this important treaty.

                            III. APPENDICES

    1. IRI Preliminary Statement: December 5 Nigeria Local Elections 
(December 7, 1998).
    2. Post-Election Statement of the AAEA/IFES Observer Mission to the 
Local Government Elections in Nigeria (December 8, 1998).
    3. Carter Center/NDI Statement on the February 20 National Assembly 
Elections (February 22, 1999).
    4. Statement of the Carter Center/NDI International Observer 
Delegation to the Nigerian Presidential Elections (March 1, 1999).
                                 ______
                                 

    IRI Preliminary Statement: Nigeria's February 27, 1999 Elections

                         Published: March 1999

    In a historic vote Saturday, Nigerians chose a transition from 
military rule to civilian government. IRI believes that, despite 
troubles plaguing the election, yesterday's vote was an important step 
in the transition process.
    IRI noted a number of positive aspects to the election:
    Nigerians who chose to vote should be praised for their courage and 
faith in a democratic future for their country. The Independent 
National Election Commission (INEC) mounted a successful voter 
education campaign on last-minute changes regarding the Alliance for 
Democracy's place on the ballot. INEC is also to be praised for 
staffing and equipping more than 110,000 polling units in the short 
time available. The helpful attitude of INEC's local administrators, 
many of them women and teachers, towards voters and international 
observers also deserves praise. Political parties participated in the 
electoral process, and more tolerance than might have been expected 
existed between them. The current government, led by General Abubakar, 
initiated Nigeria's democratic transition, including a freer press. 
Nigeria's military remained in the barracks and overtly outside the 
political process.
    Nigeria's path to democracy must include respect for human rights, 
the rule of law, and transparent and responsive government. Absent such 
developments, Nigerians will quickly grow cynical about this weekend's 
first steps towards democracy. One of the essential features of a 
democratic system must be elections in which the people have 
confidence. A major goal of the new government must be to break the 
patterns of the past. Among the issues that must be addressed are 
serious irregularities and problems that have occurred in the election 
process thus far:
          Five of the ten IRI teams saw stuffed ballots. One team saw 
        ballots being stuffed into a ballot box, and the rest saw 
        stuffed ballots during the initial counting process.
          Fraud was not obvious at the rest of the many polling 
        stations IRI visited before counting began, and none was 
        evident to a Lagos-based IRI team that examined post-counting 
        ward-level results. The new government should hold accountable 
        those responsible for transgressions of the election law. A 
        lack of secrecy existed in the marking and casting of ballots, 
        enabling voter intimidation. Inexpensive ballot booths and 
        opaque ballot boxes (to replace clear boxes intended to 
        discourage ballot stuffing) that are used in other countries 
        should be introduced into Nigeria's electoral system.
          The well-intentioned but unusual and impractical split 
        accreditation and voting processes should be changed. Voter 
        turnout was disappointing, given the historic nature of this 
        election. Training of local INEC officials steadily improved 
        during the three elections beginning in December, but still 
        proved inadequate by Saturday's balloting.
          INEC does not include polling station results in final 
        election reporting. In other countries, such information has 
        proven a deterrent to fraud at levels higher than the local 
        stations. Political parties need to practice a greater degree 
        of internal democracy, and the resulting leaders need to exert 
        greater influence to discourage corruption of the election 
        process, if they are to fulfill their proper role in Nigerian 
        society.
          IRI looks forward to working with Nigeria's new civilian 
        rulers to help institute these necessary improvements.
                               background
    The International Republican Institute arrived in Nigeria last 
September to observe and support the transfer of Nigeria's government 
to elected authorities at the local, state, and national levels.
    IRI observed the elections on December 5, January 9 and February 20 
and 27. IRI also produced a Polling Agent Handbook for the elections 
and held 64 training seminars in 26 states between November 30 and 
February 16. Approximately 300,000 of the IRI handbooks were 
distributed throughout the country to the three contesting parties.
    For the February 27 election, IRI deployed a bipartisan team of 42 
observers led by U.S. Congressman Ed Royce (Republican-California), 
General Colin Powell, U.S. Congressman Donald Payne (Democrat-New 
Jersey), and former Senator Nancy Kassebaum Baker. Prior to election 
day, the accredited IRI delegates met with officials from the INEC, 
political parties, the United States Embassy, and visited local 
government councils. IRI's 10 teams observed the election in Lagos, 
Ogun, Nassarawa, Delta, Akwa-Ibom, Jigawa, Dutse, Rivers and Niger 
states.
    IRI evaluates elections based on four criteria. This preliminary 
statement involves IRI observations of the first two--events leading up 
to the election and election day. The third stage--the tabulation of 
ballots--has just begun. IRI reserves the right to modify this 
statement as circumstances surrounding these processes become clearer. 
IRI will issue a final report to coincide with the fourth step in 
Nigeria's transition from military to civilian rule, the inauguration 
of a new government at the end of May 1999.
                                 ______
                                 

  Executive Summary of Post Election Statement of AAEA/IFES Observer 
           Mission to Local Governmental Elections in Nigeria

    The Association of African Election Authorities (AAEA) and the 
International Foundation for Election Systems (IFES) undertook a joint 
mission to observe the December 5, 1998 local government elections in 
Nigeria. This mission was informed by an AAEA/IFES pre-election 
assessment mission conducted in November as well as by the presence of 
long-term IFES monitors who arrived in Nigeria earlier that month and 
who will remain in the country until the conclusion of the elections 
that are enabling Nigeria's transition to an elected, civilian 
government. The AAEA/IFES missions produced a Pre-Election Report 
(November 30, 1998) and a Post-Election Statement (December 8, 1998) 
which summarized the mission's observations of the December 5 
elections.
    This final report on the December 5 elections, and of the 
monitoring of the immediate post-election period, presents the 
observations of the AAEA/IFBS missions in the hope that our findings 
will contribute to the preparations for the upcoming Governorship and 
State House of Assembly elections scheduled for January 1999 and the 
parliamentary and presidential elections planned for February. We also 
hope that these observations may support the strengthening of Nigeria's 
electoral system, enabling the transition to a credibly elected 
civilian government by May 29, 1999.
    Being composed of election officials, election experts and 
experienced election observers, the joint AAEA/IFES missions focused 
their assessment of the electoral process on the technical aspects of 
the administration of the vote. Areas of particular concern to the 
AAEA/IFES missions were:

        the legal framework for the electoral process; the 
        organizational capacity of the Independent National Electoral 
        Commission (INEC); and election procedures.

    While this report suggests several means of promoting the 
credibility of the electoral process within each of these three areas, 
we hope that the INEC will focus on two issues in the immediate short-
term as it works to prepare for the conduct of the January and February 
votes: (1) additional clarification of election day procedures, and (2) 
the use of indelible ink to further guard against multiple voting.
    On December 5, election day, the AAEA/IFES observer mission noted 
the lack of a uniform application of election procedures from polling 
station to polling station, resulting from inadequate specificity 
concerning the procedures in the electoral guidelines, lack of thorough 
and timely training of poil officials and the lack of clear direction 
on the election day process in the Training Manual for Poll Officials. 
We also noted the lack of uniform application of the electoral 
guidelines through the tabulation process. The INEC has now revised the 
poll official manual, and its distribution before the January 9 
elections should contribute significantly to the poll officials' 
understanding of their responsibilities and of the process. However, we 
also urge the INEC to include in the electoral guidelines specific 
direction on such election day procedures as ensuring the secrecy of 
the ballot, the confinement of voters from the time of accreditation to 
voting and the use of indelible ink. We also recommend that the INEC 
address other aspects of the accreditation, voting, counting and 
tabulation processes that were not clear in previous guidelines. We 
recommend the re-training of election officials (including ad hoc/
temporary staff as well as permanent staff of the INEC). The training 
should focus on the provisions of the electoral guidelines to prevent 
their uneven and often discriminatory application as well as enhance 
the professional nature of election administration.
    Not unreasonable concern has been expressed by many election 
officials, leaders of political parties, Nigerian citizens and 
observers of the electoral process, including the AAEA/IFES mission, 
about the shortcomings of the voter registration process, including the 
reports of the disenfranchisement of eligible Nigerian citizens 
resulting from the shortages of voter's cards, reported multiple 
registration and the apparent lack of controls in the distribution of 
the cards. While the AAEA/IFES missions were unable to observe the 
registration process and comment fully on its effectiveness, we are 
encouraged that the INEC has placed an order to procure further 
supplies of indelible ink which will be used in the future to mark 
voters who have cast ballots. The use of indelible ink will help 
safeguard against multiple voting which might have been facilitated by 
the weaknesses in the voter registration process. We urge that the poll 
officials receive clear instructions on the correct application of the 
ink. We further urge that all polling stations be supplied with 
sufficient quantities of indelible ink for the January 9 elections. In 
the long-term, the AAEA/IFES mission urges the examination of all 
phases of the voter registration process, with efforts made to consider 
the computerization of the registration list to facilitate the 
enfranchisement of eligible voters, and the adoption of other measures 
to enhance the accuracy of the list.
    The AAEA/IFES delegation recognizes the great challenge faced by 
Nigeria's Independent National Electoral Commission in administering 
the December 5 local government elections given the size of the 
country, the stated time frame for the transition process and the 
attendant logistical constraints. We note the tremendous desire of all 
Nigerians to make the transition to an elected, civilian leadership and 
to build a sustainable democratic system.
    The local government elections of December 5, 1998 demonstrated the 
commitment of the INEC, the political parties and the Nigerian people 
to the transition to democracy, as we witnessed people from all walks 
of life and all political persuasions cast their ballots for local 
government Councillors and council Chairmen. We are encouraged that 
this first vote passed with the support of most Nigerians, and we hope 
that the following months will be marked by a further commitment to a 
credible, transparent, and representative process on the part of all 
major stakeholders and the citizens of Nigeria.
                                 ______
                                 

   Carter Center/NDI Statement on the February 20 National Assembly 
                               Elections

                           February 22, 1999

    The Carter Center and the National Democratic Institute (NDI) were 
pleased to observe the peaceful conduct of the February 20 elections 
for the Senate and House of Representatives, and we reaffirm our strong 
support for the transition process in Nigeria. Voting in many places 
adhered to electoral regulations, but our observers noted low voter 
turnout throughout the country and witnessed serious irregularities in 
several areas. In some cases, abuses of the electoral process were 
widespread enough to call into question the outcome of elections in 
certain constituencies and senatorial zones. Our observers documented 
numerous cases of ballot box stuffing, inflated vote tallies, and other 
manipulations of results committed by members of all three political 
parties and poll officials. We have reported our findings to the 
Independent National Electoral Commission (INEC).
    We call on the political parties and INEC to take immediate 
corrective action, where appropriate, to ensure the integrity of the 
February 27 presidential election and to build on the progress of the 
previous rounds of voting. Specific recommendations follow.
The Delegation and Its Work
    The Carter Center and NDI are in Nigeria to assess the evolving 
political environment, offer an impartial report on the third of four 
elections, and demonstrate the support of the international community 
for Nigeria's developing democratic process. We have maintained an in-
country presence in Nigeria since November 1998 to monitor the 
transition process. The two organizations will bring a 60-member 
multinational delegation to Nigeria this week to observe and assess the 
presidential elections and are providing ongoing assistance to the work 
of the Transitional Monitoring Group (TMG), a coalition of NGOs that 
will field as many as 10,000 domestic election monitors.
    For the February 20 National Assembly elections, ten observer teams 
traveled to nine states and the Federal Capital Territory, where they 
visited more than 150 polling sites, collation centers and INEC offices 
in 20 Local Government Areas. The observers coordinated with 
international and domestic observer groups in each state. They also met 
with a cross-section of Nigerian political party leaders, election 
officials, journalists, and representatives of nongovernmental 
organizations.
Delegation Findings and Concerns
    Given the size of Nigeria and the limited number of polling 
stations visited, the delegation did not attempt to carry out a 
comprehensive assessment of the February 20 election. Despite the 
difficult conditions under which these elections were held, our 
observers reported that most voting was orderly and peaceful. In 
several states we visited, elections were conducted in accordance with 
INEC procedures. Polling agents, party officials, and voters in these 
states worked to uphold the integrity of the electoral process.
    However, low voter turnout and several important shortcomings were 
noted that warrant serious attention. Irregularities and abuses were 
especially troubling in Enugu, Rivers, and Kaduna states.

          Low Voter Turnout--The delegation observed that turnout for 
        the Senate and House elections was notably lower than for 
        previous elections.
          10-15% Turnout--In most parts of the country our observers 
        and members of other international delegations reported a 
        turnout of 10 to 15 percent of registered voters, a significant 
        drop in participation from last month's election.
          Low Participation by Women--As in previous elections, our 
        observers noted very low participation of women at the polls.
          Inconsistent Application of Voting Procedures--The delegation 
        observed that many poll officials failed to abide by the voting 
        procedures outlined in the INEC manual.
          Secrecy of the Ballot--Little effort was made to ensure the 
        secrecy of the ballot; however, most voters did not seem 
        concerned with the lack of privacy or secrecy.
          Late Opening of Polls--Many polling sites did not open until 
        10:00 a.m. and some opened as late as 2:00 p.m. Some polling 
        sites never opened. This delay in opening was usually due to 
        poor distribution of voting materials.
          Materials Late or Lacking--Ballot papers and other essential 
        materials often did not reach polling sites on time in many 
        areas. This was usually due to a lack of vehicles and fuel. 
        When materials were distributed, several observers noted that 
        few measures were taken to secure sensitive materials, with 
        boxes of ballots left unattended at polling stations.
          Indelible Ink--There were numerous reports of misapplication 
        or non-use of indelible ink.
          Election Irregularities--Observers in several parts of the 
        country witnessed widespread voting irregularities and 
        electoral fraud.
        Ballot Box Stuffing--Several observers witnessed ballot boxes 
        that clearly appeared to have been stuffed with ballots marked 
        by the same person's fingerprint or neatly stacked in 
        sequential order. At a number of polling sites, observers 
        witnessed poll officials and party representatives fraudulently 
        voting multiple times by thumb-printing stacks of ballots in 
        plain view of voters and observers.
          Inflation of Results--In many cases, observers noted that at 
        the close of accreditation low numbers of voters had been 
        accredited--usually less than 15 percent. However, later in the 
        day when observers visited collation centers they found that 
        the same polling stations were reporting high numbers of 
        voters--up to 100 percent of registered voters. Observers also 
        visited polling stations where at one moment there were no 
        voters in line and less than ten ballots in the box, only to 
        return 15 minutes later to find that 200 or 300 ballots had 
        been cast with no voters in sight.
          Intimidation--Party members, poll officials, and groups of 
        young men (``area boys'') were seen at several polling stations 
        verbally intimidating voters and attempting to disrupt the 
        electoral process.
                            recommendations
    1. INEC should acknowledge that irregularities occurred in this 
election and should publicly state that such behavior is illegal and 
will not be tolerated. INEC needs to take immediate action to guarantee 
the integrity of the presidential election in order to ensure that the 
results are seen as legitimate by the people of Nigeria and the 
international community.
    2. Political party leaders should swiftly address misconduct by 
their members and ensure that those who perpetrated abuses are held 
accountable for their actions.
    3. Voter education by INEC and the political parties should be 
heightened over the next three days to urge voters to participate in 
the presidential election and to prevent large numbers of invalid votes 
from being cast.
    4. INEC officials should make every effort to ensure that voting 
procedures are followed by all INEC representatives throughout the 
country. This includes the timely distribution of election materials, 
which is subject to providing adequate fuel and transportation. Most 
important, local polling officials should be instructed to seek 
immediate assistance from security officials or senior INEC personnel 
at the first sign of electoral misconduct.
                                 ______
                                 

Statement of The Carter Center/NDI International Observer Delegation to 
                   the Nigerian Presidential Election

                             March 1, 1999

    The Carter Center and the National Democratic Institute (NDI) offer 
this statement on the February 27 presidential election in Nigeria, to 
supplement the preliminary statement of February 28.
    The delegation commends the strong, widespread support of Nigerians 
for a rapid transition program, including the handover of power to 
civilian rule. The delegation recognizes the commitment of the Head of 
State to move forward with a transition program, including the handover 
of power to civilian authorities on May 29. Although there were many 
positive aspects of the presidential election, notably the peaceful 
conduct of polling, we are greatly concerned about evidence of serious 
flaws in the electoral process in certain areas of the country. Such 
problems as we observed in the election process, and any grievances, an 
best be addressed within the context of democratic procedures and the 
rule of law. We support Nigerian and international efforts to develop 
democratic institutions and to strengthen political and civic 
organizations at local, state and federal levels.
The Carter Center/NDI Delegation and its Work
    The delegation was led by former U.S. President Jimmy Carter, 
former Niger President Mahamane Ousmane and retired U.S. General Colin 
Powell, and included elected officials, political leaders, regional and 
election experts from 10 countries in Africa, Asia and North America. 
We were invited to participate as international observers by Head of 
State General Abdulsalami Abubakar and the Independent National 
Election Commission (INEC). Throughout the process we received full 
cooperation and support from the government, INEC, Nigerian political 
parties and nongovernmental organizations that monitored the electoral 
process.
    For the presidential election, the 66-member delegation visited 
polling stations and collation centers in 20 states and the Federal 
Capitol Territory of Abuja. The delegation visited 335 polling stations 
in 112 wards in 61 Local Government Areas, in all six zones of the 
federation. Delegates also observed collation processes at 33 Ward, 20 
Local Government, and 6 State levels. Our observers coordinated with 
international and domestic observers in each state and met with a cross 
section of Nigerian political party leaders, election officials, and 
representatives of nongovernmental organizations.
    The delegation's mission is intended to assess in an impartial and 
nonpartisan manner the evolving political environment, to offer a 
report on the presidential elections, and to demonstrate the support of 
the international community for Nigeria's developing democratic 
process. Although the international community may well play an 
important role in supporting Nigerian democracy, it will ultimately be 
the people of Nigerian who will determine the legitimacy of the 
elections and the transition process.
Transition from Military Rule
    This election represents the final electoral step in the process of 
transition from military rule to civilian government. Throughout this 
process The Carter Center and NDI have been impressed by the 
determination of Nigerians throughout the federation to realize 
democratic government. The Nigerian people have expressed their desire 
for a rapid end to military rule, both through voting and through other 
forms of popular expression, including the media and public forums. In 
addition, we are encouraged by the firm commitment of the present 
military government to adhere to their transition schedule and to 
achieve a prompt handover to civilian rule on May 29.
Conduct of the Election
    We noted many positive elements of the election process, including 
the peaceful conduct of the balloting and the pre-election campaign, 
the general lack of intimidation of voters, and the thorough and fair 
coverage by the Nigerian media. In addition, in many locations the 
voting process followed INEC procedures. We also wish to commend many 
INEC officials, party agents, security officers, and local government 
officials who helped to ensure proper conduct of the elections in these 
localities. Millions of Nigerian voters also showed patience and 
commitment in following procedures and taking the time to cast ballots.
    Although there were many positive features of the presidential 
election, members of the delegation also observed a number of serious 
malpractices in certain places. These included:

          Inflated vote returns--At polling sites in at least nine 
        states, particularly in the South-South zone, we observed 
        turnout that was sharply lower than that reported at a 
        statewide level. In general, our observers estimated 
        participation averaging twenty percent at the polling stations 
        we visited. We also observed a distressingly low participation 
        of women voters in many areas. In some places, the reported 
        figures appeared to be so inflated that it was impossible to 
        ascertain who actually won the election in that area.
          Ballot Box Stuffing--Several observers witnessed instances of 
        ballot box stuffing, including cases of ballots marked by the 
        same persons' fingerprint, or neatly stacked in sequential 
        order inside the boxes.
          Altered results--In many instances, observers recorded low 
        numbers of accredited voters or few voters at polling stations, 
        sometimes less than 10 percent of those registered. During the 
        counting and/or collation processes, later in the day, however, 
        they found that these same polling stations, or adjacent 
        polling stations, reporting considerably higher numbers of 
        voters, sometimes 100 percent. Usually, the voters in these 
        polling stations were entirely for a single party. In several 
        wards, we noted that a few polling units with extremely high 
        returns could determine the outcome for the entire ward. 
        Observers saw apparent instances where inflated tally sheets 
        were substituted for the original sheets at counting centers. 
        At many polling stations where we witnessed irregularities, it 
        appeared that party agents and/or polling officials were 
        involved in malpractice.
          Disenfranchisement of voters--Observers noted some wards 
        where voters were denied their opportunity to vote because 
        ballots were delivered at the end of polling and in 
        insufficient numbers.

    Another matter of concern was inconsistent application of INEC 
procedures. These included: the lack or non-use of indelible ink at 
many polling stations, failure to ensure ballot secrecy, late poll 
openings, and a failure to adhere to a separate accreditation process. 
This was seen in most areas. However, the delegation made a clear 
distinction between those procedural difficulties that did not appear 
to have an adverse effect on the conduct of this election, and those 
malpractice which clearly distorted the poll results in some 
localities.
Resolving Electoral Disputes
    While we witnessed a number of abuses, the delegation has no 
systematic evidence indicating that these abuses would have affected 
the overall outcome of the election. Nevertheless these abuses may have 
substantially compromised the integrity of the process in the areas 
where they occurred. We would hope that any credible and documented 
allegations of electoral violations will be investigated by the 
appropriate authorities.
    It is essential that any grievances related to this election be 
decided according to the rule of law in a transparent manner, and 
though those procedures that are consistent with democracy.
Recommendations for Development Democracy
    Throughout this transition and beyond, Nigerians must confront a 
number of challenges in order to consolidate a democratic system of 
government. In the spirit of international cooperation, The Carter 
Center and NDI would like to offer the following recommendations for 
advancing democracy in Nigeria.
The Electoral Process
    Provide adequate civic education for political parties, polling 
officials, and voters to ensure adherence to basic electoral laws and 
democratic procedures. Strengthen INEC's role as an effective, arms-
length regulatory body that can ensure a fair and legitimate electoral 
process. Promote strict enforcement of Nigeria's electoral laws and 
regulations to prevent fraud and to increase confidence in democratic 
institutions and precesses.
    Party Development. Political parties should take the opportunity to 
build stronger links with their constituencies, and elaborate clear 
positions on key issues of concern to the nation. There must be a move 
away from the much criticized politics of money, and winner-take-all 
contests. Ruling and opposition parties alike must work cooperatively 
to establish common rules of democratic conduct.
    Civil Society. Throughout the transaction, members of this 
delegation have been impressed by the conscientious efforts of civic 
groups to educate voters, monitor elections, mobilize constituencies, 
and bring important issues into the public arena. The Transition 
Monitoring Group (TMG), in particular, has formed an effective network 
of nongovernmental organizations that can continue to serve a vital 
role in promoting popular political participation. These organizations 
and others can play a crucial watchdog role in safeguarding the 
integrity of democracy. In addition, there are many human rights 
organizations, women's organizations, democratic development groups, 
independent journalists, and popular interest groups active in public 
life. Their efforts should be encouraged by Nigerians and supported by 
the international community.
    Institutions of Democracy. Nigeria's emerging democracy needs a 
sound foundation in effective and responsive institutions. The adoption 
of a broadly accepted constitution, including the protection of 
minority group rights, will be a critical early step in this precess. 
An emphasis on federalism at all three levels of government is 
important as well. A reinvigorated judiciary would provide an essential 
contribution to maintaining the rule of law.
    Civilian-Military Relations. Efforts should be make to integrate 
the military into a democratic society. Civilian leaders should develop 
the mechanisms and knowledge needed to oversee and managed security 
affairs.

                                 ______
                                 

        Prepared Statement of Bronwen Manby, Human Rights Watch

    Thank you, Chairman, for your invitation to Human Rights Watch to 
address the subcommittee on the issue of human rights in Nigeria. My 
name is Bronwen Manby and I am a researcher working on Nigeria in the 
Africa Division of Human Rights Watch. Human Rights Watch has monitored 
the situation in Nigeria for several years, and has issued numerous 
publications about human rights violations in that country, most 
recently focusing on the situation in the oil producing regions of the 
Niger Delta.
    The situation in Nigeria has substantially improved over the last 
year. Following the death of Gen. Sani Abacha in June 1998, the 
unprecedented repression he visited on the Nigerian people was relaxed 
during the interim government of Gen. Abdulsalami Abubakar. The 
inauguration of President Olusegun Obasanjo on May 29, 1999, brings 
some hope that the long series of military governments in Nigeria may 
be over. The U.S. government has responded to these developments by re-
engaging with Nigeria, and numerous delegations have traveled to the 
country, including a high-level interagency assessment team--whose 
report, however, has not yet been made public. Secretary of State 
Madeleine Albright is currently in Africa and will visit Nigeria.
    While acknowledging the improvements that have taken place, Human 
Rights Watch would like to highlight our ongoing concerns, and raise 
issues for U.S. policy towards Nigeria in connection with those 
concerns. These include defects in the electoral process and the lack 
of a democratically drafted constitution, as well as the need for 
restoration of the rule of law and support for the process of 
investigating past violations. I will focus in more depth on the 
situation in the Niger Delta, which has the potential to derail the 
entire experiment in democracy now going forward. Finally, I will also 
address briefly U.S. military and police assistance to Nigeria.
                    defects in the electoral process
    When he took office, General Abubakar canceled, the ``transition 
program'' established by General Abacha, released political prisoners, 
and instituted a fresh transition program under conditions of greater 
openness. Local, state, and national elections were held in December 
1998 and January and February 1999, which led to the inauguration of a 
civilian government, headed by former military head of state President 
Olusegun Obasanjo. Although most international and domestic observers 
of the elections welcomed their peaceful completion as an important 
step forward in the return of Nigeria to civilian government, they also 
noted serious flaws in the process at all stages. These irregularities 
included vastly inflated figures for voter turnout, stuffing of ballot 
boxes, intimidation and bribery of both electoral officials and voters, 
and alteration of results at collation centres. The irregularities were 
widespread, but were particularly serious in the South-South zone of 
the country, the Niger Delta region. In addition, the party primaries, 
including the presidential primary of the Peoples' Democratic Party 
(PDP) which led to the selection of Obasanjo as the presidential 
candidate, were marked by blatant purchasing of votes. At local and 
state level, candidates selected by party members from the district 
were frequently replaced at the instance of party leaders, without 
following proper procedures.
U.S. Policy Implications
    Human Rights Watch urges the U.S. government to work with state 
institutions and nongovernmental organizations in order to strengthen 
the links between the current government structures and their 
constituents and to ensure that the next elections held in Nigeria do 
represent a more genuine process. We also urge a review of the manner 
in which election monitoring is carried by U.S.-funded groups: it is 
important that election monitoring missions do not simply legitimize 
illegitimate processes.
           the lack of a democratically drafted constitution
    The constitution that came into force in Nigeria on May 29 was 
promulgated by General Abubakar only three weeks before the new 
government was inaugurated, following an unrepresentative drafting 
process that took place virtually without consultation with the 
Nigerian people. The 1999 constitution was finalized by a panel 
appointed by General Abubakar and adopted by the military Provisional 
Ruling Council. There is a consensus among Nigerian civil society 
organisations that the process by which the constitution was adopted 
was illegitimate and that the arrangements in relation to a number of 
crucial areas, including human rights and the rule of law, the 
structure of the Nigerian federation and the system for revenue 
allocation and resource management, are not acceptable.
    The constitution's content raises a number of human rights 
concerns. For example, section 315(5) of the constitution provides that 
``Nothing in the constitution shall invalidate'' a set of laws, 
including the controversial National Security Agencies Act and Land Use 
Act, which in addition can only be repealed or amended by a special 
majority of the National Assembly and Senate. Section 6 of the National 
Security Agencies Act provides that the president may make any law to 
confer powers on the Defence Intelligence Agency, the National 
Intelligence Agency and the State Security Services. The Land Use Act 
provides the government with an extraordinary and often arbitrary 
degree of control over land; its repeal is one of the central demands 
of groups protesting oil production in the Niger Delta area. As a 
result of section 315(5) of the constitution, these laws cannot be 
challenged in any court of law as being unconstitutional. The 
provisions relating to independence of the judiciary are also not 
satisfactory, and the constitution fails to provide for the national 
Human Rights Commission established under General Abacha, which has, 
against all the odds, been able to carry out some useful work, and 
should be strengthened.
    On September 9, the National Assembly announced the initiation of a 
review of the 1999 constitution. The Senate passed a motion for the 
Senate committee on the judiciary to liaise with the House of 
Representatives and state legislatures for this purpose. Civil society 
organizations are responding with an initiative to coordinate input to 
the process and promote popular participation.
U.S. Policy Implications
    In many ways the lack of a legitimate constitution is the 
fundamental problem facing Nigeria, with knock-on effects on good 
governance, corruption, economic policy, as well as human rights and 
the rule of law. It is very important that the constitutional review 
process be inclusive and transparent so that it can succeed in drafting 
a new constitution which will be legitimate in the eyes of all 
Nigerians. The U.S. government should offer financial and technical 
assistance, as well as diplomatic support, for this process.
 restoration of the rule of law: repeal of military decrees, reform of 
              the justice system and recognition of ngo's
    Immediately before the handover of power to President Obasanjo, 
General Abubakar announced the repeal of a number of military decrees 
that had permitted a wide range of acts in violation of international 
human rights law. While a most welcome step, the many years of military 
rule in Nigeria have built up a large body of other laws that reflect 
their military origins and infringe on the rights of the Nigerian 
people. The U.S. should urge the Nigerian government to institute a 
comprehensive process of review of the laws in force, in conjunction 
with the national Human Rights Commission and the nongovernmental human 
rights community, with a view to the repeal or amendment of those that 
do not comply with the international human rights standards to which 
Nigeria is committed. Among the laws that should be examined are the 
Public Order Act and the National Drug Law Enforcement Agency Decree.
    The new civilian government has made commitments to respect the 
rule of law. The minister of justice has announced that the government 
intends to respect court orders issued against it; a major step 
forward, if the commitment is real. The government has also stated that 
it is committed to improving prison conditions, building on the 
improvements gained by the release of several thousand prisoners from 
overcrowded jails over the last year, many of them held for years 
without trial. A number of states have disbanded the notoriously 
abusive paramilitary anti-crime units established under the military 
government, replacing them with units that do not include soldiers. 
These include Operation Sweep in Lagos State, replaced by a new Rapid 
Response Squad, and Operation Flush in Rivers State, replaced by a 
Swift Operations Squad. The methods used by the new units seem, 
however, to resemble those of their predecessors. On June 25, 1999, for 
example, Adewale Adeoye, chairman of Journalists for Democratic Rights, 
was arrested by members of the Lagos State Rapid Response Squad, 
beaten, and detained overnight. He was held together with sixteen other 
people apparently arbitrarily selected for the purpose of extracting 
the bribes that they paid to be released.
    Human Rights Watch is disturbed to learn that the Corporate Affairs 
Commission, responsible for registration of not for profit 
organizations, recently refused to register four nongovernmental 
organizations (NGOs), the Centre for Democratic Development (CDD), the 
Kudirat Institute for Nigerian Democracy (KIND), Democracy Watch, and 
the Youth League for Democracy, insisting that because they have the 
word ``democracy'' in their names, they are political parties which 
should be registered by the Independent National Electoral Commission 
(INEC). Only a handful of Nigeria's large community of civil society 
organizations are presently registered, because in the past the 
Corporate Affairs Commission, which was created by a decree passed 
during the Babangida regime and is dominated by Abacha's appointees, 
refused to recognize groups that might challenge the government.
U.S. Policy Implications
    Although the reforms announced are welcome, they are only the very 
first steps that are needed. The U.S. government should emphasize the 
urgent need for root-and-branch reform of the administration of 
justice, and for recognition of the NGOs who have the capability of 
assisting the government in accomplishing this challenge. The new 
administration in Nigeria should work with the human rights community, 
as well as the national Human Rights Commission and international 
agencies which can give technical assistance, in order to help restore 
respect for human rights and the rule of law--respect that is essential 
not only for the rights of the Nigerian people, but also to promote the 
sort of external investment that will be necessary to bring Nigeria out 
of its current economic crisis.
             investigation of past human rights violations
    Immediately after he became head of state, President Obasanjo 
announced the appointment of a seven-member commission chaired by a 
retired Supreme Court judge, Justice Chukwudifu Oputa, to investigate 
``mysterious deaths'' and assassinations and other human rights abuses 
under the military governments in office since 1984 and to make 
recommendations to redress past injustices and to prevent future 
violations. Recently, the commission's mandate was extended back to 
1966, the date of the first military coup, and will therefore take in 
the events of the Biafran war. The commission has been widely welcomed 
by human rights groups in Nigeria, though it is not yet clear exactly 
what mandate, powers, or budget it will have, or the date by which it 
will have to complete its investigation and present a report.
U.S. Policy Implications
    Human Rights Watch also welcomes the appointment of this commission 
and believes that it has the potential to play an important role in the 
establishment of a truly new beginning in Nigeria--in the same way that 
the truth commissions in South Africa or Latin American countries have 
done. However, this potential will only be fulfilled if the commission 
is given sufficient powers, political backing and funding to enable it 
to carry out an independent and effective investigation, subpoena 
witnesses, and make recommendations, including for prosecutions where 
appropriate. The U.S. government should support this process, and 
emphasize the importance for the investigation to be a thorough one, 
with full independence from the government, to ensure that the cycle of 
impunity for human rights violations that has been the rule in Nigeria 
is broken.
                    the situation in the niger delta
    The crisis in the oil producing regions is one of the most pressing 
issues for the new government of Nigeria and has the greatest potential 
to lead to a serious deterioration in respect for human rights. The 
Niger Delta has for some years been the site of major confrontations 
between the people who live there and the Nigerian government's 
security forces, resulting in extrajudicial executions, arbitrary 
detentions, and draconian restrictions on the rights to freedom of 
expression, association, and assembly. These violations of civil and 
political rights, which reached a climax during the ``Ogoni crisis'' of 
1993 to 1996, have been committed principally in response to protests 
about the activities of the multinational companies that extract 
Nigeria's oil and the lack of local accountability for the way in which 
the oil revenue is used by the Nigerian government.
    Since the relaxation in repression following the death of General 
Abacha, and in the context of the greater competition within the 
political environment encouraged by the elections and the installation 
of a civilian government, there has been a surge in demands for the 
government to improve the position of the different groups living in 
the oil producing areas. In particular, youths from the Ijaw ethnic 
group, the fourth largest in Nigeria who live in the mangrove forest 
area where the most oil is produced, adopted the Kaiama Declaration on 
December 11, 1998, which claimed ownership of all natural resources 
found in Ijaw territory. In addition there has been an increase in 
criminal acts such as kidnappings of oil company staff in hope of 
ransom payments, and violence among neighboring ethnic groups over 
matters such as the location of local government headquarters, crucial 
in the distribution of oil resources. Just a few weeks ago, in late 
September, demonstrations at the liquefied natural gas (LNG) terminal 
on the Atlantic coast at Bonny, reportedly the largest single 
investment in Africa, delayed Nigeria's first exports of LNG, 
indicating the continuing threat of major disruption to Nigerian 
government revenue.
    In response, large numbers of soldiers and paramilitary Mobile 
Police have been deployed across the delta. Although there is a clear 
need for law and order to be reestablished in those parts of the delta 
where the violence between neighboring ethnic groups has been worst, 
the security forces have both failed to protect civilians from violence 
in many cases, and have also themselves carried out serious and 
widespread violations of human rights. Security force action has often 
been indiscriminate, or targeted at those who have not committed any 
crime but have protested oil production in accordance with their rights 
to freedom of expression, assembly and association. In recent weeks, 
there have been worrisome reports that the government is planning to 
replace troops indigenous to the delta with outsiders. While there are 
concerns that local forces may be partisan in ethnic clashes, it is 
also the case that security detachments made up of outsiders to the 
delta have often been more willing to use lethal force. In all cases of 
bias or abuse by the security forces, the correct government response 
is to discipline those responsible, not to create an environment in 
which abuses become more probable.
    During a military crackdown in late December 1998 and early January 
1999 in response to largely peaceful protests in support of the Kaiama 
Declaration, dozens of young men were killed, most of them unarmed. 
Others were tortured and inhumanly treated; many more were arbitrarily 
detained. In another incident in January 1999, two communities in Delta 
State were attacked by soldiers, using a helicopter and boats 
commandeered from a facility operated by Chevron, following an alleged 
confrontation that took place at a nearby Chevron drilling rig. More 
than fifty people may have died in these incidents. Chevron did not 
issue any public protest at the killings; nor has it stated that it 
will take any steps to avoid similar incidents in the future. As in 
this case, the oil companies operating in Nigeria often fail to 
acknowledge any responsibility when security force action is taken in 
nominal defense of their facilities, although they have in many 
respects contributed toward the discontent and conflict within and 
between communities that results in repressive government responses.
    In May and early June 1999, violence flared up in and around Warri, 
Delta State, where there has been serious conflict since 1997 among the 
Ijaw, Itsekiri, and Urhobo ethnic groups. As in the case of similar 
violence that regularly flares up between different ethnic or religious 
groups elsewhere in the country, there are persistent allegations that 
senior figures in the military have favored one or other side in the 
conflict. Although the agreement of the state government to relocate a 
local government headquarters has brought greater calm, a curfew is 
still in place in Warri town. Repeated inquiries into the Warri 
violence have remained incomplete, or their results unpublished. As 
recently as September, Nigerian government security forces killed an 
unknown but substantial number of people in and around Yenagoa, the 
capital of Bayelsa State, following a confrontation between youths and 
security forces on September 9, in which a soldier was reportedly 
killed. Soldiers carried out indiscriminate retaliatory attacks in 
which several tens of people were reportedly shot and summarily 
executed, including women and children as well as young men.
    President Obasanjo visited the delta area in June 1999 and held 
discussions with local leaders. He traveled again to the delta to visit 
Bonny, following the September demonstrations there. He has promised to 
bring greater development to the delta, and introduced to the National 
Assembly a bill to establish a Niger Delta Development Commission. Most 
leaders of the ethnic groups based in the Niger Delta, however, have 
rejected the bill since it does not address their concerns surrounding 
revenue allocation and resource control and appears likely to duplicate 
similar corruption-ridden bodies created by previous administrations. 
In particular, opponents to the draft bill object to the proposal that 
50 percent of the finance for the commission should come from the 13 
percent of revenue that the 1999 constitution provides shall be 
allocated on a ``derivation principle,'' returning to states from which 
the revenue is derived. In effect, they argue, the commission would 
actually take away money that should already go to the oil producing 
states under the new constitution.
    The level of anger against the federal government and the oil 
companies among the residents of the oil producing communities means 
that further protest is likely, as are further incidents of hostage 
taking and other criminal acts. Yet any attempt to achieve a military 
solution to these problems will certainly result in widespread and 
serious violations of Nigeria's commitments to respect internationally 
recognized human rights. While it is certainly necessary to establish 
the rule of law in the delta, a quiet achieved by repressive means can 
only be temporary and will result in more violence in the longer term.
    To avoid a human rights crisis and achieve a peaceful solution to 
the unrest plaguing the oil producing regions, the new government must 
allow the peoples of the Niger Delta to select their own 
representatives and to participate in decision-making concerning the 
future course of the region. During the recent elections, observers 
noted especially widespread electoral irregularities in Rivers, 
Bayelsa, and Delta States, those most troubled by recent protests. 
These problems make it all the more essential that attempts to address 
the grievances of the delta communities involve discussions with 
individuals who are freely chosen by the communities of the delta and 
with a mandate to represent their interests, rather than with 
individuals chosen by the government as representative. In addition, 
the government must take steps to reestablish respect for human rights 
and the rule of law, and to end continuing human rights violations 
resulting from the deployment of soldiers in the delta region. The 
appropriate response to acts of violence is to arrest and prosecute 
those responsible, not to carry out indiscriminate reprisals against 
the entire population of the oil-producing regions. Those who 
peacefully protest the manner in which oil is currently produced have a 
right to make their voice heard.
U.S. Policy Implications
    The U.S. should urge the Nigerian government, among other steps, to 
appoint a judicial enquiry to investigate ongoing human rights 
violations in the delta, and to discipline or prosecute those 
responsible and compensate the victims. The Oputa commission that is 
investigating past abuses generally has already received submissions 
relating to thousands of cases from Ogoniland. The government should 
take steps to replace soldiers carrying out policing duties in the 
Niger Delta area and elsewhere with regular police with training in 
public order policing and ensure that those police deployed have been 
vetted to exclude abusive officers. The government should institute an 
immediate, inclusive and transparent process of negotiation with freely 
chosen representatives of the peoples living in the Niger Delta to 
resolve the issues surrounding the production of oil.
    The U.S.-based oil companies operating in Nigeria, especially 
Chevron, Mobil and Texaco which operate joint ventures with the 
Nigerian government, also share a responsibility to ensure that oil 
production does not continue at the cost of violations of the rights of 
those who live in the areas where oil is produced. Given the 
deteriorating security situation in the delta, it is all the more 
urgent for the companies to adopt systematic steps to ensure that the 
protection of company staff and property does not result in summary 
executions, arbitrary detentions, and other violations. Systematic 
monitoring and protest of human rights violations by the government, 
and steps to ensure that the companies themselves are not complicit in 
such human rights violations, are more important than ever. Although it 
is denied, companies clearly pay ransom money when their employees are 
taken hostage, and also make payments to youths who occupy company 
installations in order to allow production to continue. These payments 
create an incentive for further disruption. Human Rights Watch has 
developed detailed recommendations to oil companies in its recent 
reports The Price of Oil: Corporate Responsibility and Human Rights 
Violations in Nigeria's Oil Producing Communities (February 1999) and 
Crackdown in the Niger Delta (May 1999), of which copies have been 
supplied to the subcommittee.
       resumption of u.s. assistance to nigeria's security forces
Military
    The unrest in the delta raises particular concerns in relation to 
the resumption of U.S. military assistance to Nigeria now that a 
civilian government has been installed and U.S. sanctions lifted. Human 
Rights Watch believes that any military assistance given to Nigeria, 
including under the International Military Education and Training 
(IMET) program, should include strict human rights conditions. In 
particular, resumption of military assistance must be in the context of 
a well-thought out strategy for increasing the democratic 
accountability of the Nigerian military, while emphasizing that any 
future attempt by the military to seize power will be met with tough 
sanctions.
    The U.S. government should enforce Section 570 of the Foreign 
Operations Appropriations Act, the so-called Leahy amendment, in 
relation to Nigeria, and should monitor military units that receive 
U.S. military aid. The Leahy amendment prohibits funds from being 
provided to any unit of the security forces of a foreign country if the 
secretary of state has credible evidence that the unit has committed 
gross violations of human rights, unless the secretary determines and 
reports to Congress that the government involved is taking effective 
measures to bring the responsible members of the security forces unit 
to justice. In this context, support for the commission chaired by 
Justice Oputa, and for prosecutions of military officials and others 
based on information received by the commission, could be of particular 
importance.
    Strict control must be exercised over any military materiel 
supplied to the Nigerian government, for example for use by the 
Nigerian component of the peacekeeping forces in Sierra Leone, to 
ensure that it is cannot be transferred for use in other contexts where 
human rights violations are likely, for example in the Niger Delta.
    The U.S. government should take steps to screen any Nigerian army 
officers selected to benefit from U.S. training to ensure that those 
who have been responsible for human rights violations in the past are 
not included.
Police
    Similar issues arise in relation to U.S. assistance for Nigeria's 
police force. While there is a clear need for the Nigerian police to 
achieve a higher standard of training and operations, any U.S. 
assistance in this regard should be subject to careful conditions. In 
particular, any assistance must be developed in consultation with 
Nigerian civil society and should begin with support for radical reform 
of the police, including the drafting of new legislation to replace the 
colonial law that currently regulates policing. The U.S. government 
should also press for greater accountability for abuses, judicial 
reform, and other structural changes, including rooting out rampant 
police corruption. If U.S. training is offered, individuals receiving 
training should be screened, in discussion with Nigerian human rights 
groups, to ensure that well-known abusers are not among them, and the 
content of training should be focused on skills aimed at reducing the 
use of force.
    Human Rights Watch was disturbed to learn, from testimony to the 
House Subcommittee on Africa in August by David Miller, a 
representative for the Corporate Council on Africa, that American oil 
companies are considering funding ``modest efforts to provide training 
and non-lethal support for Nigeria police officials with responsibility 
for their area of operations.'' While he also stated that ``any 
comprehensive re-training of the Nigerian police force on modern 
methods and techniques needs the legitimacy and scope of a government-
to-government or other international program,'' Human Rights Watch 
would like to place it on record that we believe any initiative in 
relation to assistance for the security forces should be on a fully 
transparent basis and take into account the concerns we have raised 
here.
                               conclusion
    In conclusion, Mr. Chairman, Human Rights Watch believes that the 
developments in Nigeria over the last year offer a real hope that the 
country can take its rightful place as a leader of the African 
continent and that its citizens can enjoy the respect for human rights 
to which they are entitled. However, the new government faces huge 
obstacles in achieving this goal in the face of the pattern of 
widespread and systematic abuse that has inherited from its 
predecessors, especially considering the shaky electoral foundations on 
which it stands. In particular, we are deeply concerned that the 
government, or elements within it, may be tempted to respond violently 
to the discontent in the Niger Delta, a response that would 
catastrophically reverse progress towards respect for human rights in 
Nigeria as a whole. The U.S. government can play an important role in 
supporting legal and practical reforms by the Nigerian government 
through technical assistance and diplomatic pressure, and by assisting 
civil society organizations working towards increased respect for human 
rights. U.S. military and police assistance to Nigeria should be 
carefully tailored in the context of an overall plan for reform to 
ensure that it cannot be used to benefit officers who have been 
responsible for human rights violations or in situations where human 
rights violations are likely. The U.S. should also make clear to the 
Nigerian government that any attempt to resolve the crisis in the delta 
in a way that does not respect the rights of those who live in the oil 
producing regions is unacceptable. Equally, the administration should 
insist to the U.S. oil companies working in Nigeria that they must play 
their part in ensuring that oil production does not continue only due 
to the threat or actual use of force against those who protest their 
activities.

                                 ______
                                 

                                NIGERIA

  Executive Summary of the U.S. Inter-Agency Assessment Team's Report

supporting a new path to democracy, prosperity and leadership--october 
                                1, 1999

                                Acronyms

ABB--Asea Brown Boveri
ACILS--American Center for International Labor Solidarity
ACRI--Africa Crisis Response Initiative
AD--Action for Democracy
ADEA--Association for the Development of Education in Africa
ADP--Agricultural Development Program
AERC--African Economic Research Consortium
AFSI--Africa Food Security Initiative
APHIS--USDA's Animal and Plant Health Inspection Service
APP--All People's Party
ATRIP--Africa Trade and Investment Program
BBC--British Broadcasting Corporation
BCG--Bacillus Calmette-Guerin (tuberculosis vaccine)
CAREMIS--Current Agricultural Management Information System
CCA--Consultative Committee on Agriculture
CIDA--Canadian International Development Agency
CIMMYT--International Maize and Wheat Improvement Center
CLDP--Commercial Law Development Program
CPR--Contraceptive Prevalence Rate
DATT--Defense Attache
DEA--Drug Enforcement Agency
DFID--British Department of International Development (Formerly ODA)
DOD/OSD--Department of Defense/Office of the Secretary of Defense
DOE--Department of Energy
DOJ--Department of Justice
DOS--Department of State
DOT--Department of Transportation
DPKO--Department of Peacekeeping Operations
DPT--Diptheria, Pertussia, Tetanus (vaccine)
DSCA--Defense Security Cooperation Agency
ECOMOG--Economic Community of West African Monitoring Group
ECOWAS--Economic Community of West African States
EDA--Excess Defense Articles
EDDI--Education for Development and Democracy Initiative
EMCAP--World Bank's Economic Management Capacity Project
ENI--Bureau for Europe and the New Independent States
ESAF--Enhanced Structural Adjustment Facility
ESF--Economic Support Fund
EU--European Union
EXIM--Export Import Bank
FAA--Federal Aviation Agency
FAAN--Federal Airport Authority of Nigeria
FACU--Federal Agricultural Coordinating Unit
FAS/ITP--Foreign Agriculture Service/International Trade Policy
FBI--Federal Bureau of Investigations
FCC--Federal Communications Commission
FCT--Federal Capitol Territory
FERC--Federal Energy Regulatory Commission
FINCEN--Financial Center
FMF--Foreign Military Funding
FSN--Foreign Service National
GDP--Gross Domestic Product
GE--General Electric
GIS--Global Information System
GNP--Gross National Product
GON--Government of Nigeria
HIV/AIDS--Human Immuno-Deficiency Virus/Acquired Immune Deficiency 
        Syndrome
HRDO--Human Resources Development Office
ICAO--International Civil Aviation Organization
ICASS--Internal Cooperative Agreement Support and Services
ICITAP--DOJ's International Criminal Investigative and Training 
        Assistance Program
IEC--Information, Education, and Communication
IFC--International Finance Corporation
IMET--International Military Education and Training
IMF--International Monetary Fund
INL--International Narcotics and Law Enforcement Affairs Bureau (DOS)
INS--Immigration and Naturalization Service
IPPS--Independent Power Producers
IRS--Internal Revenue Service
JACC--United States-Nigeria Joint Agricultural Consultative Committee
JCET--Joint Combined Exchange Training
JEPC--United States-Nigeria Joint Economic Partnership Committee
JICA--Japan International Cooperation Agency
JSS--Junior Secondary School
LGA--Local Government Authority
LGAS--Local Government Areas (Nigerian Local Government)
MEDFLAG--Military Medical Exercise
MLAT--Mutual Legal Assistance Treaty
MMIA--Murtala Mohammed International Airport
MOD--Ministry of Defense
MOH--Ministry of Health
MOJ--Ministry of Justice
MPRI--Military Professional Resources Incorporated
MSF--Medicines Sans Frontiers
MW--Megawatt
NDLEA--National Drug Law Enforcement Agency
NEPA--National Electric Power Authority
NGO--Non-Governmental Organization
NTPC--Nigerian Investment Promotion Comission
NLC--Nigerian Labor Congress
NNPC--Nigerian National Petroleum Commission
NPF--Nigerian Police Force
NPI--National Program of Immunization
NPP--National Population Policy
NRCS--Natural Resources Conservation Service
NSC--National Security Council
NSDD-38--National Security Decision Directive-38
OGE--U.S. Office of Government Ethics
ONDCP--Office of National Drug Control Policy
OPIC--Overseas Private Investment Corporation
OPDAT--Office of Overseas Prosecutorial Development and Training
OTI--Office of Transition Initiatives/Bureau for Humanitarian Affairs, 
        USAID
PCU--Policy Coordination Unit
PDP--People's Democratic Party
RH--Reproductive Health
RLA--Resident Legal Advisor
RUF--Revolutionary United Front
STD--Sexually Transmitted Disease
TA--Technical Assistance
TBD--To Be Determined
TDA--Trade and Development Agency
TDY--Temporary Duty
TIFA--Trade and Investment Framework Agreement
TN--Transparency International of Nigeria
TMG--Transition Monitoring Group (Nigerian NGOs)
UK--United Kingdom
UNDP--United Nations Development Program
UNFPA--United Nations Family Planning Association
UNPAERD--United Nations Program of Action for African Economic Recovery 
        and Development
USAID--United States Agency for International Development
USCS--United States Customs Service
USDA/FAS--United States Department of Agriculture/Foreign Agriculture 
        Service
USDH--United States Direct Hire
USEUCOM--United States European Command
USG--United States Government
USIA--United States Information Agency
USIS--United States Information Service
USPSC--United States Personal Services Contract (employee)
USSS--United States Secret Service
USTR--United States Trade Representative
WATC--West African Training Cruise
WCARRD--World Conference on Agrarian Reform and Rural Development
WHO--World Health Organization
WTO--World Trade Organization
WTO--World Trade Organization

                                NIGERIA:

     SUPPORTING A NEW PATH TO DEMOCRACY, PROSPERITY AND LEADERSHIP

      A Summary of the U.S. Inter-Agency Assessment Team's Report

                            i. introduction
    After years of oppressive military rule, Nigeria turned a new 
democratic page in its history with the May 1999 inauguration of 
President Olusegun Obasanjo. Since June 1998, Nigeria has successfully 
completed democratic elections at the local, regional, and national 
levels. Nigerians as well as the international donor community have 
welcomed the transition to democracy, and engagement and partnership 
have replaced Nigeria's isolation by the international community.
    The Obasanjo administration is well aware of the challenges and 
opportunities that Nigeria faces and is determined to put Nigeria on 
the right path to sustainable economic development. Nigerian government 
officials, private sector leaders, and civil society organizations 
recognize that any strategy must include a focus on reducing 
corruption, improving human capacity, especially at the governmental 
level, and promoting national reconciliation to mend the wounds of 
military rule. Nigerian people and their newly elected leaders are 
willing to seek the advice and assistance of the international 
community within the context of their defined development needs.
    United States Secretary of State Madeleine Albright has identified 
Nigeria as one of the four priority countries for U.S. assistance to 
support a democratic transition. As a clear demonstration of the United 
States Government's (USG) commitment to Nigeria's transition, an Inter-
Agency Assessment Team went to Nigeria from June 19 to July 2, 1999. 
The assessment team was co-led by Keith Brown, USAID Deputy Assistant 
Administrator for Africa, and Ambassador Howard Jeter, Deputy Assistant 
Secretary of State for African Affairs. The team was comprised of 17 
members from the U.S. Agency for International Development and the 
Departments of State, Agriculture, Commerce, Defense, Energy, Justice 
and Transportation.
    The primary objective of the assessment team was to discuss in a 
participatory manner with Nigerian Government officials, members of the 
private sector and civil society, and international multilateral and 
bilateral donors, ways to support Nigeria's successful transition to a 
peaceful, democratic and economically stable country. The assessment 
focused on the following six major sectors:

Military and Civil-Military Relations
Economic Development Reform and Growth
Political Structures and Democracy
Infrastructure
Agriculture
Social Sectors (Health & Education)

    The team identified and outlined common approaches to three major 
cross cutting themes: corruption, lack of human capacity to implement 
change, and conflict. It also identified areas of potential assistance 
based on available resources and the USG comparative advantage, 
possibilities for integrating U.S. government programs in providing 
assistance and opportunities for cooperating and collaborating with 
other donors. The team identified the challenges and provided 
recommendations for assistance within two timeframes. The first 
timeframe includes high priority actions and activities for immediate 
implementation within the first 6-month period to help keep the 
democratic transformation process on track. The second timeframe 
involves priority actions and activities for implementation over a 
medium-term timeframe of 6 to 18 months. While important to supporting 
the democratic transformation process, these medium-term actions and 
priorities are not deemed critical to the process, but are extremely 
important to shaping a longer-term development program.
    The assessment team traveled to four regions including the capital, 
Abuja, and held intensive discussions with Nigerians from every sector 
of society. In a June 23rd meeting with President Olusegun Obasanjo, 
Vice-President Abubakar Atiku and high-ranking officials of the new 
government, the Assessment team was presented with the Government of 
Nigeria's priorities. On June 30, the co-team leaders, a third member 
of the Assessment Team, and the American Ambassador briefed President 
Obasanjo, Vice-President Atiku, and other ranking members of the 
Government of Nigeria (GON) on the Assessment Team's findings and 
conclusions.
    It is also important to note that no attempt has been made to 
strategically prioritize or package the recommendation made in this 
report. The issue of securing the resources necessary to implement the 
proposed interventions also has not been addressed. This summary 
highlights the salient recommendations of the team's Assessment Report 
entitled, ``Supporting a New Path to Democracy, Prosperity and 
Leadership.''
             ii. nigeria's importance to the united states
    Provided sufficient financial and human resources are made 
available, this new era offers the United States a unique opportunity 
to help ensure Nigeria's successful transition to a healthy, modern, 
democratic, and economically independent state. Nigeria is a primary 
U.S. trading partner in Africa. It is the fifth largest supplier of 
imported oil to the United States. The United States is also Nigeria's 
primary foreign investor with an estimated $7 billion in existing 
assets. Nigeria's economic transformation and resurgence will have an 
enormous, positive impact on regional economic development and create 
billions of dollars in opportunities for new economic ties with the 
United States through exports and other sales and commercial ventures.
    Additionally, Nigeria has played a key role in supporting the 
Economic Community of West Africa Monitoring Group's (ECOMOG) efforts 
to end conflicts in Liberia and Sierra Leone that have threatened 
stability in West Africa. A non-democratic, economically crippled 
Nigeria would not only destabilize West Africa, but would have serious 
implications for the United States. The humanitarian impact of a 
collapsed Nigeria with millions of refugees and displaced persons would 
be incalculable. The international burden would cost billions of 
dollars, which the U.S. would pay a substantial share in costly 
programs of regional stabilization.
    Democracy is the best guarantor of universal human rights. It 
produces long-term economic growth as well as social and political 
stability. In supporting the spread of democracy, the United States is 
simultaneously promoting American values while helping create a more 
stable, secure, and cooperative global arena in which to advance all 
U.S. interest.
    It is in our national interest to assist Nigeria's efforts to 
rebuild its economy, heal national and ethnic divisions, and advance 
its democratic agenda. It is for this reason that the President waived 
Nigeria's narcotics decertification this year, to enable meaningful 
forward movement in areas of shared concern.
                         iii. country overview
    In the 39 years of independence from colonial rule, Nigeria has 
been governed for only ten years by a democratically elected civilian 
government. The most recent episode of military rule began with the 
overthrow of a civilian regime first elected in 1979. It ended in 1998 
with the death of Nigeria's military leader General Sani Abacha and the 
fulfillment of a long-delayed promise by the military of a return to 
civilian rule. The 1998 and 1999 state, regional and national elections 
culminated in the May 1999 inauguration of Olusegun Obasanjo. Despite 
the national and international euphoria over the return to civilian 
rule, the elections must be seen as only a first step in addressing 
Nigeria's problems. Nigeria's newly elected civilian government faces 
daunting challenges. Apart from the normal policy issues that any 
national government must address--basic services, fiscal and monetary 
policy, foreign policy--three issues which have plagued Nigeria since 
independence in 1960 remain:

  <bullet> the role of the military inside of Nigeria;
  <bullet> religious, tribal and regional conflicts and the resultant 
        insecurity; and
  <bullet> good governance, especially controlling corruption and 
        developing broad-based economic growth.

A. Military
    The military, although no longer in control, still wields 
considerable power in Nigeria. It will continue to be an important 
presence in this democratic transition if civilian and military 
leadership do not define the proper role for the military, a role that 
is both honorable and circumscribed. The transformation from a military 
regime to a civilian regime will require a process of divestiture of 
all non-security and non-military powers and appointments into civilian 
hands. But this must be done simultaneously with addressing issues 
regarding the professionalization of the military and its social 
welfare concerns.
B. Economic
    Nigeria has abundant natural resources and substantial human 
resources in the form of an educated urban elite, innovative 
entrepreneurs and private sector participants with knowledge of 
international business standards and practices. Its deposit of natural 
gas may be the world's largest and could power not only its own growth 
but also all of West Africa's. Nigeria's agricultural potential is 
largely untapped and could provide jobs and food for Nigerians and 
others. However, years of poor incentives, limited access to credit and 
technology, and a negative investment environment have taken a heavy 
toll on the economy.
    Nigeria's economy has been relatively stagnant and inflation prone 
since 1992. It is hamstrung by a top-down, ineffective but pervasive 
state control and intervention. Nigeria's state-run economic structures 
have been reinforced with rigorous military discipline. Corruption has 
become institutionalized into the fabric of society at all levels.
    Real incomes in Nigeria have actually fallen in the last two 
decades. Sharp declines in oil prices in 1998 cost Nigeria around 50 
percent of its expected export revenues and a large share (an estimated 
40 percent) of government revenue. Oil sales account for 95% of 
Nigeria's export revenue. In 1998, real GDP contracted by some 1.8 
percent and is expected to contract again in 1999 despite rebounds in 
oil prices. Despite important economic steps taken under former Head of 
State Abubakar (e.g., unification of the exchange rate) per capita 
income in Nigeria is roughly $300. Poverty levels may be as high as 60 
percent; unemployment and underemployment affect at least half the 
labor force.
    Nigeria's 1999 current account deficit is estimated to be roughly 
15 percent. The budget deficit is expected to reach nearly 8 percent of 
GDP. Nigeria's external debt is roughly $30 billion--and annual debt 
service payments are approximately $2 billion--relative to current 
annual exports ofjust under $20 billion. This debt overhang is almost 
equal to one half of Nigeria's GDP. While Nigeria's debt service ratio 
is not nearly as serious as that of many other African countries, the 
existence of such a large debt reduces the government's ability to 
finance the social sector programs and frightens off private investors.
    Another looming issue is the economic impact of HIV/AIDs on 
Nigeria's growth and poverty alleviation efforts. The problem may be 
larger than assumed and growing; unchecked now, it could devastate 
Nigeria's labor forces over the next decade.
                        iv. challenges/strategy
    The next 18 months are perhaps the most critical period in 
Nigeria's postcolonial history and may well determine the fate of the 
country's democratic experiment. What happens in Nigeria will affect 
the future of the African continent. It could also affect the ability 
of the United States to achieve its multi-faceted goals in Africa. The 
United States can and should play a major role in helping Nigeria 
realize its great potential. However, it is the Nigerians who must 
decide their own destiny.
A. Military and Civil-Military Relations
    Challenge: The future of Nigeria is tied to the future of the 
Nigerian military. In the near term, there is little prospect for the 
reemergence of military rule, but after 30 years of military regimes, 
it is commonly seen as a viable and threatening alternative. Nigerians 
are proud of their role as a regional peacekeeper and understand that, 
for their nascent democracy to survive, the military must be brought 
into partnership and incorporated fully into society. Nigeria needs a 
military force that will defer to civilian authority and accept its 
subordinate role in a constitutional democracy.
    Under the military government, the military high command controlled 
all political judicial and parastatal corporation appointments. It also 
had a tight grip on the national budget, business, and financial 
sectors. All economic policies and laws were enacted by military 
decree. The impact of this control was the permeation of a centralized, 
autocratic way of doing business in Nigerian public and private sector 
institutions, commonly referred to as the ``militarization'' of 
society.
    Strategy: The USG could assist the GON to undertake a comprehensive 
military reform, structure appropriate, strong civilian institutions to 
ensure civilian control over the military, and gradually begin to 
transform a militarized culture into a democratic, free enterprise 
system. The USG could assist Nigeria with training and 
professionalization of the armed forces and depoliticization of 
officers.
            Illustrative Immediate Action/Activities (1-6 months)
  <bullet> Provide technical assistance to develop an action plan for 
        military reform with civilian participation, and conduct 
        seminars to discuss the action plan and civil-military issues 
        with military and civil society leaders;
  <bullet> Provide technical assistance to the Obasanjo administration 
        for the creation of a Department (Ministry) of Defense and 
        related civilian institutions for executive branch civil-
        military relations;
  <bullet> Provide technical assistance to the National Assembly for 
        the creation and development of legislative oversight and 
        budgetary control functions;
  <bullet> Conduct seminars with civil society, especially business 
        organizations, to develop strategies for reintegration of 
        retired and down-sized military personnel; and
  <bullet> Conduct seminars with civil society, especially pro-
        democracy and human rights groups, religious leaders, and 
        organized labor, to develop strategies for the 
        ``demilitarization'' of society and support civil-military 
        reform.
            Illustrative Medium-term Actions/Activities (6-18 months)
  <bullet> Provide Military Medical Exercise and Joint Combined 
        Exchange (JCET) training for FY 2000;
  <bullet> Based on consultations and the approval of the GON provide 
        Africa Crisis Response Initiative (AFCRI) training for two 
        battalions and a brigade headquarters staff, and institute a 
        regular series of exchanges and visits between the Nigerian 
        Minister of Defense and the U.S. Department of Defense; and
  <bullet> Assign a naval attache to Nigeria.
B. Economic Development Reform and Growth
    Challenge: The Nigerian economy needs to grow more than 4% per 
year, and could achieve growth rates comparable to the Asian tigers in 
their expansionary phase. In order to achieve this goal, the GON must 
establish an economic tone and direction to identify specific policies 
and programs, and build the institutional capacity and political will 
for reforms and innovation, which will spur growth and maximize the 
support of the international community for President Obasanjo's 
ambitious economic agenda.
    Strategy: The U.S. Government working with multilateral 
organizations, would work directly with the Government of Nigeria and 
Nigerian society to assist in identifying shortterm and long-term 
economic priorities and options. This includes assistance to improve 
the capacity of the GON to formulate a widely supported economic 
program and to implement economic reform policies in collaboration with 
financial institutions and donors. Additionally, assistance could be 
provided to encourage the development of cost effective improvements in 
economic infrastructure and supplies.
    The USG could help build the human and institutional capacity 
needed to achieve visible economic improvements within the next 18 
months. A focus could be placed on identifying and eliminating 
obstacles to private investment, improving financial management, 
increasing transparency and efficiency of government agencies, and 
identifying options to increase resources and service delivery at state 
and local levels. Assistance could be provided to enhance Nigerian 
institutions' economic and policy analysis capabilities. Additionally, 
the USG could improve commercial ties between the United States and 
Nigerian in both the private and public sectors.
            Illustrative Immediate Actions/Activities (1-6 months)
  <bullet> Provide two to three senior economic consultants to meet 
        with President Obasanjo and his inner policy circle, preferably 
        in advance of the Paris CG, to assist in clarifying options and 
        priorities and the establishment of a coherent economic 
        approach;
  <bullet> In consultation with the World Bank and the European Union, 
        provide short term economic and other technical experts to 
        assist the National Planning Commission and other relevant GON 
        Ministries and bodies in developing, publishing and 
        disseminating a national economic strategy linked to a 
        realistic budget;
  <bullet> Provide short term economic experts to provide expertise to 
        the committees and ministries of the federal government to 
        study specific economic issues and formulate initial policy 
        options and implementation strategies;
  <bullet> Provide rapid-response economic technical assistance teams 
        and regional conferences on electricity sector reform and 
        planning, oil sector and domestic petroleum fuel policy, and 
        natural gas sector development;
  <bullet> Provide short-term economic and legislative experts to 
        assist the National Assembly to analyze and promulgate economic 
        legislation;
  <bullet> Initiate a 4-month ``Investor Roadmap'' diagnostic of the 
        entire investment process with the Nigerian Investment 
        Promotion Commission (NIPC), the Planning Ministry, and other 
        relevant GON agencies for both Nigerian and foreign investors;
  <bullet> Initiate a high-level, bi-annual, U.S.-Nigeria Joint 
        Economic Partnership Committee (JEPC) to identify further areas 
        of mutual interest and cooperation as well as build 
        relationships between USG agencies and enhance commercial and 
        economic ties;
  <bullet> Initiate pilot efforts in key locales (including select 
        rural areas, possibly including the Niger Delta) to establish 
        market-oriented micro-credit programs, rudimentary business 
        development, and management training for small- and medium-
        sized enterprise development;
  <bullet> Establish a commercial law development program in Nigeria 
        and promote a dialogue on sound regulatory policy between the 
        GON and members of the Nigerian and foreign private sectors; 
        and
  <bullet> Initiate and provide assistance to a Trade and Investment 
        Framework Agreement (TIFA) with Nigeria to formalize and 
        regularize discussions of issues of mutual interest and concern 
        in these areas.
            Illustrative Medium Term Actions/Activities (6-18 months)
  <bullet> Initiate a Leland Initiative program to improve the 
        telecommunications regulatory structure, provide hardware and 
        software, establish internet-linked centers in key government 
        Ministries and institutions research institutions and local 
        governments, and establish economic development-oriented and 
        distance-learning opportunities;
  <bullet> Provide municipal management specialists for short-term 
        visits to each of the 36 state capitals and the Federal Capitol 
        Territory (FCT), to provide training programs for state and 
        local officials on, e.g., budgeting, utilities and 
        environmental management, and urban planning;
  <bullet> Establish ``sister city'' programs with U.S. cities focused 
        on local government economic development strategies for Lagos 
        and Abuja;
  <bullet> Provide technical assistance through retired business 
        executive volunteers to the Nigerian chambers of commerce and 
        business organizations, and assist business advisory groups to 
        improve their ability to interact effectively with the GON on 
        policy issues;
  <bullet> Establish institutional links based on Leland Initiative and 
        other infrastructure between Nigerian policy-makers, academic 
        economists and private sector research institutions and the 
        African Economic Research Consortium (AERC), and assist 
        Nigerian universities in accessing and financing the economics 
        training, curriculum development and standards-raising services 
        available through the AERC;
  <bullet> Promote the establishment of close institutional links of 
        economic training, research and student and faculty exchange 
        between Nigerian and U.S. universities;
  <bullet> Improve Nigeria's commercial links to West Africa and the 
        rest of the continent by examining potential opportunities to 
        reduce barriers to trade and investment, promoting business 
        ties, and introducing programs funded under the USG-funded 
        African Trade and Investment Program (ATRIP);
  <bullet> Expand micro-credit programs throughout Nigerian 
        communities; and
  <bullet> Establish and equip an economic policy institute in Abuja.
C. Political Structures and Democracy
    Challenge: After sixteen years of military rule, Nigerians have 
ushered in a newly elected democratic government that has raised hope 
and optimism about the future. It is a cautious optimism, contingent on 
performance and not mere promise. Democratic performance will be 
necessary not only to keep alive the democratic spirit, but also to 
give the government some breathing room for economic reform. Over the 
long term, democratic and economic performance should be reinforcing. 
The democratic transition must be nurtured quite apart from the 
economic and social changes that it is expected to bring. However, if 
the democratically elected government cannot provide a framework under 
which services are restored and economic progress is tangible, the 
democratic transition itself will be at risk.
    Strategy: The USG could support the democratic transformation by 
providing assistance in several institutional arenas. This could 
include: constitutional reform, national assembly, state and local 
government, the executive branch, non-governmental organizations 
(NGOs), media, labor, political parties, international narcotics and 
financial crimes, conflict prevention and reconciliation, and rule of 
law.
            Illustrative Immediate Term Actions/Activities (1-6 months)
International Narcotics and Financial Crimes:

  <bullet> Open and maintain a dialogue between the U.S. Justice 
        Department and newly appointed, key Nigerian officials on law 
        enforcement issues, including inviting the Attorney General and 
        the Assistant Inspector General heading the National Drug Law 
        Enforcement Agency to the United States to discuss the present 
        state of drug trafficking and financial white collar crimes.
  <bullet> Develop a precise plan of action to enable Nigeria to be 
        recommended for full narcotics certification, implemented by 
        the U.S. Justice Department in conjunction with the Department 
        of State's International Narcotics and Law Enforcement Affairs 
        Bureau (INL);
  <bullet> Pass information from U.S. law enforcement agencies to 
        Nigerian counterpart authorities for assistance and follow-up, 
        sting and lure operations, and to support expedited extradition 
        and judicial assistance; and
  <bullet> Undertake a joint counter-narcotics assessment with the 
        European Union and the United Nations Development Program.

National Assembly:

  <bullet> Develop an integrated program of assistance for the National 
        Assembly to build its oversight and legislation development 
        capacities;
  <bullet> Provide direct support to the National Assembly to assist it 
        in analyzing the supplemental budget bill to be submitted by 
        President Obasanjo on July 15, 1999; and
  <bullet> Provide technical assistance, either through the Department 
        of Justice or U.S. law associations, to the National Assembly 
        in drafting anti-corruption legislation.

Executive:

  <bullet> Support the World Bank's corruption diagnostic, which 
        provides a comprehensive picture of corruption in a society 
        through surveys, interviews, and workshops; and
  <bullet> Support World Bank civil service reforms to end corruption 
        in public office.

Labor:

  <bullet> Support organized labor in staging economic fora that draws 
        together government, civil society, and the international 
        financial institutions to discuss privatization and 
        deregulation issues, and their impact on the labor market.

Rule of Law:

  <bullet> Sponsor senior-level U.S. judges (including, if possible, a 
        Supreme Court justice) to meet with federal and state Nigerian 
        judges to promote judicial independence and the rule of law;
  <bullet> Provide technical assistance to the chief justice of Nigeria 
        in the convening of an advisory committee that will assist the 
        Chief Justice to make rulings for human rights cases under 
        section 46(3) of the Nigerian Constitution.
            Illustrative Medium Term Activities Actions (6-18 months)
Constitutional Reform:

  <bullet> Sponsor consultative workshops or other fora to promote 
        public debate on the Constitution.

Rule of Law:

  <bullet> Establish a Department of Justice police training program;
  <bullet> Develop a U.S. Department of Justice-sponsored training 
        program for Nigerian judiciary and executive branch officials 
        who deal with prosecuting public officials, money laundering, 
        and asset forfeiture;
  <bullet> Provide technical assistance to the Nigerian court system to 
        build operational capacity to handle court records, prepare 
        budgets, make budget presentations to the legislature, and the 
        like; and
  <bullet> Establish a linkage between U.S. judiciary and bar 
        organizations to provide training to the new National Judicial 
        Council in disciplining judges and managing disbursements, as 
        well as training to the Federal Judicial Service Commission in 
        investigating complaints against judges and court personnel.

State & Local Government:

  <bullet> Provide technical assistance to the executive and 
        legislative branches of government at the state and local 
        levels to build their governance capacities.

Non-Governmental Organizations (NGOs):

  <bullet> Initiate a comprehensive capacity building program with a 
        small and carefully selected group of NGOs to strengthen their 
        policy research and advocacy capabilities to shape the public 
        agenda in the areas of constitutional reform, women's political 
        participation and minority interests, civic education, conflict 
        management, and privatization and deregulation; and
  <bullet> Undertake a comprehensive capacity building program with a 
        small group of selected NGOs working in the anti-corruption 
        field to strengthen their investigative, research, and 
        monitoring capabilities.

Media:

  <bullet> Undertake a program to foster and develop independent media 
        in Nigeria by focusing on the legal enabling environment for 
        media freedom, training in investigative reporting in the field 
        of economics, strengthening media sector support and law and 
        policy organizations, and encouraging financial independence 
        for diverse and plural media outlets.

Political Parties:

  <bullet> Provide organizational support to political parties in 
        campaign techniques, platform development, constituency 
        outreach, media relations, leadership development, women's 
        political participation, and coalition building.
D. Infrastructure
    Challenge: An efficient and modern infrastructure is fundamental 
for economic development. The absence of a modern infrastructure in 
Nigeria not only hinders economic production and contributes to a 
malaise, but also clouds the advantages of democracy and an open and 
free market. The net result of this has been inconsistent services, 
which frustrate businesses and the populace, and strangle economic 
growth.
    Nigeria's infrastructure assets have been mismanaged and allowed to 
deteriorate due to a lack of maintenance and investment. New investment 
in basic infrastructure development. and improvement is a key component 
of any economic reform initiative.
    Strategy: The USG could help the Nigerian Government restructure 
its investment and management of infrastructure assets, focusing its 
assistance efforts on Nigerian transportation sector that consists of 
roads, water, air, telecommunications and transportation as well the 
energy sector.
            Illustrative Immediate Actions/Activities (1-6 months)
  <bullet> Assess all modes of transportation by fielding a technical 
        team to Nigeria.

Aviation:

  <bullet> Engage the GON on the measures needed to ensure the 
        reestablishment of the air link between the United States and 
        Nigeria;
  <bullet> Perform an assessment of Nigeria's aviation safety oversight 
        capabilities;
  <bullet> Conduct 10 aviation security courses with the assistance of 
        the International Civil Aviation Organization (ICAO) and the 
        Federal Aviation Agency;
  <bullet> Provide a security expert to assist in drafting legislation 
        to establish a new legal structure governing aviation security; 
        and
  <bullet> Conduct an aviation security survey and assessment.

Rail:

  <bullet> Conduct a study, in cooperation with the World Bank, on 
        privatizing the rail system.

Energy:

  <bullet> Provide technical advice and assistance and engage the 
        Nigerian government in a serious dialogue on energy policy and 
        regulatory issues aimed at removing price controls, introducing 
        competition, and privatizing parts of the petroleum and 
        electric power sectors;
  <bullet> Provide policy advice and technical assistance to help the 
        Nigerian government devise a clear, comprehensive, and 
        consistent policy for the downstream oil and gas market, which 
        will include removal of price controls, the provision of 
        competitively priced products to remote markets, and possible 
        privatization of refining and distribution;
  <bullet> Provide policy advice and technical assistance focusing on 
        removing the most pressing technical and economic obstacles to 
        the provision of reliable power services, such as electricity 
        pricing, billing, and collection issues, improved operation of 
        transmission and distribution systems, and the introduction of 
        competition through the use of independent power producers;
  <bullet> Conduct as part of the short-term action plan, workshops, 
        seminars, and training activities on gas utilization, energy 
        pricing, independent power, asset valuation, structural reform, 
        regulation, and the role of the private sector; and
  <bullet> Provide solar village power and ultraviolet water 
        purification systems for rural application as pilot program 
        demonstrations of progress.
            Illustrative Medium Term Actions/Activities (6-18 months)
Roads:

  <bullet> Conduct a feasibility study on the projected need for 
        additional, and the rehabilitation of existing, farm-to-market 
        roads in conjunction with the World Bank.

Energy:

  <bullet> Address energy sector restructuring and privatization 
        issues, the introduction and development of an independent 
        regulatory function pricing reforms, system reliability and 
        quality of service issues, support for energy efficiency and 
        rural electrification, deployment of new and renewable energy 
        technologies, environmental protection, and other public policy 
        objectives;
  <bullet> Explore options for rewarding new licenses for oil and gas 
        exploration and development activities, production sharing 
        contracts, and options for sharing revenue from oil and gas 
        development with local governments; and
  <bullet> Consider options for improving regional energy cooperation 
        in developing natural gas and electricity resources for West 
        Africa.
E. Agriculture
    Challenge: Nigeria is endowed with an abundant agricultural 
resource base. Historically, the agriculture sector was its major 
source of employment; income generation, foreign exchange, and provided 
basic human needs and raw materials for agro-industries. However, with 
the introduction of oil, the agriculture sector was neglected by the 
ruling military regimes in favor of the ``get rich quick'' payoffs from 
oil profits. As a result of this, Nigeria's agriculture no longer 
performs its traditional role as a major development and growth sector 
of the Nigerian economy. Today, the government's role in the 
agricultural sector has essentially been reduced to one of inadequate 
support and stimulus and ineffective regulation.
    Strategy: The USG could assist the Government of Nigeria to 
diversify its economy and reestablish agriculture as a major 
contributor to the economic growth of the country. Despite the years of 
neglect under military rule, Nigeria has maintained one of the highest 
sustained rates of agricultural growth in Africa over the past decade.
            Illustrative Immediate Actions/Activities (1-6 months)
  <bullet> Provide assistance in reestablishing and strengthening 
        Nigerian agricultural research capacity by expanding linkages 
        between United States and Nigerian researchers and institutes;
  <bullet> Conduct an agricultural sector assessment and a high-level 
        dialogue with Nigerian agricultural officials to attain a 
        detailed understanding of the state of agriculture in Nigeria 
        and to identify areas for suppbrt and mutual cooperation;
  <bullet> Explore the feasibility of resurrecting the defunct Joint 
        U.S.-Nigeria Joint Agricultural Consultative Committee (JACC) 
        to determine if it or some like mechanism is warranted, and 
        work on expanding two-way trade and establishing joint business 
        ventures between the U.S. and Nigeria;
  <bullet> Support various two-way trade missions comprised of 
        potential business interests in the agriculture sector;
  <bullet> Utilize the Export Credit Guarantee scheme to stimulate the 
        sale of U.S. agriculture commodities;
  <bullet> Provide regulatory and grades and standards support for 
        animal and plant products; and
  <bullet> Establish a broader cooperative mechanism with Nigeria 
        through the establishment of a Consultative Committee on 
        Agriculture (CCA), a high-level bilateral forum chaired by the 
        U.S. Secretary of Agriculture and counterpart ministers of 
        selected countries, to address priority agricultural issues of 
        mutual concern and implement mutually beneficial agricultural 
        programs.
            Illustrative Medium-Term Actions/Activities (6-18 months)
  <bullet> Provide assistance to Nigeria's Agriculture Development 
        Program (ADP) in the following areas: training of extension 
        workers and farmers; environmental issues; forestry 
        development, and youth employment; and
  <bullet> Provide technical assistance in the development of rural 
        transportation, feeder roads, and jetties, rural 
        industrialization, rural energy (electrification, solar, and 
        biogas), rural water supply, and credit availability.
Social Sector: Health
    Challenge: Nigeria's population was estimated to be 108 million in 
1998, making it the most populous country in Africa. The population is 
composed of about 25 million infants under one year of age, 17 million 
under five, and 25 million women of child bearing age (15-49) years. 
The fertility rate, although high, has decreased from 8.2 in 1982 to 
the present rate of 6.5. The continuing burden of high fertility and 
population growth rates on the health of Nigerian families, the 
nation's agriculture and food availability, and the social and health 
services is unacceptable for achieving sustainable development.
    HIV/AIDS is a growing problem in Nigeria. It is estimated as of 
June 1999 that over 5 million Nigerians are living with HIV infection. 
The first case of AIDS was reported in Nigeria in 1986, yet it took the 
GON six years before it was able to carry out its first HIV sentinel 
survey, with assistance from World Health Organization (WHO). The 
national prevalence rate was then (1992) estimated to be 1.2 percent. 
Since then, the number of HIV infected individuals in Nigeria has 
increased rapidly from about 600,000 in 1992, through 1,900,000 in 
1994, and 2,250,000 in 1996, to over 3-4 million in 1998.
    Strategy: The United States could assist Nigeria in expanding its 
health program to improve child survival and reproductive health. 
Specific assistance could be provided to assist the GON in developing a 
nationwide campaign to reduce the spread of HIV/AIDS.
            Illustrative Immediate Actions/Activities (1-6 months)
  <bullet> Expand the current USAID health program in order to 
        undertake family planning and reproductive health advocacy with 
        the private sector, leading decision-makers, traditional 
        leaders, religious leaders, opinion leaders, and community 
        leaders;
  <bullet> Review and resume under the USAID health program the 
        implementation of the national Information Education and 
        Communication strategies; and
  <bullet> Develop quickly a campaign for measles immunization in the 
        12 states where USAID currently has a working presence, 
        providing equal geographic representation nationwide, with a 
        focus on six cities--Lagos, Ibadan, Onisha, Aba, Kano, and 
        Bauchi.

HIV/AIDS:

  <bullet> Provide, through the U.S. Department of Defense, intensive 
        training in counseling for all troops, families, and their 
        civilian neighbors, with a special effort to reach adolescents;
  <bullet> Assist the GON and the private sector (including NGOs) to 
        develop strong and articulate advocacy initiatives and build 
        their capacity to confront the AIDS epidemic and improve HIV/
        AIDS prevention and impact mitigation skills;
  <bullet> Develop a comprehensive advocacy tool (AIDS Impact Model) 
        that highlights the impact of HIV/AIDS on the country's 
        socioeconomic life;
  <bullet> Convene a national HIV/AIDS conference at a political and 
        multi-sectoral level in support of advocacy; and
  <bullet> Strengthen national HIV/AIDS monitoring and surveillance 
        systems and the design, implementation, and evaluation of 
        behavior change interventions, including improved condom 
        availability.
            Illustrative Medium-Term Actions/Activities (6-18 months)
  <bullet> Conduct a phase II campaign for measles immunization in FY 
        2000 in the same 12 states as mentioned above with a 
        continuation of measles and polio ``mop-up'' activities; 
        phasing in a DPT and BCG (anti-TB) component at this point and 
        scaling up to 24 states;
  <bullet> Conduct phase III which will be the implementation of the 
        full immunization program and a scale-up to nationwide 
        coverage, key components of which include cold chain 
        strengthening, increased supply of vaccines and auto-destruct 
        needles, government capacity building, and materials for 
        institutional strengthening;
  <bullet> Determine national contraceptive requirements, with a focus 
        on capacity building, including training and retraining of 
        service providers to counsel and deliver quality services and 
        revitalizing the management information system to measure the 
        effectiveness of the population program; and
  <bullet> Expand USAID's health program to provide training for 
        private sector female providers to meet the current gap in 
        sustainable private-sector reproductive health services and 
        counseling.
G. Social Sector: Education
    Challenge: In 1984 Nigeria's education system was a model for the 
rest of Africa, but after years of neglect by successive military 
regimes it is practically non-functional. Education's share of the 
national budget is under 20 percent, one of the lowest in Africa for a 
country that has over 50 percent of its population, or 55 million 
children, under 15 years of age. By contrast, education's share of the 
national budget in Ghana is over 40 percent. Educational institutions 
typically have overcrowded dilapidated classrooms, few supplies and 
basic instructional materials, and poorly trained, unmotivated, and 
underpaid teachers. Academic standards have dropped drastically, 
because there is neither a focus on the quality of education, nor the 
political will to allocate needed resources to the education sector. 
There is a marked lack of participation in the education sector by 
communities and civil society.
    Youth, ages 15 to 30, constitute a majority of the population. The 
lack of jobs in the economy for new entrants into the labor force is a 
major problem and ultimately the source of conflict and crime, 
especially in places like the Delta.
    Strategy: The USG could support the GON in thinking through the 
management, planning, and oversight abilities of government agencies 
and how to realign its education system to respond to the needs of the 
students and, in the case of secondary education, their prospective 
employers. The USG could assist the GON to think through the issues 
involved in returning to the high standards of its tertiary 
institutions. Additionally, support could be provided for a technical 
education special initiative to meet the needs of unemployed youth and 
the productive sector.
            Illustrative Immediate Actions/Activities (1-6 months)
  <bullet> Conduct unemployed youth and unemployment sector 
        assessments;
  <bullet> Conduct an education sector assessment to include the 
        primary, secondary and tertiary levels to examine the status of 
        the education system and seek strategies for systemic 
        improvement;
  <bullet> Initiate an education sector policy dialogue with the GON;
  <bullet> Explore opportunities offered by information technology 
        under the Leland Initiative to link university research, 
        teaching and services to local, regional and national 
        development needs, and establish and strengthen networks among 
        national, regional (Association for the Development of 
        Education in Africa), international and U.S.-based tertiary 
        institutions; and
  <bullet> Undertake a study tour undertaken for 13 newly elected 
        female legislators through the Education for Development and 
        Democracy Initiative under the auspices of the Michigan State 
        University partnership with the Institute of African Democracy, 
        Council for the Development of Social Science Research in 
        Africa, and the West African Research Centre.
            Illustrative Medium-Term Actions/Activities (6-18 months)
  <bullet> Implement, upon completion of assessments, training programs 
        in the workplace and at institutional training sites, with 
        sites selected to match the greatest need for well-trained 
        employees and, to a lesser extent, the pooi of unemployed 
        youth, and with a follow-on assessment after year depending on 
        increased demand from industry.
  <bullet> Under the auspices of Education for Development and 
        Democracy Initiative (EDDI):
  <bullet> Establish one or more partnerships with leading U.S. and 
        Nigerian universities via the Internet;
  <bullet> Support, through The League of Women Voters Education Fund, 
        exchanges between Nigeria and the League of Women Voters 
        Chapter in Oklahoma to develop techniques for more effective 
        political participation; and
  <bullet> Initiate a scholarship fund through the American Embassy to 
        encourage girls to attain higher levels of formal education.
                        v. cross-cutting issues
    Challenge: Nigeria's chances of responding to the opportunities 
created by the transition from military to civilian rule, and 
undertaking a progressive political and economic transformation, are 
hampered in practically every sphere of life by corruption, lack of 
capacity to implement change, and conflict. President Obasanjo, leaders 
of the elected bodies, private sector, and civil society all concur in 
citing these three special problems: corruption, lack of capacity, and 
conflict. The USG recognizes the importance of these crosscutting 
issues, and has the capacity to develop approaches in each sector to 
deal with these issues.
A. Corruption
    Strategy: Many public statements have been made that focus on 
stamping out the causes and not the symptoms of corruption. Given the 
pervasive nature of corruption in Nigerian society, USG assistance will 
not be limited to any one initiative or sector. Assistance could be 
given to executive, legislative, and judicial branches as needed to 
tackle the problem in their various areas of competence. Civil society 
oversight is essential, as an element of participation in the 
democratic process. Private sector complicity with corruption should be 
matched with private sector engagement in anti-corruption efforts.
            Illustrative Immediate Actions/Activities (1-6 months)
  <bullet> Rigorously enforce the Foreign Corrupt Practices Act, and 
        assist Nigerian law enforcement entities to coordinate with 
        U.S. government agencies.
            Illustrative Medium Term Actions/Activities (6-18 months)
  <bullet> Support civil society programs monitoring state and federal 
        government performance;
  <bullet> Provide technical assistance to government bodies 
        undertaking civil service reform, including downsizing of the 
        public sector, upward adjustment of wages, strict application 
        of entry and promotion exams;
  <bullet> Provide technical assistance to the Code of Conduct Bureau 
        and the Code of Conduct Tribunal, and other bodies charged with 
        investigation and prosecution of corruption; and
  <bullet> Support anti-corruption initiatives in a broad range of 
        public and private institutions, such as Transparency 
        International.
B. Capacity Building
    Strategy: Human capacity development was not a priority under 
military government. As a result, Nigerian institutions suffered and 
are now unable to effectively manage financial and human resources. 
Their development of action plans and implementation of these plans are 
weak. Nigerians, aware of this shortcoming, are eagerly requesting 
training, capacity building and, skill development.
            Illustrative Immediate Actions/Activities (1-6 months)
  <bullet> Provide the GON and private sector with high-level planning 
        assistance, followed by technical assistance on the management 
        of change; and
  <bullet> Work with top-level policymakers in the legislative and 
        executive branches to help them achieve more specificity in the 
        enunciation of policy choices, and help the appropriate 
        implementing agencies develop detailed and consistent action 
        plans.
            Illustrative Medium Term Actions/Activities (6-18 months)
  <bullet> Help develop a unit of Nigerian and expatriate ``methodology 
        specialists'' who can rotate among various entities, helping 
        with the process of problem solving;
  <bullet> Select critical offices of the GON and provide them with 
        longitudinal technical assistance, not just occasional 
        capacity-building workshops; and
  <bullet> Select a limited number of local government areas (LGAs) to 
        receive assistance and serve as ``centers of excellence,'' 
        models of replicable change.
C. Conflict
    Strategy: Violent conflict or the threat of it continues to impede 
Nigeria's efforts to create a secure environment within which 
sustainable peace and development can be maintained. Poverty, lack of 
opportunity, corruption, the impunity enjoyed for so long by repressive 
military regimes, and weakened civil society institutions all continue 
to nurture the seeds of violence in this country.
            Illustrative Immediate Action/Activities (1-6 months)
  <bullet> Assist the GON and civil society in development initiatives 
        for the Niger Delta involving all stakeholders, including the 
        national government, state and local governments, advocacy 
        groups, the oil companies, ethnic groups, and civil society 
        groups; and
            Illustrative Medium Term Actions/Activities (6-18 months)
  <bullet> Work with the Nigerians to create a nationwide early warning 
        and response network based on the development and maintenance 
        of a dynamic Global Information System (GIS) map-based conflict 
        information system and designed to anticipate and prevent 
        conflict situations.
  <bullet> Provide technical assistance to assist the Nigerians in 
        building the institutional capacity of indigenous Nigerian 
        conflict prevention and reconciliation groups to be more 
        effective in their work.
                             vi. conclusion
    The next 18 months are crucial to solidifying the process of 
democratic transition in Nigeria. The elections were only one step in 
this process. The public euphoria over the return to civilian rule will 
quickly evaporate if concrete actions are not taken to fulfill election 
promises. Immediate assistance is needed to help the GON establish a 
positive economic tone and build the institutional capacity and 
political will for reforms and innovation that will spur growth and 
maximize the support of the international community for President 
Obasanjo's ambitious agenda. The United States has both the expertise 
and the mechanisms with which to help this government make change 
positive, irreversible and ultimately self-sustaining. The two 
constraints to responding to the findings of this report are limited 
financial resources and moderate institutional capacity.
    Nigeria is important to the United States. What happens in Nigeria 
could affect the future of the African continent as well as the United 
States' ability to achieve its multi-faceted goals in Africa. The 
United States can and should play a major role in helping Nigeria 
realize its great potential.

                                  
                                <all>
</pre></body></html>
